<html>
<title> - SOCIAL, BEHAVIORAL, AND ECONOMIC SCIENCE RESEARCH: OVERSIGHT OF THE NEED FOR FEDERAL INVESTMENTS AND PRIORITIES FOR FUNDING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                    SOCIAL, BEHAVIORAL, AND ECONOMIC 
                           SCIENCE RESEARCH: 
   OVERSIGHT OF THE NEED FOR FEDERAL INVESTMENTS AND PRIORITIES FOR 
                                FUNDING 

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, JUNE 2, 2011

                               __________

                           Serial No. 112-22

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

66-563 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 









              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                     HON. MO BROOKS, Alabama, Chair
ROSCOE G. BARTLETT, Maryland         DANIEL LIPINSKI, Illinois
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       PAUL D. TONKO, New York
ANDY HARRIS, Maryland                JOHN P. SARBANES, Maryland
RANDY HULTGREN, Illinois             TERRI A. SEWELL, Alabama
LARRY BUCSHON, Indiana                   
DAN BENISHEK, Michigan                   
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas

























                            C O N T E N T S

                         Thursday, June 2, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Mo Brooks, Chairman, Subcommittee on 
  Research and Science Education, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     7
    Written Statement............................................     7

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................    10

                               Witnesses:

Dr. Myron Gutmann, Assistant Director, NSF Social, Behavioral, 
  and Economic Science Directorate
    Oral Statement...............................................    11
    Written Statement............................................    13

Dr. Hillary Anger Elfenbein, Associate Professor, Washington 
  University in St. Louis
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Peter W. Wood, President, National Association of Scholars
    Oral Statement...............................................    29
    Written Statement............................................    30

Ms. Diana Furchtgott-Roth, Senior Fellow, Hudson Institute
    Oral Statement...............................................    36
    Written Statement............................................    37

              Appendix: Answers to Post-Hearing Questions

Dr. Myron Gutmann, Assistant Director, Directorate for Social, 
  Behavioral, andEconomics Sciences, National Science Foundation.    62

Dr. Hillary Anger Elfenbein, Associate Professor of 
  Organizational Behavior, OlinBusiness School, Washington 
  University in St. Louis........................................    69

Dr. Peter W. Wood, President, National Association of Scholars...    73

Ms. Diana Furchtgott-Roth, Senior Fellow, Hudson Institute.......    75


                SOCIAL, BEHAVIORAL, AND ECONOMIC SCIENCE
                       RESEARCH: OVERSIGHT OF THE
                    NEED FOR FEDERAL INVESTMENTS AND
                         PRIORITIES FOR FUNDING

                              ----------                              


                         THURSDAY, JUNE 2, 2011

                  House of Representatives,
    Subcommittee on Research and Science Education,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mo Brooks 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                      SUBCOMMITTEE ON RESEARCH AND

                           SCIENCE EDUCATION

                     U.S. HOUSE OF REPRESENTATIVES

                    Social, Behavioral, and Economic

                           Science Research:

             Oversight of the Need for Federal Investments

                       and Priorities for Funding

                         thursday, june 2, 2011
                           10:00 am-12:00 pm
                   2318 rayburn house office building

1. Purpose

    On Thursday, June 2, 2011, the Subcommittee on Research and Science 
Education will hold a hearing to examine the need for Federal 
investments in the social, behavioral, and economic sciences; to better 
understand the impact of this type of research; and to assess its value 
to the American taxpayer. The hearing will also examine Federal 
research funding and priorities for these sciences at the National 
Science Foundation, including the fiscal year 2012 budget request.

2. Witnesses

Dr. Myron Gutmann, Assistant Director, Directorate for Social, 
Behavioral, and Economics Sciences, National Science Foundation.

Dr. Hillary Anger Elfenbein, Associate Professor of Organizational 
Behavior, Olin Business School, Washington University in St. Louis.

Dr. Peter W. Wood, President, National Association of Scholars.

Ms. Diana Furchtgott-Roth, Senior Fellow, Hudson Institute.

3. Overview

    <bullet>  The social, behavioral, and economic sciences consist of 
a wide array of fields, including anthropology, archaeology, economics, 
geography, linguistics, history, neuroscience, political science, 
psychology, sociology, criminology and law. Often multidisciplinary in 
nature, the social sciences can provide insight into human behavior 
that is essential to developing and understanding new technologies and 
science.

    <bullet>  The main support for basic research in the (non-medical) 
social and behavioral sciences comes from the National Science 
Foundation (NSF), accounting for approximately 58 percent of federal 
support for basic research at U.S. colleges and universities.

    <bullet>  Within NSF, the Directorate for Social, Behavioral, and 
Economic Sciences (SBE) is responsible for the varied research 
endeavors that fall under these sciences. SBE has requested $301.1 
million for FY12, an 18 percent increase from FY10 enacted funding 
levels. SBE supports approximately 58 percent of Federally funded basic 
research in academic institutions in the social, behavioral, and 
economic science fields.

4. Background

Social, Behavioral, and Economic Sciences
    The social, behavioral, and economic sciences focus on human 
activity. Historically rooted, evidence of these sciences can be traced 
to ancient philosophers, scientific pioneers of their time. The focal 
point of social, behavioral, and economic sciences is the analysis of 
the human brain, human behavior, and the actions of groups and 
organizations. ``The social, behavioral and economic sciences comprise 
a number of different disciplines focused on the common goal of 
developing a deeper understanding of human beings at every level, from 
brains, to individual behavior, to societies.The quest for deeper 
understanding of humans is key to managing society's most critical 
challenges.'' \1\
---------------------------------------------------------------------------
    \1\  Social, Behavioral and Economic Research in the Federal 
Context, National Science and Technology Council, Subcommittee on 
Social, Behavioral and Economic Sciences, January 2009.
---------------------------------------------------------------------------
    Anthropology, archaeology, economics, geography, linguistics, 
neuroscience, political science, psychology, sociology, and statistics 
are just some of the diverse fields that fall under the social, 
behavioral, and economic sciences. From research about historical 
migration patterns to research about speech patterns, these sciences 
cross a myriad of issues that have influenced or will affect human 
development.
    Examples of research in the social, behavioral, and economic 
sciences include the study of the human behavior under stress in order 
to understand and address the effects of combat tours of duty or 
extended deployments; the study of nuclear deterrence strategy during 
the Cold War; examining the causes and consequences of criminal 
behavior; and economic measurements regarding the effects and 
significance of Federal budget deficits. \2\
---------------------------------------------------------------------------
    \2\  Fostering Human Progress: Social and Behavioral Science 
Research Contributions to Public Policy, Consortium of Social Science 
Associations, October 2001.
---------------------------------------------------------------------------
The Federal Role
    Policy researchers and economists tend to agree that public 
investment in science can yield high rates of return to society. 
``Without the data, research, and analyses that [social, behavioral, 
and economic] scientists can provide, there is a greater likelihood of 
engaging in ineffective or counterproductive policies.'' \3\ Examples 
of scientific progress and policy applications stemming from social, 
behavioral, and economic sciences are abundant. Collecting data after 
natural or man-made disasters is essential for preparing for potential 
catastrophes, training emergency response teams, and planning emergency 
procedures. Research on the spread of infectious disease utilizes 
statistical models accounting for numerous variables allowing for a 
better understanding of how and why disease spreads as well as the 
identification of methods to mitigate the spread of disease. Complex 
national security missions, which range from counterinsurgency to 
security and stability operations, are better served by a security 
force that understands and appreciates the individual, tribal, 
cultural, ethnic, religious, social, economic, and other aspects of the 
local human terrain.
---------------------------------------------------------------------------
    \3\  Social, Behavioral and Economic Research in the Federal 
Context, National Science and Technology Council, Subcommittee on 
Social, Behavioral and Economic Sciences, January 2009, p. 5.
---------------------------------------------------------------------------
    In January 2009, the Bush Administration released a National 
Science and Technology Council Report, Social, Behavioral and Economic 
Research in the Federal Context, providing the most recent assessment 
of the Federal role and opportunities for the social, behavioral, and 
economic sciences in order to ``provide policymakers with evidence and 
information that may help address many current challenge areas in 
society, including education, health care, the mitigation of terrorism, 
the prevention of crime, the response to natural disasters, and a 
better understanding of our rapidly changing global economy.'' \4\
---------------------------------------------------------------------------
    \4\  Ibid, cover letter.
---------------------------------------------------------------------------
    The report listed three foundational research themes: 1) 
Understanding the Structure and Function of the Brain in order to 
provide insight into individual behaviors; 2) Understanding the 
Complexity of Human Societies and Activities to capture the webs of 
interpersonal and interorganizational ties within and across 
populations; and 3) Understanding Human Origins and Diversity.
    In addition, the report identified four key priority research areas 
for the Federal government: 1) Develop specific tools and technologies 
for social, behavioral, and economic studies; 2) improve methods for 
collecting and managing data; 3) Build more integrated systems to allow 
for sharing across data sets; and 4) Focus on scientific questions with 
immediate policy implications to ensure that policies generate evidence 
of their efficacy.
    While calling for ``sustained investment and ongoing dialog among 
Federal agencies, academic and private sector researchers, and 
policymakers,'' \5\ the report also notes that not all social, 
behavioral, or economic sciences ``require or are even appropriate for 
government support. For example, consumer behavior and the successes 
and failures of commercial marketing campaigns are major targets of SBE 
research but are well funded through industry support.'' \6\
---------------------------------------------------------------------------
    \5\  Ibid, p. 2
    \6\  Ibid, p. 6
---------------------------------------------------------------------------
Federal Funding
    Basic and applied research in the social, behavioral, and economic 
sciences is funded out of a number of federal agencies, led by the 
National Institutes of Health (NIH) and the National Science Foundation 
(NSF). According to research funding statistics compiled by NSF, \7\ a 
total of $1.12 billion was obligated to basic and applied research in 
all social sciences for fiscal year 2009 (FY09), including economics. 
Psychology was counted separately and was funded at a total of $1.86 
billion in FY09, of which $1.71 billion was funded by Health and Human 
Services (primarily NIH). Federal support for academic research in 
particular was $733 million for social sciences and $856 million for 
psychology.
---------------------------------------------------------------------------
    \7\  Preliminary data for FY2009 federal research obligations. 
National Center for Science and Engineerings Statistics. National 
Science Foundation. Data are based on self-reporting by agencies. In 
many cases, especially where there is interdisciplinary work, it is 
hard to tally exact dollars spent on one field or another, so these 
values are at best an estimate.
---------------------------------------------------------------------------
    The basic Federal research funded in the social, behavioral, and 
economic sciences focuses on understanding why humans think, feel and 
act the way they do; the study of interpersonal behavior from small 
groups to global forces; how humans relate to the rest of the natural 
world; and how we came to possess our uniquely human abilities. The 
main support for basic research in the (non-medical) social and 
behavioral sciences comes from the NSF, accounting for approximately 58 
percent of federal support for basic research at U.S. colleges and 
universities. In some fields, including archaeology, political science, 
linguistics, and non-medical aspects of anthropology, psychology, and 
sociology, NSF is the predominant or exclusive source of federal basic 
research support.
    The SBE budget request for FY12 is $301 million, an 18 percent 
increase over FY10. Approximately 14 percent of SBE's budget is used 
not for basic research but to fund the collection and analysis of data 
on science and engineering research, education, and workforce trends 
(including the data presented here), resulting in the biannual ``S&E 
Indicators.''
The National Science Foundation
    The social, behavioral, and economic sciences have been funded 
since the late 1970s at the National Science Foundation (NSF), 
originally as part of a combined Directorate with biological sciences. 
In the 1990s, the Directorate for Social, Behavioral, and Economic 
Sciences (SBE) was established. The SBE Directorate seeks to ``promote 
the understanding of people and their lives by supporting research that 
reveals basic facets of human behavior; to encourage research that 
helps provide answers to important societal questions and problems; to 
work with other scientific disciplines to ensure that basic research 
and the solutions to problems build upon the best multidisciplinary 
science and to provide mission-critical statistical information about 
science and engineering in the U.S. and the world.'' \8\
---------------------------------------------------------------------------
    \8\  http://www.nsf.gov/sbe/about.jsp
---------------------------------------------------------------------------
    The SBE Directorate supports research that sustains a primary 
knowledge of human behavior and interaction, social and economic 
systems, and organizations and institutions. To improve the 
understanding of science and engineering, SBE provides tools for 
tracking human and institutional resources required to build the 
nation's science and engineering infrastructure. Furthermore, the SBE 
Directorate works to supply evidence and resources to respond to many 
of today's challenges, ranging from education to terrorism. SBE funded 
scientists, who cover myriad scientific fields, perform 
interdisciplinary research that takes advantage of a new set of tools 
and holds the promise of providing insights and solutions not otherwise 
available. Research conducted through SBE includes efforts to 
restructure regulatory mechanisms, assess the impact of economic 
policies on economic growth, and understand the implications of tax 
policy changes in order to bolster work to strengthen the U.S. economy.
    It is important to note that while most of the research currently 
funded by NSF in the social and behavioral sciences is not driven by 
any one application, the line between basic and applied research in 
these fields can often be blurred. For example, a sociologist 
interested in the successes and failures of teamwork in a small 
business environment might make fundamental discoveries applicable to 
other environments, including the military. As a result, much of the 
academic research currently funded by NSF may ultimately find 
application in national security (or other fields), even when the 
research was focused on non-military populations.
    The SBE Directorate has requested $301.1 million for FY12, an 18 
percent increase from FY10 enacted funding levels. \9\ In total, the 
Directorate supports approximately 3,500 senior researchers, 2,500 
graduate students, 1,330 undergraduate students and 700 postdoctoral 
researchers and other professionals at U.S. universities and research 
institutions. Currently, SBE funding accounts for 3.6 percent of the 
entire NSF budget.
---------------------------------------------------------------------------
    \9\  All budget details come from the National Science Foundation 
FY12 Budget Request to Congress, Social, Behavioral and Economic 
Sciences Section.
---------------------------------------------------------------------------
    The SBE Directorate participates in a number of crosscutting and 
NSF-wide projects. The Directorate is organized in four parts:

Division of Behavioral and Cognitive Sciences

    The Division of Behavioral and Cognitive Sciences (BCS) supports 
research and related activities to advance scientific knowledge about 
humans, spanning anthropology, geography, and cognitive and behavioral 
sciences. Fields of study include cognitive neuroscience, language and 
culture, origins and evolution, and the environment. The FY12 budget 
request for BCS is $105.9 million, a 12 percent increase from FY10 
enacted funding levels.

Division of Social and Economic Sciences

    The Division of Social and Economic Sciences (SES) works to improve 
the understanding of human, social and organizational behavior and 
economic, political and social institutions. Research conducted through 
SES includes projects preparing for and mitigating the effects of 
natural disasters and projects focusing on human cognition and 
behavior. The FY12 budget request for SES is $113.8 million, nearly a 
15 percent increase from FY10 enacted funding levels.

Office of Multidisciplinary Activities

    The Office of Multidisciplinary Activities (SMA) is a central 
location for SBE activities that work across disciplinary boundaries. 
SMA works to develop infrastructure support for interdisciplinary 
activities and helps to seed future multidisciplinary activities. 
Minority Postdoctoral Research Fellowships (MPRF), Research Experiences 
for Undergraduates (REU) Sites, Science of Science and Innovation 
Policy (SciSIP), and agency-wide Science of Learning Centers (SLCs) are 
funded out of SMA. The FY12 budget request for SMA is $43.4 million, 
over a 60 percent increase from FY10 enacted funding levels.

National Center for Science and Engineering Statistics

    The National Center for Science and Engineering Statistics (NCSES) 
collects, interprets, analyzes, and disseminates objective data on 
science and engineering, including the widely used biennial Science and 
Engineering Indicators. NCSES data collections include those related to 
U.S. competitiveness and STEM education. NCSES is required to supply 
information that is useful to practitioners, researchers, policymakers, 
and the public, and as such releases nearly 30 reports annually. The 
FY12 budget request for NCSES is $38 million, nearly a 10 percent 
increase from FY10 enacted funding levels.

Major investments in the FY12 SBE Directorate budget request include:

    <bullet>  $57 million, a 174 percent increase, for clean energy 
research in the Science, Engineering, and Education for Sustainability 
(SEES) portfolio (NSF priority investment). In addition to supporting 
the SEES Sustainability Research Networks, Sustainability Energy 
Pathways and Postdoctoral Fellowships, funding will also strengthen 
``existing climate research and energy investments, and [support] both 
existing and new investments in understanding energy use and in 
decision making, coastal communities, and vulnerability and 
resilience.''

    <bullet>  $12 million in new funding for the NSF-wide 
Cyberinfrastructure Framework for 21st Century Science and engineering 
(CIF21) to fund Observation Data network Pilots, Research Data on 
Innovation, research on understanding and designing the 21st century 
networked society, and improved access to the large surveys supported 
by SBE.

    <bullet>  $12 million in new funding for research on cybersecurity, 
economics and society as part of NSF's commitment to research in the 
area of cybersecurity. SBE's specific role will be to support the Cyber 
Economic Incentives theme within Comprehensive National Cybersecurity 
Initiative (CNCI).
    Chairman Brooks. The Subcommittee on Research and Science 
Education will come to order. Good morning. Welcome to today's 
hearing entitled, ``Social, Behavioral, and Economic Science 
Research: Oversight of the Need for Federal Investment and 
Priorities for Funding.'' In front of you are packets 
containing the written testimony, biographies, and truth in 
testimony disclosures for today's witness panel.
    I now recognize myself for five minutes for an opening 
statement.
    Good morning and welcome to all of our witnesses. Today's 
hearing presents us with an opportunity to better understand 
the research being conducted in the social, behavioral, and 
economic sciences and to take a closer look at the federal 
funding of such research.
    The social, behavioral, and economic sciences are those 
that focus on human behavior and interaction. Often termed the 
soft sciences to distinguish them from the physical and life 
sciences, these sciences run the gamut from geography and 
sociology to linguistics and political science. In fact, we 
have four different disciplines represented at the witness 
table today: history, psychology, anthropology, and economics.
    The Federal Government invests in social, behavioral, and 
economic sciences through several agencies in order to better 
understand issues such as how children learn, how soldiers 
think, and how humans react to disease.
    The National Science Foundation, whose oversight falls 
within the jurisdiction of this Subcommittee, is the largest 
federal supporter of the social, behavioral, and economic 
science research, funding close to 60 percent of basic research 
for these sciences at academic institutions. It is my 
understanding that in several disciplines it is either the 
predominant or exclusive source of federal basic research 
support.
    The goal of this hearing is not to question whether the 
social, behavioral, and economic sciences produce interesting 
and sound research, as I believe we all can agree that they do. 
Rather, the goal of our hearing is to look at the need for 
Federal investments in these disciplines, how we determine what 
these needs are in the context of national priorities, and how 
we prioritize funding for these needs, and only, excuse me, not 
only within the social science disciplines but also within all 
science disciplines, particularly when Federal research dollars 
are scarce.
    As with all of the hearings I have chaired or co-chaired 
this Congress, I am particularly interested in understanding 
the NSF investments in these sciences, including the amounts 
asked for in the fiscal year 2012, budget request and how those 
priorities were made. In an effort to be responsive to the 
American taxpayer, Congress needs to ensure that all Federal 
funding decisions are wise and produce significant value for 
this Nation.
    I look forward to a healthy discussion with all of our 
esteemed witnesses today, and I thank you for joining us.
    [The prepared statement of Chairman Brooks follows:]
                Prepared Statement of Chairman Mo Brooks
    Good morning, and welcome to all of our witnesses. Today's hearing 
presents us with an opportunity to better understand the research being 
conducted in the social, behavioral, and economic sciences and to take 
a closer look at the Federal funding of such research.
    The social, behavioral, and economic sciences are those that focus 
on human behavior and interaction. Often termed the ``soft'' sciences 
to distinguish them from the physical and life sciences, these sciences 
run the gamut from geography and sociology to linguistics and political 
science. In fact, we have four different disciplines represented at the 
witness table today: history, psychology, anthropology, and economics.
    The Federal government invests in social, behavioral, and economic 
sciences through several agencies in order to better understand issues 
such as how children learn, how soldiers think and how humans react to 
disease. The National Science Foundation, whose oversight falls within 
the jurisdiction of this Subcommittee, is the largest Federal supporter 
of the social, behavioral, and economic science research, funding close 
to 60 percent of basic research for these sciences at academic 
institutions. It is my understanding that in several disciplines it is 
either the predominant or exclusive source of federal basic research 
support.
    The goal of this hearing is not to question whether the social, 
behavioral, and economic sciences produce interesting and sound 
research, as I believe we all can agree that they do. Rather, the goal 
of our hearing is to look at the need for federal investments in these 
disciplines, how we determine what those needs are in the context of 
national priorities, and how we prioritize funding for those needs, not 
only within the social science disciplines, but also within all science 
disciplines, particularly when federal research dollars are scarce.
    As with all of the hearings I have chaired or co-chaired this 
Congress, I am particularly interested in understanding the NSF 
investment in these sciences, including the amounts asked for in the 
FY12 budget request and how those priorities were made. In an effort to 
be responsive to the American taxpayer, Congress needs to ensure that 
all federal funding decisions are wise and produce significant value 
for the Nation.
    I look forward to a healthy discussion with all of our esteemed 
witnesses today, and I thank you for joining us.

    Chairman Brooks. The Chair now recognizes Mr. Lipinski from 
Illinois for an opening statement.
    Mr. Lipinski. Thank you, Chairman Brooks. As a former 
social scientist this is a topic of particular interest to me. 
In the 110th Congress when Congressman Baird chaired this 
Subcommittee, he held a series of three hearings examining the 
role of social, behavioral, and economic sciences in helping 
develop solutions to some of society's most pressing 
challenges.
    There was a focus of these hearings on energy, national 
security, and health. During these hearings we heard testimony 
from 13 witnesses, all of whom agreed with little or no 
reservation that the SBE sciences provide significant benefits 
to the society and a good return on taxpayer investments.
    Now, a few years before that when Republicans held the 
majority and my friend Bob Inglis chaired the Subcommittee, he 
held a hearing on the role of social science research in 
disaster preparedness and response. I want to elaborate a bit 
on that topic in particular because I believe that with the 
severe floods, tornados, wildfires, hurricanes, and oil spills 
that hit many of our communities in recent years and the loss 
of life and property we have witnessed from some of these 
events, especially just in the last few weeks, this will 
resonate with all of us.
    The Geography and Spatial Sciences Program within the SBE 
Directorate has been instrumental in advancing the use of 
geographic information systems or GIS. These tools have helped 
us visualize and understand the vulnerabilities of communities 
to natural disasters, and they have helped policymakers make 
better decisions on where to site the critical infrastructure.
    Science funded by the SBE Directorate also helps us 
understand how to plan for and respond to emergencies. I would 
particularly like to mention the Decision, Risk, and Management 
Science Program which aims to increase understanding and 
effectiveness of decision making by individuals, groups, 
organizations, and society.
    Now, I am probably a little biased because I received my 
Master's degree in a somewhat related field, but I think this 
is an absolutely critical area of research. We saw the need in 
the BP oil spill with organizational and decision making 
problems compounding technological ones. We also are seeing 
evidence of human and regulatory failure at the Fukushima 
reactor in Japan. SBE research can help us better quantify and 
evaluate risks, build resilient organizations, and help 
emergency management planners develop the most effective 
strategies for keeping members of the community safe.
    And then once the immediate danger has passed, science 
funded by the SBE Directorate helps us understand the short-
term and long-term implications of how individuals and 
communities respond to these events.
    Now, there are some who would presume to be able to 
determine whether a research proposal is important enough to 
society to merit support based solely on the title of the 
grant. I think a story from a few years back would be 
instructive and stands as a warning to those who try to judge a 
grant by its title, be it in SBE or any other field.
    Forty years ago Senator William Proxmire created the Golden 
Fleece Awards long before Taxpayers for Common Sense 
appropriated the term. Senator Proxmire famously gave one of 
these awards to E.F. Knipling for his research on the sexual 
behavior of the screw-worm fly. The Senator did not know it at 
the time, but the screw-worm is a parasite that kills livestock 
and occasionally humans, and this particular line of research 
helped save the lives of millions of livestock and as a result 
saved the cattle industry $20 billion.
    That was a $20 billion return on a $250,000 grant. On top 
of that consumers enjoyed a five percent decrease in the cost 
of beef at the supermarket. Dr. Knipling earned--ended up 
winning the 1992 World Food Prize for his work on parasites, 
and the Senator ended up apologizing for his attack.
    Now, I tell this story not because I want to pick on 
Senator Proxmire or because I think the NSF is perfect. 
Reasonable people might disagree about priorities within the 
SBE Directorate, and it is our job to be vigilant and to make 
sure that taxpayer dollars are being spent wisely. And in spite 
of my own background or maybe because of it I question the 
value of some social science research that I read sometimes out 
there.
    I am going to paraphrase our former colleague, Dr. Baird, 
in saying that in today's hearing as in the previous four 
hearings I mentioned, I hope we are all prepared to have a 
rational discussion about the value of social, behavioral, and 
economic sciences overall to our society and to the taxpayer.
    And so I thank the Chairman for holding this hearing today. 
As I said, I think it is always important that we do make sure 
that the taxpayers' money is being used wisely, and I want to 
thank our witnesses for being here this morning. I look forward 
to your testimony.
    [The prepared statement of Mr. Lipinski follows:]
          Prepared Statement of Ranking Member Daniel Lipinsky
    Thank you Chairman Brooks. As a former political science professor 
this is a topic of particular interest to me. In the 110th Congress, 
when Congressman Baird chaired this Subcommittee, he held a series of 
three hearings examining the role of the social, behavioral, and 
economic--or SBE--sciences in helping to develop solutions to some of 
society's most pressing challenges. The themes he selected were energy, 
national security, and health. During these three hearings, we heard 
testimony from 13 witnesses, all of whom agreed with little or no 
reservation that the SBE sciences provide significant benefits to 
society and return on taxpayer investments.
    A few years before that, when Republicans held the majority and my 
friend Bob Inglis chaired this Subcommittee, he held a hearing on ``The 
Role of Social Science Research in Disaster Preparedness and 
Response.'' I want to elaborate a bit on that topic in particular 
because I believe that with the severe floods, tornadoes, wildfires, 
hurricanes, and oil spills that have hit many of our own communities in 
the last few years, and the loss of life and property we have witnessed 
from some of these events just in the last few weeks, this will 
resonate with all of us. The Geography and Spatial Sciences Program 
within the SBE Directorate has been instrumental in advancing the use 
of geographic information systems--or GIS. These tools have helped us 
visualize and understand the vulnerabilities of communities to natural 
disasters, and they have helped policy makers make better decisions on 
where to site critical infrastructure.
    Science funded by the SBE Directorate also helps us understand how 
to plan for and respond to emergencies. I would particularly like to 
mention the Decision, Risk, and Management Science program, which aims 
to increase the understanding and effectiveness of decision making by 
individuals, groups, organizations, and society. Now I'm probably a 
little biased because I received a master's degree in a related field, 
but I think this is an absolutely critical area of research. We saw the 
need in the BP oil spill, with organizational and decision-making 
problems compounding technological ones. We also are seeing evidence of 
human and regulatory failure at the Fukushima reactor in Japan.
    SBE research can help us better quantifY and evaluate risks, build 
resilient organizations, and help emergency management planners develop 
the most effective strategies for keeping members of their communities 
safe. And then, once the immediate danger has passed, science funded by 
the SBE Directorate helps us understand the short-term and long-term 
implications of how individuals and communities respond to these 
events.
    Now there are some who would presume to be able to determine 
whether a research proposal is important enough to society to merit 
support based simply on the title of a grant. I think a story from a 
few years back would be instructive and stand as a warning to those 
trying to judge a grant by its title, be it in SBE or any other field. 
Forty years ago, Senator William Proxmire created the ``Golden Fleece 
Awards,'' long before Taxpayers for Common Sense appropriated the term. 
Senator Proxmire famously gave one of these awards to E.F. Knipling for 
his research on ``The Sexual Behavior of the Screw-worm Fly.'' Now the 
Senator didn't know it at the time, but the screwworm is a parasite 
that kills livestock, and occasionally humans, and this particular line 
of research helped save the lives of millions of livestock and as a 
result saved the cattle industry $20 billion. That was a $20 billion 
return on a $250,000 grant, by the way. On top of that, consumers 
enjoyed a 5 percent decrease in the cost of beef at the supermarket. 
Dr. Knipling, ended up winning the 1992 World Food Prize for his work 
on parasites, and the Senator ended up apologizing.
    Now I tell this story not because I want to pick on Senator 
Proxmire or I think the NSF is perfect. Reasonable people might 
disagree about priorities within the SBE Directorate, and it is our job 
to be vigilant and to make sure that taxpayer dollars are being spent 
wisely. And in spite of my academic experience, I myself question the 
value of some of the social science research out there. But I am going 
to paraphrase our former colleague, Dr. Baird, in saying that in 
today's hearing, as in the previous four hearings I mentioned, I hope 
we are all prepared to have a rational discussion about the value of 
the social, behavioral, and economic sciences overall to our society 
and to the taxpayer. I want to thank the witnesses for being here this 
morning and I look forward to your testimonies.

    Chairman Brooks. Thank you, Mr. Lipinski, for your remarks 
and your insight. If there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record at this point.
    At this time I would like to introduce our witness panel. 
Dr. Myron Gutmann is the NSF Assistant Director for the Social, 
Behavioral, and Economic Science Directorate. Prior to his 
appointment at NSF he chaired the Inter-University Consortium 
for Political and Social Research at the University of Michigan 
and specializes in historical demography and population, 
environment relationships, with a focus on Europe and the 
Americas.
    Dr. Hillary Anger Elfenbein, have I pronounced that 
correctly? Okay, thank you--is Associate Professor of the Olin 
School of Business at Washington University in St. Louis. She 
holds a Ph.D. in organizational behavior from Harvard and 
specializes in emotion in the workplace research.
    Dr. Peter Wyatt Wood is President of the National 
Association of Scholars. Prior to this position, he had a 
distinguished career as Professor of Anthropology at both 
Boston University and at Kings College as well as provost at 
Kings College.
    Ms. Diana Furchtgott-Roth. Did I get that one correct? 
Okay, thank you--is a Senior Fellow and Director of the Center 
of Employment Policy at the Hudson Institute. Prior to her 
current employment she was Chief Economist for the Department 
of Labor.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which the Members of the Committee 
will have five minutes each to ask questions.
    I now recognize our first witness, Dr. Myron Gutmann, 
Associate Director, Directorate for Social, Behavior, and 
Economic Science, National Science Foundation.

                STATEMENT OF DR. MYRON GUTMANN,

          ASSISTANT DIRECTOR, NSF SOCIAL, BEHAVIORAL,

                AND ECONOMIC SCIENCE DIRECTORATE

    Dr. Gutmann. Chairman Brooks, Ranking Member Lipinski, and 
Members of the Subcommittee, good morning. Thank you for 
inviting me to testify today about the important research that 
the National Science Foundation supports in the social, 
behavioral, and economic sciences and how that research is 
contributing to the Nation's benefit.
    NSF is the only agency in the Federal Government that 
supports basic research in the social and behavioral sciences. 
It does so in an environment that encourages transformative 
scientific process, progress that crosses all boundaries.
    Through the SBE Directorate, the NSF funds more than half 
of the university-based social and behavioral sciences research 
in the Nation and almost all of the transformative basic 
science research that our society requires. The American people 
can take great pride in our record of achievement, which 
includes support for 43 Nobel laureates in economics. Among 
them is the first woman to win the economics award, Dr. Elinor 
Ostrom.
    Our sciences are concerned with human actions and decision 
making at every level and at every scale. Researchers study 
everything from the cells and structures of an individual brain 
to individual behavior to the actions of social groups and 
organizations. Our mission in research and training encompasses 
the disciplines of neuroscience, psychology, geography, 
economics, anthropology, political science, sociology, and 
linguistics.
    In addition to the two research divisions, the social and 
economic sciences division and the behavioral and cognitive 
sciences division, the SBE Directorate houses the National 
Center for Science and Engineering Statistics, which produces 
data about science and engineering that are widely used in 
higher education, industry, and government.
    Through partnerships with other NSF Directorates and 
federal agencies the scientists we support bring their unique 
expertise to the scientific and societal problems of today and 
tomorrow. We have recently partnered with the Department of 
Defense to fund research that will help understand the 
challenges of terrorism and national security and advance 
democracy around the world.
    In terms of the allocation of funding, our largest 
commitments are to economics, to neuroscience, psychology, 
learning, and language, to inter-disciplinary science related 
to decision making, and to our statistical programs. We also 
allocate resources to smaller programs based on the needs of 
the science, and the quality of the proposals we receive.
    Thousands of scientists assess the merit of the 5,000 
proposals we receive annually, leading to some 1,100 awards. 
Our basic research is transforming areas of science ranging 
from crisis management and response to the organization of the 
brain and ways that the brain converts thought to action. This 
is a body of work with potential implications for understanding 
autism, PTSD, and other cognitive disorders.
    In one example, a team composed of SBE scientists, 
biomechanical engineers, computer scientists, and others built 
a brain computer language interface for an individual with 
complete paralysis. He learned to communicate using an 
artificial speech synthesizer controlled by his mental efforts.
    U.S. taxpayers have already seen measurable gains, SBE-
supported fundamental developments in geographical information 
systems. These technologies have resulted in a multi-billion 
dollar U.S.-based industry, jobs for our citizens, and great 
societal benefits.
    In another notable example, researchers supported by SBE 
apply economic matching theory to develop a system for kidney 
transplants that shortened waiting times and has the potential 
to save thousands of lives.
    Most dramatically for our Nation's spectrum auctions also 
based on theoretical research supported by SBE generated more 
than $50 billion for the U.S. Treasury between 1994 and 2007. 
There is much more that our scientists can and will do in the 
future with our Nation's support.
    Thank you for the opportunity to share some of our research 
with you today. I look forward to answering your questions.
    [The prepared statement of Dr. Gutmann follows:]
      Prepared Statement of Dr. Myron Gutmann, Assistant Director,
        NSF Social, Behavioral, and Economic Science Directorate
    Chairman Brooks, Ranking Member Lipinski, and Members of the 
Subcommittee, good morning. Thank you for inviting me to testify today 
on the important work that the National Science Foundation (NSF) is 
supporting in the social, behavioral, and economic sciences and their 
contribution to the nation's future. Let me briefly describe the 
Directorate for Social, Behavioral, and Economic Sciences (SBE) before 
talking specifically to the innovative research we support and the ways 
it benefits the lives of the American people.

1. What is the mission and organization of the NSF Directorate for 
Social, Behavioral, and Economic Sciences?

    The social, behavioral, and economic sciences--familiarly known as 
the ``SBE sciences''--increase fundamental understanding of human 
social development and interaction and of human behavior, as 
individuals and as members of groups and more formal organizations. Our 
sciences contribute knowledge that has societal relevance and can 
inform critical national areas such as job creation, health care, 
education, public safety, law enforcement, and national security, among 
others. NSF's SBE directorate is unique in that it houses a mosaic of 
related programs enabling fundamental research in cross-cutting topics 
by combinations of economists, political scientists, sociologists, 
psychologists, linguists, neuroscientists, anthropologists, and other 
social and behavioral scientists. This focus on fundamental research 
allows us to collaborate effectively with our colleagues in other 
directorates and federal agencies to address problems that range from 
coastal flood response to the needs of an aging population, to 
preparing our military with the insights they need to understand 
behavior in a changing world.
    Through the SBE directorate, the NSF funds approximately 57 percent 
of the university-based social and behavioral sciences research in the 
nation. The American people can take great pride in our record of 
achievement, which includes, for example, support for 43 of the Nobel 
laureates in economics since the award was first given in 1969. Among 
them is the first woman to win the award in economics, Dr. Elinor 
Ostrom, who shared the prize in 2009 with Dr. Oliver E. Williamson.
    The directorate is organized into three divisions: Social and 
Economic Sciences (SES); Behavioral and Cognitive Sciences (BCS), and 
the National Center for Science and Engineering Statistics (NCSES, 
formerly known as Science Resources Statistics). NCSES is one of the 
major statistical agencies of the U.S. government and works with other 
federal and international statistical agencies to develop baseline 
statistical data on the science and engineering enterprise that is 
heavily used in higher education, industry, and government. This 
innovative unit has pioneered changes in survey design and new ways of 
presenting publications and data online to enable their broader access 
and use, and expects to pilot the Microbusiness Innovation Science and 
Technology survey and the Early Career Doctorates Survey in 2012. NCSES 
is the unit within NSF that provides the data and analytic support 
required by the National Science Board for the development and 
production of its biennial report on the U.S. and international science 
and engineering enterprise, Science and Engineering Indicators.
    The Division of Social and Economic Sciences (SES) comprises eight 
programs that support research to develop and advance scientific 
knowledge focusing on economic, legal, political and social systems, 
organizations, and institutions. SES also supports research on the 
intellectual and social contexts that affect the development and use of 
science and technology and invests in research that advances 
statistical and survey methodologies and measurements. This difficult 
methodological work is central to reliable social science research and 
undergirds a range of studies from public opinion polls to studies of 
how Americans balance work and family life. SES cooperates with other 
federal agencies to fund three major national surveys that form the 
backbone of much social science research and teaching. For example, 
about 400,000 students per year use the General Social Survey (GSS) in 
their classes to study ways that American society has changed since 
1972, and to learn research methods of social and statistical analysis. 
\1\
---------------------------------------------------------------------------
    \1\  The General Social Survey, http://www.norc.org/projects/
General+Social+Survey.htm. The other two surveys are the Panel Study of 
Income Dynamics (http://psidonline.isr.umich.edu/) and the American 
National Election Studies (http://www.electionstudies.org/).
---------------------------------------------------------------------------
    The Division of Behavioral and Cognitive Sciences (BCS) encompasses 
ten programs that support research to develop and advance scientific 
knowledge, focusing on human cognition, neuroscience, child 
development, language, social behavior, and culture as well as research 
on the interactions between human societies and the physical 
environment. Understanding the brain and its development and learning 
how to deploy that understanding require research that spans a huge 
range, from the study of intricate cellular and molecular mechanisms at 
the neuronal level to the network activities of the entire brain to the 
physical and social context in which brains process information. A 
dramatic example is the demonstration of a brain-computer interface by 
which an individual with complete paralysis due to a brain-stem stroke 
was able to learn to communicate using an artificial speech synthesizer 
controlled by his mental efforts. \2\
---------------------------------------------------------------------------
    \2\ NSF Award Number 0542013, ``The Temporal Dynamics of 
Learning,'' Garrison Cottrell, Ph.D., Principal Investigator, 
University of California, San Diego, California.
---------------------------------------------------------------------------
    Finally, my office, the Office of the Assistant Director, also 
houses several research programs through the SBE Office of 
Multidisciplinary Activities (SMA). These include support for cross-
disciplinary activities, many of which partner with other directorates, 
as well as support for undergraduate and graduate students on whom 
future science depends. For example, Baruch College has developed a 
Research Experience for Undergraduates (REU) pipeline program that 
attracts and prepares students from diverse backgrounds to be 
competitive for entry into graduate programs in psychology and other 
scientific disciplines. Twelve of the 32 students who completed the 
program between 2007 and 2010 have applied to graduate programs in 
psychology (10) and medicine (2), and all have been accepted. \3\ Other 
REU programs have been designed to engage undergraduates in 
understanding research problems in disaster mitigation, preparedness, 
response and recovery, warnings and technology, and disaster 
vulnerability and resilience and the effects of fatigue on 
physiological, psychological, cognitive, behavioral, health, and social 
performance in military, medical, and law enforcement personnel. As the 
Baruch College experience shows, not only does this participation 
contribute to the nation's knowledge base but it also helps guide 
students into careers in these fields.
---------------------------------------------------------------------------
    \3\ NSF Award Number 0648859, ``Basic and Applied Dimensions of 
Scientific Psychology: Research Experience for Undergraduates at Baruch 
College--CUNY''. Charles Scherbaum, Principal Investigator. CUNY Baruch 
College, New York.
---------------------------------------------------------------------------
    In addition, the directorate co-sponsors and leads STAR METRICS, a 
multi-year, multi-agency partnership with research institutions to 
measure the effects of research investments on innovation, 
competitiveness, and science. STAR METRICS brings together 
participating universities who voluntarily provide financial 
information. With these data, the program--for the first time--will be 
able to describe job creation from NSF investments at the county level 
for each participating university beginning with data supplied in the 
first quarter of this year.
    In keeping with the insights that flow from interdisciplinary 
collaborations, there is substantial formal and informal cooperation 
among programs, both within and between the divisions as well as with 
programs in other directorates and agencies. For example, both SES and 
BCS support neuroscience research. In addition to research supported in 
the Cognitive Neuroscience program, the Perception, Action and 
Cognition program (SBE/BCS) supports neuroscience research across a 
range of topics, including cognitive flexibility, the neural basis for 
reading in deaf individuals, and visual attention, and the Decision, 
Risk and Management Sciences program in SBE/SES supports research on 
the neural basis for decision making and risk assessment.
    SBE has longstanding partnerships with the NSF Directorates for 
Computer and Information Science and Engineering, Biological Sciences, 
Geosciences, and Engineering, as well as with the NSF Office of 
Cyberinfrastructure. These partnerships are critical to understanding 
science in its human context and to developing effective new 
technologies that will be used by Americans and will contribute to jobs 
and economic development. In the past, SBE has had programs with the 
Department of Defense, to assist them in understanding factors 
underlying conflict and cooperation. This year, we are again 
contributing to the multi-agency, international Digging into Data 
Challenge, led by the National Endowment for the Humanities, and will 
also contribute to the National Robotics Initiative. These partnerships 
bring SBE's expertise in understanding human behavior to the important 
national challenges of developing and using new technology and dealing 
with the flood of data confronted by our scientists and citizens. \4\
---------------------------------------------------------------------------
    \4\  David Lazer et al., ``Computational Social Science,'' Science 
323, no. 5915 (6 February 2009): 721-23; Gary King, ``Ensuring the 
Data-Rich Future of the Social Science,'' Science 331, no 6018 (11 
February 2011): 719-21.

---------------------------------------------------------------------------
2. How are awards made and how are funding priorities established?

    Approximately 5,000 research proposals are submitted to the 
directorate each year and about 1,100 awards are made after proposals 
are reviewed by competitive merit review advisory panels. Merit review 
is a critical element in the nation's research enterprise, which has 
been a key to America's track record in scientific innovation, 
something that will fuel American competitiveness in the next century. 
NSF's review processes remain, in the words of the National Academies, 
among ``the best procedures known for insuring the technical excellence 
of research projects that receive public support.'' \5\ All research 
proposals are evaluated by a combination of written reviews, 
discussions by advisory panels, and consideration by scientific program 
officers before awards are made. Overall, in the 2010 funding cycle, 
many thousands of scientists from the U.S. and overseas wrote reviews 
and participated in SBE panels and advisory committee meetings to 
provide independent advice on individual applications and the 
directorate's programs. The divisions, major programs, and research 
offices are regularly reviewed by external Committees of Visitors, and 
an Advisory Committee to the directorate meets twice a year.
---------------------------------------------------------------------------
    \5\  Committee on Science, Engineering, and Public Policy, Major 
Award Decisionmaking at the National Science Foundation (Washington, 
DC: National Academy Press, 1994), p. 1.
---------------------------------------------------------------------------
    Funding priorities are established by the merit review process, 
with guidance from advisory groups and after discussions among the NSF 
leadership. Eighty to eighty-five percent or more of awards made by SBE 
are submitted to the programs described above in BCS, SES, and SMA and 
reviewed by program officers and panels before decisions are made. The 
remaining fifteen to twenty percent of awards are the result of cross-
disciplinary competitions in which SBE is a participant. These 
competitions are generated by discussions among staff at the program 
officer, divisional leadership, and assistant director level, in order 
to arrive at broad scientific discoveries. Recent successful examples 
of specialized competitions include our Decision Making Under 
Uncertainty program; Cyber-enabled Discovery and Innovation; Water, 
Sustainability, and Climate; and the Digging into Data Challenge.
    In the broadest sense, SBE makes use of multiple mechanisms to 
consult with the public, the scientific community, and other agencies 
to understand scientific priorities and make plans for the future. NSF 
was one of several agencies that contributed to the 2009 publication, 
Social, Behavioral, and Economic Science in the Federal Context a 
publication of the NSTC's Committee on Science's SBE Subcommittee. \6\ 
Over the past year NSF's Advisory Committee for the Social, Behavioral 
and Economic Sciences has been at work on a report on future areas of 
scientific development in the SBE sciences, which we expect to be 
produced in fall 2011. I have also led an effort called ``SBE 2020'' to 
collect ideas from individuals and groups about how to plan for SBE 
science a decade from now. We received many suggestions in response to 
this request. I have begun discussing our conclusions from this 
activity, and we expect to issue a formal report this summer. All these 
efforts help us to build on the successes of our existing programs 
while we plan and set funding priorities for the future.
---------------------------------------------------------------------------
    \6\  National Science and Technology Council, Subcommittee on 
Social, Behavioral and Ecomomic Sciences, Social, Behavioral, and 
Economic Science in the Federal Context, 2009. http://
www.whitehouse.gov/galleries/NSTC%20Reports/
SBE%20in%20the%20Federal%20Context%20(for%20NSTC)%204-21-09.pdf
---------------------------------------------------------------------------
    Assessment and evaluation is an important element in this process, 
and it requires a science of its own. That's why SBE developed the 
Science of Science and Innovation Policy Program (SciSIP), why we took 
the lead in the STAR METRICS activity, and why we continue to find 
innovative ways to spur the science of innovation and to evaluate our 
own work. \7\ That is also why we invest so heavily in the National 
Center for Science and Engineering Statistics, and in its publications.
---------------------------------------------------------------------------
    \7\  Comparative Assessment of Peer Review (CAPTR) Workshop, April 
22-23, 2010, http://scienceofsciencepolicy.net/event/comparative-
assessment-peer-review-capr-workshop

---------------------------------------------------------------------------
3. What are the benefits to the U.S. taxpayer?

    The National Science Foundation is unique in its support for 
fundamental research across all of the fields of science and 
engineering together with the educational programs that sustain them. 
As NSF Director Dr. Subra Suresh said in his congressional testimony 
earlier this year, the foundation ``advances the frontiers of all 
scientific disciplines and it develops the human capital to forge the 
next generation of breakthroughs.'' \8\ SBE scientists study topics as 
diverse as the developmental psychology of children as young as five 
months and the causes and consequences of terrorism. Our sciences have 
the potential to offer an integrated view of a single broad topic 
across multiple scales, and our findings lead to fundamental insights 
and point toward solutions that affect job creation, health care, 
public safety, education, and other shared national and international 
challenges. In the last year, for example, SBE supported neuroscience 
researchers at Stanford University who used functional magnetic 
resonance imaging (fMRI) to study the anatomy of the human visual 
cortex and its response to images of faces and limbs. Their findings 
overturned two prior theories of the brain's organization and may have 
application to autism and other cognitive disorders. \9\
---------------------------------------------------------------------------
    \8\  Dr. Subra Suresh, Remarks on the NSF's 2012 Budget Request to 
Congress, February 14, 2011, http://www.nsf.gov/news/speeches/suresh/
11/ss110214--nsfbudget.jsp
    \9\  NSF Award Number 0920865, ``Face Perception: Mapping 
Psychological Spaces to Neural Responses,'' Kalanit Grill-Spector, 
Principal Investigator, Stanford University, California.
---------------------------------------------------------------------------
    This example plus ones mentioned earlier suggest the range and 
complexity of the SBE sciences. I would like to take the rest of my 
time to talk in more detail about some of the work that has had 
immediate benefit while illustrating some of the long-term research 
challenges.

3.1 SBE research has resulted in measurable gains for the U.S. taxpayer

    Matching markets and kidney transplants. Researchers in economics 
at Harvard University, the University of Pittsburgh, and Boston College 
have applied economic matching theory to develop a system that 
dramatically improves the ability of doctors to find compatible kidneys 
for patients on transplant lists. Organ donation is an example of an 
exchange that relies on mutual convergence of need. In this case, a 
donor and a recipient. This system allows matches to take place in a 
string of exchanges, shortening the waiting time and, in the case of 
organ transplants, potentially saving thousands of lives. \10\ Similar 
matching markets exist in other contexts, for example, for assigning 
doctors to residencies.
---------------------------------------------------------------------------
    \10\  NSF Award No. 0616470, ``Collaborative Research: Kidney 
Exchange,'' Tayfun Sonmez, Principal Investigator, Boston College, 
Massachusetts; NSF Award Number 8908696, ``Coordination and Operation 
of Two-sided Matching Markets: Theory and Evidence,'' Alvin Roth, 
Principal Investigator, University of Pittsburgh, Pennsylvania; NSF 
Award Number 9121968, ``Jumping the Gun: Intertemporal Instability in 
Two-sided Matching and Related Markets, Theory and Evidence,'' Alvin 
Roth, Principal Investigator, Harvard University, Massachusetts.
---------------------------------------------------------------------------
    Spectrum auctions. Spectrum auctions have generated $54 billion for 
the U.S. Treasury between 1994 and 2007 and worldwide revenues in 
excess of $200 billion. Researchers at Stanford University and the 
California Institute of Technology, supported by grants from SBE, 
developed the simultaneous ascending auction mechanism as a technique 
for auctioning off multiple goods whose values are not fixed but depend 
on each other. The mechanism was then tested experimentally and further 
refined before being implemented by the Federal Communications 
Commission. In this auction, all of the goods are on the selling block 
at the same time, and open for bids by any bidder. By giving bidders 
real-time information on the tentative price at each bid stage, bidders 
can develop a sense for where prices are likely to head and adjust 
their bids to get the package of goods they want. This process enables 
``price discovery,'' helping bidders to determine the values of all 
possible packages of goods. These auctions not only raise money, but 
ensure efficient allocation of spectra so that the winners of the 
auction are indeed the individuals who value the spectra the most. 
Applied with great benefit for the U.S. taxpayer in the FCC spectrum 
auctions, this method has also been extended to the sale of divisible 
goods in electricity, gas, and environmental markets. \11\
---------------------------------------------------------------------------
    \11\  NSF Award Number 9207850, ``Topics in Price Theory and Game 
Theory,'' Robert Wilson, Principal Investigator, Stanford University, 
California; NSF Award Number 9320733, ``Complementarity: Comparative 
Statics, Coordination and Change,'' Paul Milgrom, Principal 
Investigator, Stanford University, California; NSF Award Number 
9512394, ``Development of Instrumentation for Institutional Process 
Design and Laboratory Testing in Economics and Political Science,'' 
Charles Plott, California Institute of Technology, California.

3.2 SBE investments in innovation have improved disaster and crisis 
---------------------------------------------------------------------------
response

    Geographic Information Systems (GIS). SBE has supported development 
of Geographical Information Systems technologies, which have produced 
both great societal benefits and the creation of an extremely valuable 
industry. In the mid-1980s NSF made a commitment to fund the National 
Center for Geographic Information and Analysis (NCGIA) at three 
universities, the University of California, Santa Barbara, the 
University of Maine, and the State University of New York at Buffalo. 
The research supported there contributed significantly to the 
development of the multi-billion-dollar Geographic Information Systems 
(GIS) industry. These systems are now applied by states, counties, and 
localities for many purposes, from planning to disaster response, 
evidenced in New York City during the September 11, 2001 attacks. GIS 
also became the backbone of crime mapping activities such as CompuStat 
that have played such an important role in the crime reduction America 
has experienced in the past two decades. These GIS systems are also 
used by the private sector to improve delivery systems and to plan for 
the locations of stores and other businesses. The NCGIA continues to 
this day, now as an independent body, exploring ways of making GIS 
better and helping to educate new users.
    The earthquake and tsunami in Japan together with our own 
experiences in the wake of Hurricanes Katrina and Rita, recent tornados 
in Alabama and Missouri, and flooding along the Mississippi River 
amplify the importance attached to understanding how people behave in 
time of crisis, which enables better advance planning and improves 
first responses. SBE has supported science in these areas by funding 
researchers who explore and simulate human evacuation behavior, as well 
as teams of researchers who conduct fieldwork in the immediate 
aftermath of a disaster in Louisiana (2005), \12\ Chile (2010), \13\ 
and the Gulf after the Deepwater Horizon oil spill (2010). \14\ SBE 
also funds constructing computational simulations to detect subtle 
changes and behaviors under different conditions. For example, 
researchers at the University of Michigan and the University of 
Delaware simulated a building's collapse in order to observe people's 
reactions to the physical disaster, in order to better understand how 
to prepare for similar events. \15\ Investigators at Arizona State 
University and the University of Central Florida built models of 
pedestrian behavior that could be used to compare and predict behavior 
under both calm and emergency conditions, leading to more effective 
evacuation strategies, disaster planning, and assistance for first 
responders. \16\
---------------------------------------------------------------------------
    \12\  NSF Award Number 0552439, SBER: Cooperation among evacuees in 
the aftermath of Hurricane Katrina, Rick Wilson, Principal 
Investigator, Rice University, Houston, Texas
    \13\  NSF Award Number 1036354, ``RAPID: Collaborative Research: 
The Political Costs of Natural Disasters: Democratic Support, 
Authoritarian Attitudes, and Blame Attribution after Chile's 2010 
Earthquake,'' Gregory Love, Principal Investigator, University of 
Mississippi, Mississippi.
    \14\ NSF Award Number 1042786, ``RAPID: Social Context and 
Emotional Response to Disaster,'' Christopher Kenney, Louisiana State 
University & Agricultural and Mechanical College, Louisiana
    \15\  NSF Award Number 0824737, ``Collaborative Research: Project 
IBORC: Interaction between Building and Occupant Responses during 
Collapse,'' Serif El-Tawil, Principal Investigator, University of 
Michigan Ann Arbor, Michigan.
    \16\  NSF Award Number 0643322, ``CAREER: Exploring the Dynamics of 
Individual Pedestrian and Crowd Behavior in Dense Urban Settings: A 
Computational Approach,'' Paul Torrens, Principal Investigator, Arizona 
State University, Arizona; NSF Award 0527545, ``DHB--Modeling in Social 
Dynamics: A Differential Approach,'' David Kaup, Principal 
Investigator, University of Central Florida, Florida.
---------------------------------------------------------------------------
    Two findings that weave through much of this research are the 
importance of protecting social networks--evacuees after Hurricane 
Katrina and the Gulf oil spill fared better when their families and 
social networks were retained--and the importance of sustaining trust. 
Indeed, those evacuees whose social contexts were preserved were more 
cooperative and willing to trust the government. \17\
---------------------------------------------------------------------------
    \17\  NSF Highlight ID 22702, ``Preparing for the Aftermath of 
Crisis''; see also NSF Award Number 0728934, ``DRU Modeling 
Communication Response and Economic Impacts of Risk Amplification 
following a Terrorist Strike,'' William Burns, Principal Investigator, 
Decision Science Research Institute, Oregon.
---------------------------------------------------------------------------
    Engaging citizens. One of the outcomes of these studies is a 
changed view of citizen involvement. Rather than seeing residents as 
passive observers or as victims, new findings show ways in which 
individuals actively participate in managing and responding to crises. 
Scientists at UC-Santa Barbara, the University of Washington, and Texas 
A&M University are in the second year of a three-year award to study 
the phenomenon of volunteered geographic information, which is part of 
a larger trend of user-generated content enabled by contemporary 
information and communication technologies. We have already witnessed 
how the wide distribution of handheld and mobile devices together with 
access to fast connections and the ease of uploading information have 
contributed to this year's Arab Spring. Closer to home, citizens have 
contributed real time, highly detailed, local observations that take on 
special significance in responses to crises, like floods or wildfires 
where conditions can change rapidly. Citizen-supplied real-time 
information about the location of a wildfire can save lives and dollars 
by allowing first responders to do their job more effectively. We have 
already witnessed outpourings on Twitter and other social media during 
crises. The point of the study is to go beyond anecdotal information 
and to test accuracy and quality of the data, examine methods for 
synthesizing and analyzing it, and understand motivations for 
participation. \18\
---------------------------------------------------------------------------
    \18\  NSF Award Number 0849910, ``Collaborative Research: A 
GIScience Approach for Assessing the Quality, Potential Applications, 
and Impact of Volunteered Geographic Information,'' Michael Goodchild, 
Principal Investigator, University of California-Santa Barbara, 
California.

3.3 SBE's long term investment in fundamental research enables 
---------------------------------------------------------------------------
breakthroughs in key areas

    Decentralized decision-making and shared resources. Rich traditions 
in sociology, political science, economics, and psychology have 
explored models of individual and group conflict, competition, and 
cooperation, resource allocation, and markets. Nobel laureate Ostrom, 
who now holds appointments at Indiana University and Arizona State 
University, has done fundamental work with her colleagues over the last 
30 years in so-called ``common pool resources.'' A ``common pool 
resource'' is a naturally occurring or human constructed system, like 
fishing grounds, water, forests, pasture, or irrigation systems, that 
is typically shared and is vulnerable to overuse, congestion, or 
potential destruction.
    Ostrom combines fieldwork, observation, and laboratory studies to 
articulate formal models about trust, behavior, and cooperation that 
show the conditions under which groups will cooperate to manage shared, 
vulnerable resources, like forest and irrigation systems, without 
outside intervention. For example, when she studied irrigation systems 
in Nepal, she found that the farmers' systems were relatively 
``primitive'' from the perspective of engineering but the farmers were 
able to grow more crops and run their systems more efficiently than 
those designed by outside experts. \19\ Ostrom's work, like others, 
points to the importance of understanding interactions in a context of 
``nested systems'' of local, regional, and national governance and, in 
particular, to the importance of understanding local decision making. 
In a series of studies of self governing communities, researchers at 
the University of Michigan, \20\ UC-Davis, \21\ and University of 
Colorado \22\ have continued to identify the importance of local or 
municipal decision making and the conditions under which self-
governance is likely to be successful.
---------------------------------------------------------------------------
    \19\  Elinor Ostrom, Beyond markets and States: Polycentric 
Governance of Complex Economic Systems, December 8, 2009, Slide 24 
http://nobelprize.org/nobel-prizes/economics/laureates/2009/ostrom-
lecture-slides.pdf
    \20\  NSF Award Number 0961868, ``Collaborative Research: Do 
Institutions Affect the Attitudes and Behavior of Constituents? 
Evidence from an Environmental Management Program in India,'' Elisabeth 
Gerber, University of Michigan Ann Arbor, Michigan
    \21\  NSF Award Number 0921904, ``Collaborative Research on 
Governing Complex Commons: Policy networks in an Ecology of Games,'' 
Mark Lubell, Principal Investigator, University of California-Davis, 
California
    \22\  NSF Award Number 0648447, ``Decentralization, Local 
Institutions, and Environmental Change: A Cross-Sectional Time-series 
Study of Forest Governance in Latin America,'' Krister Andersson, 
Principal Investigator, University of Colorado at Boulder, Colorado.
---------------------------------------------------------------------------
    Brain, cognition, and learning. Recent research in the 
developmental sciences shows us the importance of engagement in 
learning and that this engagement can begin at a very young age. 
Several separate but converging lines of research have enhanced our 
understanding of cognitive and social development from infancy to 
adolescence and, in particular, the importance of being an active and 
engaged learner. For example, scientists at the University of Delaware 
developed a type of joystick mechanism that enables infants to drive a 
small motorized robotic device, which showed that children's general 
language and motor development are improved through the enhanced 
mobility experience with the driving device. \23\ This suggests that 
infants who are able to control their movements through the environment 
are stimulated and learn about their world in a way that has a direct 
and lasting influence on their cognitive, social, language and motor 
abilities. \24\Researchers at Indiana University have also found that 
children learn words for objects more readily when allowed to hold the 
object rather than just seeing the object held and labeled in front of 
them. \25\ Finally, a stream of collaborative research has looked at 
the influences of television, videos, and computer games on children 
from infancy to 6 years old, suggesting that young children may face 
limitations in ability to understand information contained in these 
media. One set of studies even found that slower language development 
was associated with use of a popular early childhood video that is 
advertised as being educational. However, the findings also suggest 
that when children are actively engaged in viewing television or videos 
with an adult who can label the content and ask questions and provide 
narration, children's ability to learn the content provided in the 
video is enhanced. \26\
---------------------------------------------------------------------------
    \23\  NSF Award 0745833, ``Robot Enhanced Mobility: The Capacity 
for Your Infants to Learn Real World Navigation, and its Effect on 
Perception, Action and Cognition Development,'' James Galloway, 
Principal Investigator, University of Delaware, Delaware.
    \24\  NSF Award Number 0745833, ``Robot Enhanced Mobility: The 
Capacity for Your Infants to Learn Real World Navigation, and its 
Effect on Perception, Action and Cognition Development,'' James 
Galloway, Principal Investigator, University of Delaware, Delaware
    \25\  NSF Award Number 0924248, ``The Sensorimotor Dynamics of 
Naturalistic Child-Parent Interaction and Word Learning,'' Chen Yu, 
Principal Investigator, Indiana University, Indiana; NSF Award Number 
0544995, ``Grounding Word Learning in Multimodal Sensorimotor 
Interaction,'' Chen Yu, Principal Investigator, Indiana University, 
Indiana.
    \26\  NSF Award Number 0623871, ``IRADS Collaborative Research: 
Influences of Digital Media on Very Young Children,'' Sandra Calvert, 
Georgetown University, Washington, DC; NSF Award Number 0623856, 
``IRADS Collaborative Research: Influences of Digital Media on Very 
Young Children,'' Elizabeth Vanderwater, Principal Investigator, 
University of Texas at Austin, Texas; NSF Award Number 0623888, ``IRADS 
Collaborative Research: Influences of Digital Media on Very Young 
Children,'' Daniel Anderson, Principal Investigator, University of 
Massachusetts at Amherst, Massachusetts.
---------------------------------------------------------------------------
    One of the remarkable features of this research is the very young 
age of the subjects. Other studies show that infants take in a 
surprising amount of information in the first months of life. A team at 
UCLA found that the ability to distinguish between languages develops 
between the ages of 5 and 7 months, \27\ and a second team at Yale 
showed that infants as young as 6 months could begin to interpret 
social interactions. In their experiments, an infant who sees one 
puppet helping another puppet is likely to exhibit a preference for 
that helper in the future. Conversely, infants will then avoid a puppet 
that ``hinders'' the goals of another. Even many developmental 
scientists were surprised that children this young have the ability to 
reason about complex social behaviors like ``helping'' and 
``hindering''. \28\
---------------------------------------------------------------------------
    \27\  NSF Award Number 0951639, ``Development of Native Language 
Preference: Behavioral and Physiological Indices,'' Megha Sundara, 
Principal Investigator, University of California-Los Angeles, 
California; NSF Award Number 0957956, ``Development of Phonotactic 
Knowledge in Infancy,'' Megha Sundara, Principal Investigator, 
University of California-Los Angeles, California.
    \28\  NSF Award Number 0715557, ``Social Evaluation in Infants and 
Toddlers,'' M. Karen Wynn, Principal Investigator, Yale University, 
Connecticut.
---------------------------------------------------------------------------
    Understanding learning is a key that helps unlock important 
questions in education, learning, and parenting as well as the 
interaction between individuals and their environment. NSF's role in 
this area is unique because of the ability to support basic cognitive 
science, neuroscience, and social science about learning. Consider just 
one example: A psychologist at Boston University is investigating how 
emotion enhances memory, and how it interferes with memory. 
Understanding how memory and emotion interact may have important 
implications for evaluating eyewitness testimony, including the 
influence of biases and stereotyping (which an anthropologist at Emory 
University is studying). Together, these studies of how neural 
mechanisms of encoding and recall are affected by emotion may yield 
better understanding of the biological basis for memory deficits that 
accompany mood disorders such as post-traumatic stress disorder (PTSD), 
depression, and anxiety. NSF does not fund clinical research, but the 
basic research it funds yields knowledge of cognitive deficits and 
affected brain regions can inform studies of specific neurotransmitters 
and pharmacological interventions and the development of more accurate 
diagnostic tools.
    Relevance to national security. In recent decades, research 
supported by NSF has produced new understandings of human development 
and social dynamics; of perception, memory, linguistic, and reasoning 
processes; of how people behave as individuals and collectively; and 
insight into economic systems, all topics that bear upon understanding 
the threats to our national security and crafting robust interventions 
and responses. For example, a recent project found that intermediate 
levels of political freedom and geographic factors contribute 
significantly to causes of terrorism, challenging the common view that 
terrorism is rooted primarily in poverty.
    NSF also supports significant levels of fundamental research in the 
major research areas identified in the National Research Council's 
``Human Behavior in Military Contexts'' 2008 report. Here are a handful 
of examples: Investigators at the University of Michigan studied 
ethical and religious motivations in political and economic choices. 
This work not only challenges conventional models of decision making 
but is particularly important for understanding regional conflicts and 
local cultural and political systems heavily influenced by differing 
ethical and religious values. \29\ It has direct application to helping 
warfighters and humanitarian aid workers develop essential 
intercultural competences. Another team at Miami University (Ohio) is 
studying group behavior in problem solving under different conditions 
and ways in which problem solving may contribute to group cohesion, 
which is a common set of social dynamics in the armed services. \30\ 
Finally, a number of projects look at the role of emotions in social 
interactions and verbal and non-verbal communication. These projects 
contribute to our ability to detect deceptive behaviors and speech as 
well as facilitate interactions in cross-cultural contexts or contexts 
in which verbal communication may be insufficient, for example, when 
managing a crisis involving non-English speakers.
---------------------------------------------------------------------------
    \29\  NSF Award Number 0527396, ``Sacred Values in Decision Making 
and Cultural Conflict,'' Scott Atran, Principal Investigator (lead), 
Douglas Medin (Co-Principal Investigator), Jeremy Ginges (Co-Principal 
Investigator), Jessica Stern (Co-Principal Investigator), University of 
Michigan Ann Arbor, Michigan.
    \30\  NSF Award Number 0744696, ``Coordination in Small Groups: 
Matching and Mismatching,'' Susanne Abele, Principal Investigator, 
Garold Stasser (Co-Principal Investigator), Miami University, Ohio.
---------------------------------------------------------------------------
    Ultimately, the goal is to integrate findings across necessarily 
specialized research areas so that we eventually will unpack the 
relationships between brain and behavior, among individuals, and 
between individuals, groups, and their social and physical 
environments.
    Thank you for the opportunity to share some of our research with 
you today. I look forward to answering your questions.

    Chairman Brooks. Thank you, Dr. Gutmann.
    Next the Chair recognizes our second witness, Dr. Hillary 
Anger Elfenbein, Associate Professor, Washington University in 
St. Louis.

           STATEMENT OF DR. HILLARY ANGER ELFENBEIN,

        ASSOCIATE PROFESSOR OF ORGANIZATIONAL BEHAVIOR,

               WASHINGTON UNIVERSITY IN ST. LOUIS

    Dr. Elfenbein. Chairman Brooks, Ranking Member Lipinski, 
and distinguished Members of the Committee, it is an honor to 
appear before you today. I have been asked here to speak about 
my basic research in the social and behavioral sciences and how 
that work is being used by the military, business, and medicine 
to create a valuable return on investment for the U.S. 
taxpayer.
    My core research is in the area of emotion recognition, 
that is our ability to recognize another person's facial 
expressions, vocal tones, and body language. This is a skill so 
fundamental that its absence is a warning sign of serious 
disorders such as schizophrenia and autism, which is a growing 
epidemic in our country. Basic research to understand topics 
like this serves as a foundation for later applications that 
can sometimes be years down the road.
    The Army Research Institute took the initiative to use my 
research showing that emotion recognition accuracy partially 
breaks down across cultures. To quote them, ``The course of 
events in Iraq and Afghanistan has emphasized the role of human 
rather than technological solutions in influencing the outcome 
of conflicts, making interpersonal skills an increasingly 
important set of tools for the war fighter.''
    In some cases errors in non-verbal communication have been 
tragic. For example, at checkpoints in Iraq where soldiers have 
been involved in needless escalation of conflict with civilians 
because they could not tell who did versus did not wish them 
harm. I recently served as a consultant for the Army's efforts 
to incorporate non-verbal communication training for our men 
and women going overseas.
    My work is also used by industry as businesses increasingly 
focus on emotional intelligence and other related skills in the 
workforce to achieve a competitive edge. Our U.S. economy is 
increasing service-oriented, collaborative, and global.
    My work also has applications in medicine, given that the 
link between emotional skills and emotional disorders is so 
strong that some researchers use emotion recognition tests as a 
way to monitor the effectiveness of their medical treatments.
    As a business school professor I cannot help but point out 
the unusually high rate of return that we receive from 
investments in the basic sciences. America's support of 
cutting-edge basic research is an engine of innovation that 
creates university-level opportunities, attracting the best 
minds from all over the world. Education is a large export 
industry. Top scientists often stay in the U.S., start 
companies here, and pay taxes here, repaying the federal 
investments many times over.
    Only the public sector can make these investments because 
industry support is for research that has advanced closer to 
commercialization. Agencies like the NSF are in the best 
position to prioritize federal funding for SBE research because 
they draw from groups of scientists across a range of 
disciplines and perspectives rather than to rely on any one 
person's expertise.
    The social and behavioral sciences in general are important 
because technology, health, industry, and politics are 
ultimately in the hands of people who behave rationally and 
irrationally. A critique often leveled at social scientists is 
that our research is obvious. Although findings can seem 
intuitive, the scientific process has demonstrated that many 
intuitions are wrong.
    For example, strange behavior is no more common at the full 
moon, people do not blindly follow suggestions under hypnosis, 
and people with schizophrenia do not have multiple 
personalities. These findings are useful beyond their mere 
curiosity value in addressing real problems.
    For example, the stigma and misunderstanding around mental 
illnesses such as schizophrenia prevents many people from 
seeking treatments that are readily available for the benefit 
of their families and for economic productivity.
    In addition to intuitions that are wrong, some intuitions 
are also contradictory. For example, ``too many cooks spoil the 
broth,'' and yet ``many hands make light the work.'' When 
staffing a team, we need to know which one is right.
    Ultimately in supporting basic research the nature of the 
scientific process is such that you cannot predict in advance 
where each project will go. That is why it is important to fund 
a portfolio of projects with the expectation that some may pay 
off but some may not.
    From my own experience I can tell you that I did not 
anticipate the military applications at the time that I did my 
work. Indeed, in the spring of 2007 a first year member of 
Congress proposed canceling my NSF grant because he thought the 
title sounded silly. Ironically, this occurred just as the Army 
identified this same basic research as having applications for 
training our war fighters, and they issued a call for applied 
research that extended these basic findings.
    This experience highlighted for me the relationship between 
basic and applied research; and how basic--how applied research 
uses basic research as its foundation. The NSF funds basic 
research. Some people might ask at a time of fiscal crisis 
whether we can afford to fund the social and behavioral 
sciences. I believe that we can't afford not to.
    Thank you for this opportunity to speak today, and I would 
be glad to answer any questions you might have.
    [The prepared statement of Dr. Elfenbein follows:]
Prepared Statement of Dr. Hillary Anger Elfenbein, Associate Professor,
                   Washington University in St. Louis

Introduction

    Chairman Brooks and distinguished Members of the Committee, it is 
an honor to appear before you to discuss the important topic of federal 
funding in the Social, Behavioral, and Economic (SBE) sciences.
    I've been asked to speak about my own basic research in the social 
and behavioral sciences, and how that work is being used by the 
military, business, and medicine to create a valuable return-on-
investment for the US taxpayer. In addition, I have been asked to 
answer a number of questions relating to why it is in the taxpayer's 
interest to fund the SBE sciences, and how these funds should be 
prioritized.

Overview of my work in SBE

    The request for written testimony asked: ``Please provide an 
overview of your work in the social, behavioral, and economic (SBE) 
sciences, including how your work has been funded, how it is being 
used, and by whom.''
    My core research is in the area of emotion recognition--that is, 
our ability to recognize another person's emotions via nonverbal cues 
that include facial expressions, vocal tones, and body language. 
Emotion recognition is a skill so fundamental that its absence is a 
warning sign of serious disorders such as schizophrenia and autism, 
which is a growing epidemic in our country. In daily life, we often 
realize just how important emotion recognition is when we lose it 
temporarily through the use of email and text messages without access 
to nonverbal cues. For example, a member of Congress might use Twitter 
or a Blackberry to send messages to staff members or constituents, and 
find that some messages were misinterpreted with potentially harmful 
consequences.
    Although this research topic may first seem a bit obscure, it is 
worth pointing out that I first became interested in emotion 
recognition while working in industry as a management consultant. It 
became clear to me in my day-to-day work that people were attempting to 
read each other's emotional expressions--not in an attempt to be social 
friends, but rather to get the crucial feedback they needed to get 
their jobs done. For example, formal performance reviews were time 
consuming to conduct and as a result occurred only infrequently, and 
between these reviews colleagues depended largely on supervisors' 
implicit reactions to the quality of their work. Likewise, in the 
absence of parliamentary procedures, turn-taking in meetings can be 
very implicit, and many times people are unsure whether they have the 
floor to speak--or whether they need to keep their good ideas to 
themselves. In the consulting industry, one speaks of ``managing client 
expectations,'' for which recognizing the emotion of surprise loomed 
large as a sign that expectations were being violated in some way. As 
another example, it often took attention to subtle cues in order to 
know whether a colleague was being sarcastic versus sincere. Without 
catching the certain tone of voice, it was possible to disagree about 
whether a colleague meant what he had said--or whether he meant exactly 
the opposite. In becoming fascinated with these dynamics, it was clear 
to me not only that real people were making these kinds of judgments on 
a regular basis, but also that they were frequently getting them wrong. 
In getting these judgments wrong, their workplace, productivity 
suffered.
    Having become interested in this topic, and reading about what 
scholars already knew, I found that questions about emotion recognition 
in the workplace were at the cutting edge of our scientific 
understanding. It also became clear that the importance of these and 
related emotional abilities was an idea resonating far outside of 
university walls. Notably, Daniel Goleman's books on Emotional 
Intelligence were runaway best-sellers--as of 2002 out-selling all but 
one of Forbes' 20 Most Influential Business Books of the previous two 
decades.
    It was in this context that, after undergraduate training in 
Physics and Sanskrit language, I returned to Harvard to pursue a Ph.D. 
in the joint program in Organizational Behavior that combined graduate 
training in Psychology and Business. During these studies, I also 
earned a M.A. degree in Statistics and completed the required 
curriculum of the Master's in Business Administration (MBA). My 
graduate education was supported by a scholarship from the National 
Science Foundation.
    Since that time, I have published a range of papers in 
internationally-respected academic journals in business and psychology. 
My three primary streams of research address in different ways how 
individuals navigate the social environment of their workplace. The 
first stream examines how co-workers' accuracy in understanding each 
other's emotional expressions contributes to individual and team-level 
workplace effectiveness. The second stream examines the impact of 
cross-cultural differences on the ability to understand emotions. Taken 
together, these two lines of research contribute not only to our 
understanding of basic science, but also hold promise for applications 
to the challenges faced by today's firms and non-profits, which are 
more demographically diverse and global than ever before. My third 
stream of research addresses the dynamics of social interaction within 
workplace settings, including areas such as the role of personality on 
negotiation performance. The consistent thread running through my 
research is that it focuses primarily on how individuals interact with 
and judge other individuals.
    I attempt to work as a basic scientist and also a boundary spanner, 
drawing on work across SEE and other domains to understand 
organizations and the people working in them. My 27 peer-reviewed 
articles and 8 invited chapters include publications in the Academy of 
Management Annals, the Academy of Management Journal, the Journal of 
Applied Psychology, the Journal of Personality and Social Psychology, 
Organization Science, Psychological Bulletin, and Psychological 
Science. The researchers who cite this work in their own research are 
even more diverse--with a count of over 575 citations spread across 
academic publications in business management, organizational behavior, 
social psychology, and personality psychology, as well as other areas 
ranging from cognitive neuroscience to clinical psychology, medicine, 
artificial intelligence, and developmental psychology.

Funding

    In chronological order, I have been the recipient of three federal 
grants:

    1. National Science Foundation (NSF), Graduate Research Fellowship 
(GRF), $75,000, 1998 -2001.
    This was a three-year scholarship that paid for tuition in graduate 
school as well as basic living expenses. Awarded through a competitive 
process, these scholarships are intended to allow high-potential 
scientists to focus on their coursework and research. In my case, 
having scholarship assistance in graduate school allowed me to conduct 
the particular work described below that was singled out by the Army 
Research Institute.

    2. National Institute of Mental Health (NIMH), Behavioral Science 
Track Award for Rapid Transition (BSTART) Grant, ``Effective Behavior 
through Understanding Emotion,'' R01MH071294-01, $72,792, 2004-2006.
    This grant was part of an early-career program by the NIMH, with 
the intention to provide start-up funds for high-potential new faculty 
members doing research related to mental health. In my case, the link 
is a strong one, given that serious mental illnesses such as 
schizophrenia, autism, and alexithymia are characterized by deficits in 
emotion recognition among other symptoms. Thus, emotion recognition has 
been an area of intense collaboration and interchange among social 
psychologists, clinical psychologists, and physicians. The work funded 
by this grant has produced 3 academic publications, 1 paper in 
progress, 6 conference presentations, and contributed to the training 
of 3 doctoral students and numerous undergraduates.

    3. National Science Foundation (NSF), Social Psychology Program 
Grant, ``Accuracy in the Cross-cultural Understanding of Others' 
Emotions,'' BCS-0617634, $205,517, 2006-2012.
    This grant has been instrumental in expanding my stream of research 
on cross-cultural differences in the non-verbal communication of 
emotion. To date, the work funded by this grant has produced 2 
publications, 8 papers in progress, and 11 conference presentations. In 
total, this work has contributed to the training of 1 post-doctoral 
fellow, 8 doctoral students, and numerous undergraduates, and has also 
involved 4 early-stage faculty members other than myself--from 10 
different institutions around the world.

How the work is being used and by whom

    The primary applications of my research have been in the military, 
business, medical, and educational settings.

Military Applications

    The Army Research Institute took the initiative to use my research 
showing that emotion recognition accuracy partially breaks down across 
cultures. To quote them: ``The course of events in Iraq and Afghanistan 
has emphasized the role of human rather than technological solutions in 
influencing the outcome of conflicts, making interpersonal skills an 
increasingly important set of tools for the warfighter.'' (See the 
Appendix)
    In many theaters of war, we have too few translators and soldiers 
rely heavily on nonverbal communication. Even with sufficient numbers 
of translators, the initial moments of interacting with an enemy 
combatant or civilian can be too brief for conversation. This means 
that proper interpretation of nonverbal communication is an important 
aspect of determining who is a friend versus foe in high-stakes 
situations. In some cases, mistakes are tragic, for example at 
checkpoints in Iraq where soldiers have been involved in potentially 
avoidable escalation of conflict with civilians because they could not 
tell who did versus did not wish them harm. Soldiers now know that the 
raised fist means nothing in Iraq and the upheld hand, if anything, 
means that it is safe to approach.
    I recently served as a consultant for the ARI's efforts to 
incorporate nonverbal communication training for our men and women 
going overseas.

Business Applications

    My work is also used by industry, as businesses increasingly focus 
on emotional intelligence and related skills in their workforce to 
achieve a competitive edge. The US economy is increasingly service-
oriented, collaborative, and global.
    For example, foreign auto companies build manufacturing plants in 
the United States, with the need for managers from abroad to 
communicate clearly with their American workers and vice versa. My 
research on training shows that biology is not destiny--that is, we can 
learn to recognize emotional expressions from a foreign culture with 
sufficient practice. Surprisingly, however, we do not learn these 
skills effectively from the traditional classroom setting that is 
effective in teaching most other topics.
    As part of my focus on real-world business settings, I have been 
conducting workshops with business executives with guidance on how they 
can improve their emotional skills. Also relevant to business 
applications is the need to develop testing emotional skills, which can 
ultimately be used in hiring, training, and promotion. This is an area 
in which additional basic research is desperately needed, to keep up 
with the clamoring of interest from the public and industry to develop 
comprehensive tests of emotional skills.

Medical Applications

    My work also has applications in medicine, given the link between 
emotional skills and emotional disorders. Many serious medical 
conditions involve an inability to identify and produce socially 
appropriate emotional expressions. One of these disorders is 
schizophrenia--a debilitating disease that is overrepresented in 
Veteran's Administration hospitals because its age of onset corresponds 
approximately to the age of men and women joining military service. 
Another one of these disorders is autism--a condition affecting both 
children and adults in our country. Autism is a growing epidemic so 
worrisome that many parents risk exposing their children to infectious 
disease out of an erroneous belief that vaccinations are linked to 
autism. Given these links, emotion recognition has been an area of 
intense collaboration and interchange among social psychologists, 
clinical psychologists, and physicians.
    My recent NSF -funded basic work has revealed an opportunity to 
save scarce health- care dollars. Given the links described above, 
doctors and medical researchers have often used emotion recognition 
tests as a way to monitor patients' response to treatment. In these 
cases, some doctors also use tests of patients' ability to produce 
emotional expressions. In my research, I found that these two distinct 
tests produce results that are similar enough that it may not be 
necessary to use both of them. Given that the emotion recognition test 
costs only a small fraction of the expression test, this can produce a 
significant savings. Although it may seem intuitive that the same 
people tend to perform well on both of these diagnostics, the 
authoritative basic research had not previously been conducted--and, in 
its absence, scientists had speculated for decades about this effect.

Educational applications

    As the US economy becomes increasingly collaborative, educators 
have attempted to provide students with the skills they will need to be 
competitive. Accordingly, many educational institutions from elementary 
schools to MBA programs have incorporated components of emotional 
intelligence and social skills into their curricula. In doing so, it 
has been important to have a scientific basis for training programs, 
for example drawing from research findings showing that we learn these 
skills from practice rather than traditional classroom-style 
instruction.

Why are social, behavioral, and economic sciences important to the

physical and life science communities, to the Federal government,

and to the American taxpayer?

    The social and behavioral sciences in general are important because 
technology, health, industry, and politics are ultimately in the hands 
of people--who behave rationally and irrationally. The learning and 
implementation of all other sciences depends on the human factor.
    We need to understand people's attitudes, behaviors, and thoughts--
because it is people who deliver health care, people who save for their 
retirements, people who choose their elected leaders, people who fight 
wars, people who work in teams responsible for everything from 
emergency care to trial-by-jury to scientific research, and people who 
make the individual purchasing decisions upon which our entire economy 
rests. For example, ``consumer confidence'' is ultimately just an 
attitude, which is a psychological construct not necessarily tied 
directly to people's objective economic circumstances. Thus, we need to 
understand SBE constructs such as optimism and pessimism in order to 
understand our nation's prosperity. We need to understand SBE 
constructs related to how people learn if we want to have a strong, 
educated workforce to maintain American competitiveness. We need to 
understand SBE constructs related to how ideas spread from person to 
person in social networks if we want to combat terrorism by decreasing 
the spread of extremism through these networks.
    In discussing the value of SBE sciences, it seems important to 
address the metaphorical ``elephant in the room''--namely, the critique 
frequently leveled at social and behavioral scientists that our 
research findings are simply obvious. After all, why should we spend 
scarce resources on ``funny science'' just to prove what anyone could 
already have told us?
    Although findings can often seem intuitive, the scientific process 
has demonstrated that many intuitions are actually wrong. For example, 
strange behavior is no more common at full moon, people do not blindly 
follow suggestions under hypnosis, and people with schizophrenia do not 
have multiple personalities. These findings are useful beyond their 
curiosity value, in addressing real problems. For example, the stigma 
and misunderstanding around mental illnesses such as schizophrenia 
prevents many Americans for seeking treatments that are readily 
available. Untreated mental illness creates a toll on the American 
family beyond the lost economic productivity of such individuals. Some 
intuitions are also contradictory--in many cases, research findings can 
seem intuitive, but the exact opposite finding would also have seemed 
equally intuitive. We need the scientific method to distinguish these 
competing intuitions from each other--again, not for the mere value of 
curiosity, but for the real implications of these findings. Finally, 
many research results may seem like common sense but, yet, they do not 
describe common practice. That is, people may nod their heads in 
agreement when hearing the findings, but they miss opportunities by not 
actually implementing these findings in their real lives and 
workplaces.
    In my own research area, one non-obvious finding has been that 
traditional classroom -style instruction is of little use for people to 
improve their emotion recognition. Instead, people improve readily when 
given opportunities for practice--even when they practice without 
getting any hints at the right answers. This goes against the intuition 
some have that people are ``just born'' with such skills and that, as 
adults, there is nothing much we can do to improve. Indeed, we can 
improve quite readily with sufficient motivation and practice. This 
research finding also goes against the intuition of many educators to 
teach students basic rules and let them apply these rules to new 
situations-given that learning in emotion recognition requires 
individuals to figure out the rules for themselves. This surprising 
finding is useful for training our warfighters, and would not have been 
possible without federal funding of the basic sciences.
    Another non-obvious finding in my research area has been just how 
poor the average person is at recognizing another person's emotional 
state from their nonverbal communication alone. Our intuitions tell us 
that we can read other people's expressions very accurately, but this 
intuition is often wrong. For example, in a carefully controlled study, 
I created video clips showing facial expressions, vocal tone, and body 
language, and viewers accurately chose the intended emotion only about 
33% of the time. This was better than random guessing (1 in 5, or 20%), 
but not by much. It is a surprise that people just aren't that good at 
this fundamental skill, but it makes sense in the context of theories 
developed by SEE sciences. Notably, we tend to get information from 
multiple converging sources--including words and context in addition to 
nonverbal behavior--without typically relying on anyone source alone. 
However, our intuitions can lead us astray as we tend to believe in the 
accuracy of our interpretations of other people's nonverbal 
communication--given that we don't tend to get explicit feedback when 
we are wrong--which means that our confidence far outstrips our 
ability. In a theater of war, such overconfidence can endanger our men 
and women serving in uniform.

How does basic research in the social and behavioral sciences advance

the scientific community? How does it serve the Federal government?

How does this research advance or affect the lives of the

general population today?

    As a business school professor, I cannot help but point out the 
unusually high return that we receive from investments in the basic 
sciences. Our support of cutting-edge basic research is an engine of 
innovation that creates university-level opportunities attracting the 
best minds from all over the world. Top scientists often stay in the 
US, start companies here, and pay taxes here, repaying the federal 
investments many times over. From around the world, political and 
business leaders send their children to universities here--exposing 
them to American culture and improving our diplomatic relationships. 
Education is a large export industry for the US; bright young people 
are drawn to our universities for access to cutting-edge research-based 
instruction. In terms of research grant dollars themselves, the 
taxpayers' funds are used for equipment and also towards salaries for 
professors, students, and research participants--and so this money is 
itself pumped back into the US economy.
    Only the public sector can make these investments. Private 
corporations cannot be expected to fund basic research because they 
focus on research that has advanced closer to commercialization, when 
there is the potential for a patent or other product that can be 
commercialized. Basic research is the foundation on which all other 
research stands. This is the case not only in the SBE sciences, but 
also in the physical and life sciences, in which government sources are 
critical for the basic underlying science that is needed en route to 
developing specific applications. These applications may be soon or 
they may be years down the road, but eventually the taxpayer investment 
is repaid as the science advances.
    Basic research in the SBE sciences also advances the scientific 
community by improving our ability to educate--both educating 
scientists and educating our population more generally. For example, in 
the business school I teach students in the Master in Business 
Administration (MBA) program, who go on to help run the businesses, 
non-profits, and other organizations that employ our American 
workforce. There is no doubt in my mind that conducting, reading, and 
reviewing research in the SBE sciences makes me a more effective 
educator.
    As mentioned earlier, ultimately, SBE research touches essentially 
every sector of American life. Human factors are implicated in topics 
as broad as childcare and eldercare, innovation, and knowing whether to 
trust someone else to ''have your back.''

Why is it in the American taxpayer interest for the Federal government 
                    to

fund all disciplines within the social, behavioral and economic 
                    sciences?

How should the Federal government prioritize funding for SBE research?

How should NSF, specifically, prioritize funding for SBE research?

    It is the nature of the scientific process to rely on data, and 
scientists are generally reluctant to make firm statements in the 
absence of relevant data. Accordingly, although I wrote above about the 
value of social and behavioral sciences in general, it would be outside 
of my expertise to discuss all of the SBE disciplines one-by-one.
    From the outside, certainly some of the disciplines may seem less 
important than others. However, my own personal experience with the 
political review of federal grants highlights the importance of not 
judging a book by its cover. In the spring of 2007-several months after 
the Army Research Institute took interest in my work on emotion 
recognition across cultures-a first-year member of Congress proposed 
canceling the grant because he thought it sounded silly. My 
understanding is that he based this judgment solely on the title of the 
grant--``Accuracy in the Cross-cultural Understanding of Others' 
Emotions.'' To me, the moral of this story is that there is often more 
value to federally-funded science than what might appear from a title 
or a sound-bite.
    It can be harmful to judge a book by its cover. A well-intentioned 
member of Congress advocated elimination of a program that had been 
singled out for its practical applications for the military, with other 
applications to business, medicine, and education.
    Based on this experience, I would be reluctant from an outsider's 
perspective to identify a discipline within SBE that could be deemed 
entirely unworthy of funding. Agencies like the NSF are in the best 
position to prioritize Federal funding for SBE research because they 
draw from groups of scientists across a range of disciplines and 
beliefs, rather than rely on anyone person's expertise.
    Prioritizing research topics within this review system, I strongly 
support the current trend of emphasizing science that is 
``transformative.'' This is a matter of enhancing the peer review 
process by emphasizing particular criteria to the reviewers, rather 
than taking scientific review out of the hands of subject matter 
experts. There can be a danger in subjecting scientific review to 
political oversight regarding the topics that are deemed important, 
because of the possibility of misjudging books by their cover,--however 
well-intentioned the process.

Peer review and science funding

    A lot of questions are raised about the process of scientific peer 
review. I will take a stand and say that research studies need to be 
reviewed by people with sufficient background to understand them fully. 
This is not to say that the public does not have a role in guiding the 
priorities of scientific research but rather that, from the outside, 
the goal and importance of a research study may not be obvious.
    The Coburn Report made clear the potential harm that could result 
from judging the book of scientific research only by its cover. Knowing 
just a headline might make a project seem wasteful when it has the 
potential for great benefits to American society. Scientists typically 
break down large problems into lots of smaller problems and, viewed out 
of context, these smaller problems may seem like poor uses of our 
nation's scarce resources. For example, putting shrimp on a treadmill 
would be a waste of money if the goal were merely for shrimp to get 
some exercise. However, it makes sense to develop a measurement of 
shrimp health if the goal is to examine the effect of environmental 
stress on the American food supply and fishing industry. We need to 
break down a large problem like this into smaller problems because, 
clearly, it would not be ethical or cost -effective to dump bacteria 
into the Gulf of Mexico and then study its effect. Another example that 
the press covered extensively from the Coburn Report was about a robot 
folding laundry. If the goal is to commercialize a laundry-folding 
robot tomorrow, then a machine taking 25 minutes to fold one towel is 
silly. However, if the goal is to train machines to conduct the kind of 
tasks that can help keep senior citizens living independently for as 
long as possible--at enormous savings to the American taxpayer--then 
developing the technology for a robot to fold one towel could be the 
first step in a long but very worthwhile journey.
    A scientific problem can look unimportant from the outside, which 
is why it is valuable to have sufficient background and context to 
judge the work's potential merit. The peer review of science is 
certainly not perfect, and scientists are typically the first group to 
point out the various flaws in peer review. However, debates about its 
merit typically end with both sides conceding that it is the best 
option we have. (One is reminded of Winston Churchill's famous quote, 
``Democracy is the worst form of government, except all the others that 
have been tried.'')
    The ridicule of research when judged only by its cover highlights 
not the folly of peer review, but the responsibility of scientists to 
educate the public about their research and the scientific method more 
generally. In the current fiscal climate, we need our federally-funded 
researchers to do much more outreach to help the American taxpayer 
understand the relevance of their work. In addition to the one-page 
summaries that are currently published by the funding agencies, richer 
media could communicate the content of research and its broader impact 
for American society. Scientists should get into the habit of viewing 
their work the same way that it might look from the outside, in order 
proactively to explain their work from the outside in. There is an 
increasing trend of media coverage for the Social, Behavioral, and 
Economic sciences--suggesting that the public takes an interest in this 
work and values it--and most serious scientists welcome this chance to 
communicate and thank the public for its support.

Conclusion

    Distinguished Members of the Committee, let me end by emphasizing 
the shared goal between members of Congress, the American public, and 
researchers in the Social, Behavioral, and Economic sciences. All of us 
care about building the basic knowledge that will ultimately lead to 
improving the effectiveness of the warfighter, the competitiveness of 
American industry, and the health and welfare of American citizens.
    My own story is just one example of basic behavioral research that 
has practical applications for the military, business, medicine, and 
education. My research has benefited from federal research funding, and 
I am grateful for the chance to give back to the public that has 
supported this work. I also appreciate the opportunity to speak with 
you about the importance of this work. My hope is that this experience 
is the beginning of more productive dialogue with scientists--to speak 
to members of Congress about their work, why the work is important to 
this country, and why the NSF should fund it.

Appendix: Evidence of the U.S. military's interest in nonverbal

communication across cultures

Army Research Institute OSD07-T004

TITLE: Training Soldiers to Decode Nonverbal Cues in Cross-Cultural 
Interactions

TECHNOLOGY AREAS: Human Systems

OBJECTIVE: Develop a computer-based training tool to improve Soldiers' 
ability to decode nonverbal behavior in cross-cultural interactions.

DESCRIPTION: The course of events in Iraq and Afghanistan has 
emphasized the role of human rather than technological solutions in 
influencing the outcome of conflicts, making interpersonal skills an 
increasingly important set of tools for the warfighter (Scales,2006). 
Counterinsurgency, information operations, and stability operations 
require a high level of interaction with the local population, and in 
order for these interactions to yield useful intelligence or to 
facilitate identification of insurgents, Soldiers must have effective 
communication skills. As a result, greater resources have been 
allocated to developing proficiency in Middle Eastern languages. 
However, much of communication occurs through nonverbal channels, 
especially when language skills are minimal or absent. Recognition and 
accurate interpretation of others' nonverbal behavior is needed is 
needed to identify opportunities to influence an individual or 
situation, such as civil affairs units seeking the cooperation of local 
leaders, or to discriminate hostile from friendly or neutral intent, 
such as infantry units operating security checkpoints. The cross-
cultural nature of these interactions increases the likelihood of 
error, due to lower accuracy in cross-cultural emotion recognition 
(Elfenbein & Ambady, 2002a) and the tendency to apply ethnocentric 
interpretations of behavior.
    The training goal is to prepare Soldiers to interpret and predict 
behavior more accurately in cross-cultural environments. Training 
should address the role of culture in nonverbal communication, 
identifying aspects of nonverbal communication that are universal, such 
as expression of emotion (Elfenbein & Ambady, 2002b), and aspects of 
NYC that are culture-specific, such as display rules, emblems, 
illustrators, and regulators (Ekman & Friesen, 1969). The culture-
specific aspect of training should target a culture in the Middle East. 
Training should include nonverbal cues in multiple channels (e.g., 
vocal cues, kinesics) and describe circumstances under which certain 
channels are more reliable than others. Training should be computer-
based and interactive, requiring student response and feedback. 
Training should not only identify reliable nonverbal cues, but also 
identify behaviors that may be commonly misinterpreted due to cultural 
differences. Particular attention should be paid to cues that can be 
observed from a distance, as observing facial expression may not always 
be practical when assessing a target for hostile intent and such 
behaviors are less consciously regulated than facial expressions (Ekman 
& Friesen, 1974). All training software/systems must be ADL/SCORM 
compliant.

Book: Sociocultural Data to Accomplish Department of Defense Missions:

Toward a Unified Social Framework

ISBN-I0: 0-309-18516-5

ISBN-13: 978-0-309-18516-5

http://www.nap.edu/catalog.php?record id=13077

    Sociocultural Data to Accomplish Department of Defense Missions: 
Toward a Unified Social Framework summarizes presentations and 
discussions that took place on August 16-17, 2010, at a National 
Research Council public workshop sponsored by the Office of Naval 
Research. The workshop addressed the variables and complex interaction 
of social and cultural factors that influence human behavior, focusing 
on potential applications to the full spectrum of military operations.
    The workshop's keynote address by Major General Michael T. Flynn, 
U.S. Army, provided critical context about the cultural situation and 
needs of the military operating in Afghanistan. Additional 
presentations were divided into four panels to address the diverse 
missions encountered by the U.S. military worldwide. The workshop 
concluded with a final panel to discuss the strengths and weaknesses of 
different methods of acquiring and using relevant data and knowledge to 
accomplish these missions. The panel topics and presenters are listed 
below:

        <bullet>  Conflict Is Local: Mapping the Sociocultural Terrain 
        David Kennedy, Hsinchun Chen, and Kerry Patton

        <bullet>  Bridging Sociocultural Gaps in Cooperative 
        Relationships Robert Rubinstein, Alan Fiske, and Donal Carbaugh

        <bullet>  Building Partner Capacity with Sociocultural 
        Awareness Jeffrey Sanchez-Burks and Shinobu Kitayama

        <bullet>  The Art of Sociocultural Persuasion Jeanne Brett, 
        James Dillard, and Brant R. Burleson

        <bullet>  Tools, Methods, Frameworks, and Models Mark Bevir, 
        Laura A. McNamara, Robert G. Sargent, and Jessica Glicken 
        Turnley

    Chairman Brooks. Thank you, Dr. Elfenbein.
    The Chair next recognizes our third witness, Dr. Peter 
Wood, President of the National Association of Scholars.

STATEMENT OF DR. PETER W. WOOD, PRESIDENT, NATIONAL ASSOCIATION 
                          OF SCHOLARS

    Dr. Wood. Thank you, Chairman Brooks and Ranking Member 
Lipinski.
    The National Association of Scholars stands in a somewhat 
different position than representatives of the NSF or an 
esteemed researcher in the field of emotions. I represent 
roughly 3,000 faculty members, a great many of them social 
scientists and a great many who have been recipients of NSF 
funding over the years.
    We are primarily concerned with the integrity of the 
research enterprise in higher education, but we also recognize 
that higher education is not an island, and that the academy 
has to play its role in the retrenchment of the federal budget, 
and that what we are facing with deep deficits in this country, 
and the overall need for financial stringency is something that 
the social sciences will have to bear as well as everybody 
else.
    So the question that I would like to address in these few 
minutes is how we can do this with the least harm to our basic 
scientific enterprise. The National Science Foundation is not a 
profligate element in the government. Its review of proposals 
is notoriously very strict. The proposals that win funding are 
seldom trivial, and it has been pretty good in resisting 
appeals to short-term thinking and politicization. Not that 
those things have been totally absent; but in my view that once 
we have reviewed the NSF budget and other parts of the federal 
budget for the trivialities, there still is going to be a need 
to make cuts in areas that will affect some basic research.
    So I think what the Committee needs, what Congress has to 
have in hand is some approach to triage; some way to figure out 
among a lot of very good proposals and well-intended funding 
which cuts can be made that will produce the least harm.
    In my written testimony I suggested six principles that 
might guide that. The first is that a great deal of attention 
needs to be placed on where funding is available from outside 
the academy that might substitute for loss of NSF funds. There 
are numerous foundations in this country that do support basic 
research. As a university administrator I know that roughly 
half of our funding in research universities has come from non-
governmental sources.
    We can, if we devote ourselves to that task, probably make 
cuts in the federal budget that will do little harm to 
important basic research if outside funding is available, but 
those cuts need to be made strategically and tactically to be 
sure that they are in areas where there is private support.
    The second consideration is that the NSF is a major player 
in the production of new PhDs in this country. It uses its 
funds, rightfully so, to support both graduate students who are 
in graduate programs and those who are finishing and working on 
their dissertations. But we produce way too many PhDs in the 
social, behavioral, and economic sciences. We know that because 
many of them end up forced into the market for contingent 
faculty members, they work as adjuncts for extraordinarily low 
wages, or they are forced out of the academic world altogether.
    We need to be thoughtful about this that we can probably 
find ways to cut the budget that takes account of actual labor 
force needs. Economics plays a double role here.
    Finally, well, not finally, but in a group of 
considerations I think the Committee needs to be aware that the 
social sciences have been to a lamentable degree infected by 
anti-science methodologies and anti-science ideologies.
    In my own field of anthropology, recently the key 
association, the American Anthropological Association, has been 
floating the idea of eliminating science from its mission 
statement. I don't know that that is going to go through. There 
is pretty stiff opposition from those of us anthropologists who 
think our field is a science, but nonetheless, this anti-
science element usually called post-modernism is broad and is 
part of what goes on in our fields.
    Now, when I review the proposals that have actually been 
funded by the National Science Foundation, I see the little 
direct evidence that this ideology is present, but I am aware 
that anthropologists and other social scientists are very 
clever about disguising their real intentions, and that is 
something to pay attention to.
    And finally, we are in an era in which higher education 
overall is in the midst of a deep restructuring, and it is 
important that the Committee take into account that just the 
rise of for-profit education and online education is going to 
change the market for social scientists. Thank you.
    [The prepared statement of Dr. Wood follows:]
          Prepared Statement of Dr. Peter W. Wood, President,
                    National Association of Scholars
    Thank you for the opportunity to speak to the Subcommittee on 
Research and Science Education on the question of why social, 
behavioral, and economic sciences are important to the physical and 
life science communities, to the Federal government, and to the 
American taxpayer.
    I am speaking today both as a social scientist who has benefitted 
from National Science Foundation funding and as the head of the 
National Association of Scholars, an organization whose membership 
includes more than five hundred social and behavioral scientists and 
economists, most of them senior scholars at colleges and universities. 
A few years ago, I resigned from a tenured position teaching 
anthropology at Boston University, and I am no longer pursuing funded 
research in my discipline. But as president of the NAS, I work with 
many people who are active in social science research and who depend to 
varying degrees on federal funding to carry their work forward.
    The National Association of Scholars takes a broad view of the 
relationship between the academy and society. Our members are aware of 
the federal government's deep deficits and the overall need for budget 
cuts. We expect that the social sciences will have to bear their share 
of the financial stringency. The national interest in closing the gap 
between federal revenue and federal spending is rightly the priority of 
this Congress, and we know that will mean cuts to some important 
programs.
    Our major concern--my major concern--is that these cuts be made 
shrewdly. The social, behavioral, and economic (SBE) sciences should 
not be x-ed out completely from the budget of the National Science 
Foundation or other federal agencies. I will speak mainly of NSF 
programs, which I am more familiar with than programs run by other 
agencies. A great deal of NSF funding in the SBE disciplines goes to 
projects that are intellectually worthy. Only a small portion, in my 
judgment, is diverted to trivialities or is channeled to programs on 
the basis of their political appeal rather than their scientific merit. 
Of course, if funding for the SBE disciplines is to be trimmed, the 
place to begin is with those trivialities and politicized programs. But 
even if all these could be properly identified and statutory language 
could be written and passed that prevented similar abuses in the 
future, cutting them would probably fall short of what is needed. I 
expect Congress will have to go further and cut NSF funding for SBE 
research that has substantial merit. What we need is a principle for 
triage. Among all the worthy projects in the SBE disciplines, which 
ones stand out as most in need of NSF funding?
    I have six suggestions. But before I get to those, I would like to 
offer a brief statement of my overall view and I would like to tackle 
the questions with which Chairman Brooks framed his invitation to me.
    My overall view is this: the National Science Foundation was 
created to advance basic research. That was a good idea for the United 
States at the time and it remains so today. We need basic research not 
least because it is the deep source of almost all our technological and 
economic progress. The greatest advances have come not from researchers 
looking for better ways to build mousetraps but from researchers who 
are, so to speak, more interested in the mice. When Watson and Crick 
discovered the structure of DNA, they knew they had achieved something 
intellectually big, but its practical implications were invisible and 
it took decades before that discovery led to the miracles of genetic 
engineering we have today.
    Examples of the long-term benefits of basic research in the natural 
sciences are more familiar than examples in the SBE sciences, but there 
too the liberal arts approach of pursuing the answers to the hard 
intellectual questions rather than the tempting practical ones has paid 
off. My discipline, anthropology, grew largely out the amateur 
investigation of an upstate New York lawyer, Lewis Henry Morgan, who in 
the mid-19h century took an interest in the kinship terminology of the 
local Seneca Indians. From Morgan's work grew the whole enterprise of 
studying kinship and marriage patterns as the key to understand social 
structure in all human societies. Or to take another example, Adam 
Smith was not looking for ways to improve the manufacture of pins when 
he observed how the division of labor in pin factories led to 
efficiencies unavailable to the solo worker. Smith's observations 
presented in The Wealth of Nations, however, led to the very practical 
discipline of economics.
    If we take the long view, investing in basic science pays off, even 
in the softer-seeming social sciences. And if we stick with that longer 
view, it is the near-term practical research that typically proves to 
have a short shelf-life.
    Let me turn to Chairman Brooks' questions. He asked me:

        Why are social, behavioral, and economic sciences important to 
        the physical and life science communities, to the Federal 
        government, and to the American taxpayer? How does basic 
        research in the social and behavioral sciences advance the 
        scientific community? How does it serve the Federal government? 
        How does this research advance or affect the lives of the 
        general population today?

    To start, the social, behavioral, and economic sciences are 
important to the physical and life science communities because they 
illuminate the human condition. The life sciences are especially 
intertwined with the SBE sciences. Humans are a complex social animal. 
Our social complexity and our biological complexity are inextricable. 
We are equally biological and social organisms, and neither one side 
nor the other can be understood in isolation.
    I realize how abstract this sounds. To bring it down to earth, 
think of transnational adoptions, which are now quite common in the 
United States. A little further on in these remarks I will have 
something to say about an NSF-funded research project that deals with 
transnational adoptions, so this is by no means a hypothetical case. We 
know from practical experience that infants adopted from abroad become 
culturally American with no special effort on the part of the adoptive 
parents. To the contrary, many adoptive parents try hard to give their 
adoptive children some sense of the culture and heritage they left 
behind, and it is not uncommon for these children as young adults to go 
abroad in search of their birth relatives and some sense of their 
cultural heritage. Biology matters to them; so does culture; and yet 
these sought-for links often prove very disappointing. The longed for 
connection just fails to materialize.
    We are a species that thrives only in families, but families are a 
social reality that the social, behavioral, and economic sciences bring 
into focus. Our in-grained ability to form stable pair bonds between 
men and women requires social form, as does our need to provide 
nurturing mothers and fathers to our offspring, who in comparison to 
all other animals, require an extraordinarily long period of dependent 
immaturity. That period of dependency is when we acquire most of what 
we call culture, and it is nearly impossible to un-do it, though we can 
add layers on top.
    The complexity of these phenomena lies in the combination of 
necessity and fluidity. We cannot thrive without family and parents, 
but biology doesn't supply us with a single answer. Robins build their 
nests the same way every time. Human families differ dramatically from 
culture to culture. If we want to understand who we are, we have to 
achieve the stereoscopic view that captures the biologically 
essentially and socially contingent, and we have to grasp the power of 
that contingency.
    Studying contingency might be the very definition of the social, 
behavioral, and economic sciences. I start with the example of the 
family because kinship is one of my anthropological specializations. 
But the stereoscopic vision is required in almost everything in the 
human condition. Our bodies have amazing capacities to develop and 
adapt, as well as all manner of frailties and susceptibilities to 
disease. Body mechanics and medicine can illuminate some of these 
strengths and weaknesses, but the full picture requires us to see how 
strengths flourish in response to social incentives and how our 
susceptibilities grow out of lifestyles. We gained susceptibility to 
tuberculosis because our ancestors domesticated cattle. We get sick 
with the flu because our ancestors domesticated chickens. Diseases that 
jump the species barrier are a biological fact, but these jumps occur 
in social contexts. The SBE sciences help us understand that context. 
The NSF's Ecology and Infectious Disease Program provides necessary 
funding to pursue this science.
    Our frailties and diseases illustrate one of the intersections 
between life sciences and social sciences, but so does our positive 
capacities for complicated divisions of labor and our skill in creating 
mutually profitable exchange. We need the science of economics to trace 
out the complexity of specialization and exchange, but we need 
neuroanatomy and cognitive science to understand how specialization and 
exchange are even possible. No other animal has more than the barest 
rudiment of these abilities. Understanding them requires the SBE fields 
as much as it does physical and life sciences.
    Finally, our capacity for language, our ability to form 
communities, and our susceptibility to breaking communities apart are 
at the center of this zone where social scientific investigation meets 
human biology. The NSF's program ``Documenting Endangered Languages'' 
is one way in which we rescue key knowledge in this area from 
historical oblivion.
    I have ventured an answer to the first part of the first question, 
``Why are social, behavioral, and economic sciences important to the 
physical and life science communities?'' But Chairman Brooks also asked 
why SBE sciences are important ``to the Federal government, and to the 
American taxpayer?'' Clearly some matters may be important in their own 
right but not important to the Federal government or to the taxpayer. 
The usual defense of the social, behavioral, and economic sciences is 
that they offer practical benefits. I am not going to pursue that 
argument any more than in my suggestion that seminal research--such as 
the research of Watson and Crick, Lewis Henry Morgan, or Adam Smith--
often proves fruitful in the long term. The SBE sciences may indeed 
produce some shorter term practical benefits, but I don't think that is 
why the Federal Government should fund NSF programs in these areas or 
what the taxpayer should expect from research in SBE. If we wanted 
those practical benefits and are convinced that social science can 
deliver them, it would be better for Congress to appropriate funds 
specifically for applied social science.
    The better reason to fund the SBE sciences through the NSF is to 
sustain scientific excellence. Science of course is not a single 
enterprise. Astronomers, chemists, biologists, physicists, geologists, 
etc. use dissimilar methods and count successes in different ways. Add 
in the SBE sciences and the picture is still more various. But behind 
all this variety is the shared quest to understand nature and our place 
in it. In that sense, we can have only one real standard. We need 
science that advances us towards seeing the world at every scale as it 
really is. A science that looks at only large things like galaxies or 
only at tiny things like DNA would be drastically incomplete. We need 
to keep humanity in the picture, and we fall far short of the mark if 
we treat the quest for understanding our own species as merely a 
hitchhiker on the physical sciences. We need excellence in the SBE 
sciences too. Without a national commitment to such excellence, we will 
end up with a hollow civilization: one that values knowledge of the 
mechanics of things disconnected from our knowledge of ourselves.
    Moreover, a major retreat from the SBE sciences on the part of the 
NAS would simply accelerate the politicization of these fields. But I 
will have more to say on this below.
    Chairman Brooks also put to me the questions, ``Why is it in the 
American taxpayer's interest for the Federal government to fund all 
disciplines within the SBE sciences? How should the Federal government 
prioritize funding for SBE research? How should NSF, specifically, 
prioritize funding for SBE research?"
    By way of answer to all of these questions, I want to offer the six 
suggestions I alluded to before. But I want to be clear from the 
outset. I don't believe that it is in the interest of the American 
taxpayer for the Federal government to fund all disciplines within the 
SBE sciences. We face the need for cuts and we have to find intelligent 
ways to make them. That may mean suspending funding in some 
disciplines.

    First, Congress should pay attention to non-governmental sources of 
funding. Some areas of research already attract substantial financial 
support from international agencies, foundations, private-donors, and 
for-profit enterprises. There is no reason to think that these funding 
sources have been exhausted.
    Scholars who work in the areas could, if faced with a decline in 
funding through the NSF, potentially find substitute sources of 
support.

    Second, Congress should pay attention to the oversupply of SBE 
Ph.D.s in the labor force. Each year our universities award advanced 
degrees to many more people in these fields than there are 
opportunities for employment that require such credentials. One result 
of the surplus is that colleges and universities rely more and more on 
adjunct faculty members, part-timers who are typically paid 
extraordinarily low wages and whose relationship with students is 
transitory and transactional. The oversupply problem has a cascade of 
other negative social consequences, but I'll limit myself to just one: 
producing this surplus of specialists is a tremendous waste of 
resources. And NSF is one of the culprits. It supports graduate 
students in SBE fields through its graduate fellowships, and again in 
grants to support the writing of Ph.D. dissertations. I would by no 
means recommend cutting these entirely, but it is clear that NSF 
currently incentivizes people to pursue careers in fields in which 
there are meager opportunities.

    Third, Congress should pay attention to the rise of anti-scientific 
ideologies within SBE disciplines. In my field of anthropology, for 
example, a recent controversy has highlighted this division. The 
weekend before Thanksgiving, at the closing of the annual convention of 
the American Anthropological Association (AAA), the organization's 
Executive Board discussed a long-range plan that would alter the AAA's 
mission statement. The new mission statement deleted the idea that 
anthropology is a science. It also blurred the intellectual boundaries 
of the discipline and, ironically, inserted a stronger warrant for 
using anthropology to engage in public advocacy.
    In the weeks and months that followed, as word reached the rank and 
file, a heated debate ensued. One section of the AAA, the Society for 
Anthropological Sciences, took strong objection to the jettisoning of 
``science'' from the organization's mission and many individual 
anthropologists seconded that dissent. The AAA's leadership back 
peddled to a degree and declared that its purposes had been 
misunderstood. But the incident was not an innocent misunderstanding. A 
substantial number of anthropologists do not regard their discipline as 
a science. They see ``science'' itself as a label or at most one path 
to knowledge among many that anthropology should avail itself of.
    The kerfuffle over the AAA's mission statement has its counterparts 
in many other social sciences. We have lived through an era in higher 
education in which the social sciences have been profoundly influenced 
by ideological and philosophical developments that are at odds with 
science. Post-modernism brought into the social sciences the view that 
truth is just a social construct. Different people have different 
truths, and that claims that something is true mostly reflect efforts 
to dominate and to exercise power. This view is inimical to genuine 
scientific research but it lends itself handily to more free-form 
styles of investigation and it is comfortable with research tied to 
political goals.
    I hasten to add that I am not saying that views such as these 
should be blocked or that the scholars who promote them don't have the 
right to express their views. They of course enjoy academic and 
intellectual freedom. But academic and intellectual freedoms don't come 
with a presumptive right to Federal funding.
    Looking at actual awards granted by the NSF over the last few 
years, I would say NSF generally steers clear of funding research that 
openly embraces postmodernism or its equally anti-scientific variants. 
But it isn't always easy to tell. Researchers who seek federal funding 
from a science agency usually know enough to present their work as 
scientific in spirit even if at a deeper level it is not.
    For instance, I see that the NSF granted $200,000 last year for a 
project titled, ``Transnational Adoptees and Migrants: From Peru to 
Spain.'' The awardee is looking at Peruvian immigrants to Spain, and 
Peruvian children adopted by Spanish families. The abstract of the 
study claims scientific merit in ``bringing the two kinds of population 
movements into comparison with each other.'' And the researcher will 
learn from this how ``to elucidate common and differentiating factors 
in the countries of origin and destination; how the two may interact, 
particularly with regard to integration into the receiving country; and 
how the identities and experiences of young immigrants are affected by 
being either adopted or part of labor-migrant families.'' The research 
is to be conducted through ``participant-observation, semi-structured 
focus group interviews, and semi-structured interviews with individuals 
and families.''
    I do not know the lead investigator, Dr. Jessaca B. Leinaweaver of 
Brown University, or anything more about the project than what NSF has 
posted. I can imagine that it has genuine scientific merit. Demography 
is an important field, and international population movements bear on a 
lot of issues we must deal with as a nation. But I must register a 
doubt. Though both involve people crossing international boundaries, 
transnational adoption and immigration of adults are pretty disparate 
topics. The connection between them as stated in the abstract seems 
entirely rhetorical, and the method of investigation unlikely to yield 
much beyond impressionistic interpretations.
    Dr. Leinaweaver's research is by no means outside the mainstream of 
contemporary cultural anthropology, but that may be a signal of the 
underlying problem. It has become much more difficult to distinguish 
scientific investigations in the social sciences from other forms of 
research. This is not to say those other forms of research always lack 
merit. If a researcher sets out on a program of historical, humanistic, 
or interpretive study, however, the NSF is probably not the best source 
of funding. Taxpayers of all points of view are being asked to 
subsidize the research of those with a particular point of view. If the 
particular point of view does not have special standing as a matter of 
science, it is hard to see why it should enjoy any special subsidy.
    Fourth, Congress should cut funds wherever they are being used by 
NSF to advance non-science agendas. This is an area fraught with 
controversy that could distract from other points, so I will leave it 
as a general principle. The purpose of NSF is to advance science, not 
one or another person's views of social justice.
    I would, to start with, recommend de-funding the programs that 
support ``transforming education'' and ``ethics.'' These are not 
scientific endeavors. They are, fairly openly, political undertakings. 
For example, the NSF's 2009 grant of $299,000 for a project titled, 
``Engineering and Social Justice: Research and Education of 
(In)commensurable Fields of Practice,'' is framed entirely within the 
perspective of advancing a politicized view of the field of 
engineering. To underscore this, I quote the project abstract in its 
entirety:

        This project, supported by the Ethics Education in Science and 
        Engineering Cross-NSF program, investigates the relationship 
        between engineering and social justice. Given the global 
        challenges of the 21st century, engineering educators are 
        implementing innovative ways to prepare tomorrow's engineers--
        including programs and courses in community service, 
        sustainable development, and humanitarian engineering. That 
        engineering students might be enacting various forms of social 
        justice in these programs and courses raises important 
        questions. How are engineering students interpreting social 
        justice? How do those interpretations intersect with their 
        education as engineers? What might engineering and social 
        justice have in common? In which ways have these two fields of 
        practice aligned, clashed, or interfaced in recent US history? 
        How and why should relevant dimensions of social justice be 
        effectively taught and disseminated throughout engineering 
        curricula?
        The main goal of this project is to research these questions 
        and develop educational resources aimed at relevant connections 
        between engineering and social justice, allowing for various 
        interpretations of social justice. To achieve this goal, the 
        project researches historical and ethical connections between 
        engineers and social justice. Furthermore, given the surge in 
        university programs related to community service and 
        humanitarian engineering, the project contributes by developing 
        relevant instructional case studies. The project will also 
        result in a book about Engineering and Social Justice with 
        chapters exploring the social-justice dimensions of engineering 
        during the New Deal, radical and non-radical engineers in the 
        1960s, engineers of appropriate technology, engineers of 
        sustainable development, and engineering to help. Primary 
        project partners and audiences include engineering faculty and 
        students, engineers in organizations actively pursuing social-
        justice goals, and a growing network of engineering educators 
        interested in social justice issues. This project stands to 
        have a broad impact by increasing recruitment and retention 
        among US engineering students, particularly women and 
        underrepresented groups, as students become more concerned with 
        the social relevance of their careers.

    I imagine Congressmen can and will have differing views on the 
worthiness of this vision of education for engineers, but it seems 
plain that the project is in no way an effort to advance scientific 
understanding.

    Fifth, Congress should beware funding for projects that slip too 
easily into contemporary policy debates. The projects need not be 
carrying a political ballast to fall into the realm of questionable 
places for the taxpayer to invest resources. The problem is that social 
science research all too easily gets dazzled by the prospect of 
practical application and researchers find themselves drawn to take 
sides in policy debates. Do we want social science that helps us hack 
through the thickets of data to clarify complicated social problems? I 
think we do--and the place for that research is in policy-oriented 
think tanks, commissions, and programs set up for specific purposes. An 
agency created to fund basic science is the wrong place through which 
to fund work that aims to contribute to public policy discourse.
    I realize my view must sound very odd to some members of Congress 
who have abundant experience hearing from academic experts about the 
potential practical rewards of policy-oriented research. I must re-
emphasize that such research is frequently worthwhile, but that 
locating it in the National Science Foundation is a mistake. It is 
mistake because it competes with and crowds out research that is more 
fundamentally important; it is a mistake because there are almost 
always interest groups willing to fund such research without using the 
taxpayer's dollar; and it is a mistake because the research itself is 
likely to be compromised along the way.
    For example, in March of this year NSF awarded $148,000 for a 
project titled, ``Out From the Shadows: The Lives of Immigrants Before, 
During, and After Legalization.'' The project consists of ``qualitative 
research to examine the experiences and outcomes of immigration legal 
status change among Mexican immigrants to the U.S.'' The researcher 
aims to ``complement macro-level quantitative studies of new legal 
immigrants by contributing person-centered qualitative data on legal 
stages of naturalization from the point of view of immigrants 
themselves.'' And the study focuses on people selected from four 
categories: ``immigrants who anticipate changing their legal status 
from undocumented to legal permanent resident, those who have recently 
changed their status, those who adjusted their status ten or more years 
ago, and naturalized U.S. citizens.''
    I don't see this research as necessarily politicized. The 
researcher has not openly declared a view on whether illegal immigrants 
to the U.S. should be granted legal status. The researcher herself, 
however, is explicit that the project is intended to be ``a timely 
contribution to local and national policy debates about immigration 
programs.'' And the thin line between making a contribution to social 
scientific knowledge and advocating for an interest group gets even 
thinner: ``This study can provide important information for 
organizations and agencies that provide support and resources to 
legalizing immigrants.'' What about taxpayers who don't want to 
``provide support and resources'' for illegal immigrants? Regardless of 
one's views on that question, it is hard to see this research as 
disinterested. In fact, the research has very thin justification 
outside those policy debates. The researcher falls back on what amount 
to a series of social science cliches.

        This project will advance research in an area that is of 
        critical importance to wider considerations of nationhood, 
        citizenship, transnational migration, and globalization. 
        Furthermore, the research will document the challenges that 
        immigrants face during and post-legalization, and how these 
        challenges may be experienced with respect to characteristics 
        such as gender, ethnicity, and class.

    The slope is too slippery to bear more than momentary weight. When 
the NSF funds such policy-oriented research, it is on the road to 
making policy on its own--in fields far beyond science.

    Sixth, Congress should consider the larger picture of the changing 
nature of American higher education. The lion's share of science 
funding from the Federal government goes to researchers who are faculty 
members at research universities. Another large share goes to graduate 
students at these universities. I have already pointed out that the 
nation has an over-abundance of Ph.D.s in the SBE sciences. We may also 
have other excesses. Undergraduate students in larger and larger 
numbers are opting to pursue post-secondary education in community 
colleges and online institutions that have no commitment to research, 
and undergraduate students at four-year institutions have been steadily 
migrating to fields such as business, health, communication, and 
education. The nation's emphasis on university-based research in all of 
the sciences is, at the very least, vulnerable to recalibration. I 
would take it as a serious loss for the nation if we recalibrated 
ourselves all the way out of a serious commitment to SBE research, but 
I do think that we could make cuts that would leave room for the 
essential work to continue.
    I appreciate having had this opportunity to address the committee.

    Chairman Brooks. Thank you, Dr. Wood.
    The Chair now recognizes our final witness, Diana 
Furchtgott-Roth, Senior Fellow at the Hudson Institute.

 STATEMENT OF MS. DIANA FURCHTGOTT-ROTH, SENIOR FELLOW, HUDSON 
                           INSTITUTE

    Ms. Furchtgott-Roth. Mr. Chairman, Members of the 
Committee, thank you so much for inviting me to testify here 
today. We have a spending crisis in America, and we should only 
spend when there is a compelling interest. We have universities 
that fund these disciplines, and it should not be the role of 
the government.
    In my field economics, original seminal works were produced 
without government funds by Adam Smith, John Maynard Keynes, 
Frank Knight, Friedrich Hayek, even Karl Marx; they all 
produced their work without any government funding at all.
    The social and behavioral scientists abound in the 
universities and private businesses, their research products 
always interesting and valuable, can be sold to journals and 
corporations. Successful SBE research is well supported by 
think tanks, private corporations, law firms, and foundations 
that can use the results. There are many private foundations 
that provide grants for social science research, including the 
Kauffman Foundation, the Smith Richardson Foundation, the 
MacArthur Foundation, the Bill and Melinda Gates Foundation 
just to name a few.
    Even if one believes that the United States has an interest 
in producing social, behavioral, and economic research, it is 
not clear that the National Science Foundation is always the 
appropriate entity. In fiscal year 2010, the NSF spent 255 
million on SBE research. NIH alone spent 4.1 billion on 
behavioral and social science research in fiscal year 2010, and 
why is there a need for NSF to do this funding?
    As Dr. Wood just said, having a grant-making agency such as 
the NSF in charge of government research funding leads to a 
greater possibility of politicization and concentration in 
certain areas. This is true even under the Merit Review System 
where researchers have to show the scientific and broad effects 
of their work. There is a temptation for politics to enter into 
the allocation of funds and for research projects to be 
allocated with non-scientific criteria, including gender, 
ethnic, and geographic criteria rather than the merit of the 
research.
    Note the comment earlier from Dr. Gutmann about how NSF 
funding funded the first woman Nobel economics prizewinner. Of 
course, politics enters into government agencies also, but the 
bias of politics is less likely to all be in one direction.
    For the NSF to argue persuasively that it should continue 
funding research on SBE, NSF should demonstrate that the 
research is important and that it won't be funded by other 
sources. Perhaps these arguments are articulated somewhere, but 
they are hard to find. They are not on the NSF website, they 
are not in annual reports prepared by NSF. Unless the agency 
can clearly make the arguments, there is little, if any, need 
for NSF funding to fund much SBE research.
    During our time of shrinking Federal dollars when our debt 
is over 14 trillion and our deficit this year is projected to 
be 1.6 trillion, the NSF should focus on basic physical and 
life science research rather than research in SBE.
    One exception, and well, one exception and just to draw a 
couple of parameters, might be longitudinal studies such as the 
University of Michigan panel study on income dynamics, a survey 
funded by NSF, which has followed 5,000 families since 1968. 
Perhaps these kinds of data sources should receive government 
funding, because there might be a public interest in having a 
continuous dataset, and a private foundation might be tempted 
to drop the funding. But this could also be funded by the Labor 
Department as the national longitudinal survey is, which began 
in the 1960s.
    A couple of other parameters that I might consider 
suggesting if the NSF wants to fund research in my field, 
economics, to only support projects that create new data that 
are made publicly available to other researchers within five 
years. Second, only pay for data entry by research assistants 
and not by faculty, not faculty compensation, not computer 
hardware, not computer software. This would guarantee that NSF 
wasn't used to subsidize other purposes within the 
universities.
    I understand that the Federal Government often has a need 
for research, the military as Dr. Elfenbein just mentioned, has 
a need for certain kinds of projects. But then the Department 
of Defense, Department of Homeland Security, they could put out 
a request for proposal and fund that research by itself.
    Thank you very much for allowing me the privilege of 
testifying today.
    [The prepared statement of Ms. Furchtgott-Roth follows:]
            Prepared Statement of Ms. Diana Furchtgott-Roth,
                    Senior Fellow, Hudson Institute
    Mr. Chairman, Members of the Committee, I am honored to be invited 
to testify before you today on the subject of National Science 
Foundation funding for social, behavioral, and economic science 
research. I have been a senior fellow at the Hudson Institute since 
2005. From 2003 until April 2005 I was chief economist at the U.S. 
Department of Labor. From 2001 until 2002 I served at the Council of 
Economic Advisers as chief of staff. Previously, I was a resident 
fellow at the American Enterprise Institute. I have served as Deputy 
Executive Secretary of the Domestic Policy Council under President 
George H.W. Bush and as an economist on the staff of President Reagan's 
Council of Economic Advisers.
    Social, behavioral, and economic science research includes 
anthropology, archaeology, economics, geography, linguistics, history, 
neuroscience, political science, psychology, sociology, criminology and 
law. I am most familiar with economic research, having published books 
and articles in the area and having served as chief economist of the 
Department of Labor.
    There is much outstanding work produced every year in the social, 
behavioral, and economic sciences. It fills journals and working papers 
and is presented at conferences. The question at issue is not the 
quality of this research, but whether the Federal Government should 
fund it. When research is funded by the government, should it be funded 
by the National Science Foundation, or by individual government 
agencies?
    Economists have devoted much thought to the concept of public 
goods. Public goods are those for which the incentive to produce them 
is lacking because consumption is nonexcludable, and the producer 
cannot capture the returns. The most common example of a public good is 
national defense. No individual would have an incentive to set up a 
national defense system, because everyone would benefit. Another 
frequently-used example is street lighting. With street lighting, 
everyone driving on the street would benefit, and the person who put in 
the street lights would not be able to collect revenue.
    It is generally accepted that the government has to provide public 
goods, raising the revenues through taxation.
    The question is, does research in the social and behavioral 
sciences meet the definition of a public good? Then, if so, is the 
National Science Foundation the preferred mechanism for distributing 
the funding?
    Social, behavioral, and economic sciences research does not fit the 
conditions that define it as a ``public good.'' Social and behavioral 
scientists abound in the universities and in private businesses; their 
research products, often interesting and valuable, can be sold to 
journals and corporations. Successful SBE research is well-supported by 
think tanks, private corporations, law firms, and foundations that can 
use the results.
    There are many private foundations that provide grants for social 
science research. The Kauffman Foundation, the Smith Richardson 
Foundation, the Ford Foundation, the MacArthur Foundation, the Gates 
Foundation, the Pew Foundation, the Bradley Foundation, and many others 
fund research in the social and behavioral sciences. Just to give two 
examples: the MacArthur Foundation gave out almost $300 million in 
total grants in 2009, and the Kauffman Foundation spends $8 million per 
year on research into innovation and growth.
    Even if one believes that the United States has an interest in 
producing social, behavioral, and economic research, it is not clear 
that the National Science Foundation is always the appropriate entity. 
In fiscal year 2010, NSF spent $255 million on social, behavioral and 
economic research. Billions more are spent by the Departments of 
Education, Defense, Justice, Labor, Homeland Security, Energy, Housing 
and Urban Development, and Health and Human Services, particularly the 
National Institutes of Health. NSF estimates that almost $3 billion was 
spent on federal basic and applied SBE research in fiscal year 2009, 
and individual agencies provide other grants for research in specific 
fields.
    I was asked to comment on whether basic research in the social and 
behavioral sciences advances the physical and life sciences. In my 
opinion, it does not do so. Research in the physical and life sciences 
is separate from that in the social sciences and should be evaluated 
using different criteria.
    There are many organizations doing research at government expense, 
and there does not appear to be coordination between them to avoid 
duplication of effort. One useful role for NSF might be to take a 
coordinating role in the funding of government research.
    I was also asked to comment on whether research in the social, 
behavioral, and economic sciences serves the Federal Government. Such 
research does help the Federal Government make decisions about a wide 
range of issues ranging from capture of terrorists to the right level 
of energy taxes to preservation of archaeological artifacts.
    Within the economics field, the Federal Government is constantly 
faced with questions about the allocation of scarce resources, the 
distributional effects of social programs, and the optimal system of 
taxation. Currently Congress and the administration are discussing 
corporate and individual tax reform, the housing market, energy policy, 
immigration reform, among others, and economics research can shed light 
on such policy questions.
    However, it does not mean that the Federal Government or the 
National Science Foundation has to fund the research. The government 
could examine the existing body of research, and invite researchers for 
consultation. If this is not sufficient, individual agencies could 
commission new research. If the government is interested in how to 
organize housing assistance, the Department of Housing and Urban 
Development could structure a grant.
    The general population is undoubtedly better off with an efficient 
system of government with low taxes and efficient provision of 
entitlements. It is not clear how NSF funding of social, behavioral, 
and economic sciences contributes to that goal.
    Having a grant-making agency such as the NSF in charge of 
government research funding leads to a greater possibility of 
politicization and concentration in certain areas. This is true even 
under the merit review system, where researchers have to show the 
scientific and broader effects of their work. For example, global 
warming might receive priority funding one year, electric cars another. 
There is temptation for politics to enter into the allocation of funds, 
and for research projects to be allocated with non-scientific 
criteria--including gender, ethnic, and geographic--in mind, rather 
than the merit of the research.
    Of course, politics enters in other government agencies as well, 
but the bias of politics is less likely to be all in the same 
direction. Private foundations and corporations are not immune from 
politics either, but in the private sector these political biases are 
more likely to cancel each other out, and they would not directly 
affect the taxpayers' dollars.
    It is in American taxpayers' interest for Federal Government 
spending to be as low and as efficient as possible, including research 
on social, economic, and behavioral sciences. If an individual 
government agency needs an answer on a particular social or economic 
question, that agency can issue a request for a research proposal and 
can hire appropriate researchers. In the field of economics, agencies 
have a chief economist with a staff which can recommend researchers. In 
other fields, such as archaeology, linguistics, and neuroscience, where 
a federal agency might have no capability, it could consult with the 
NSF for recommendations as to experts.
    For the NSF to argue persuasively that it should continue funding 
research on social, economic, and behavioral sciences, NSF should 
demonstrate that the research is important, and that it will not be 
funded by other sources. Perhaps those arguments are articulated 
somewhere, but they are hard to find. They are not on the NSF Web site. 
They are not in annual reports prepared by NSF. Unless the agency can 
clearly makes these arguments, and I am skeptical that it can, there is 
little if any need for the National Science Foundation to fund much if 
any social, economic, and behavioral research.
    During this time of shrinking federal dollars, when our debt is 
over $14 trillion and our deficit this year is projected at $1.6 
trillion, the NSF should focus on basic physical and life sciences 
research rather than research in the social, economic and behavioral 
science.
    One exception might be longitudinal studies such as the University 
of Michigan Panel Study on Income Dynamics, a survey funded by the NSF, 
which has followed 5,000 families since 1968. Perhaps these should 
receive government funding, because there is a public interest in 
having a continuous series of data. But this could be funded by the 
Labor Department, as is the National Longitudinal Survey, which began 
in the 1960s.
    Congress could facilitate SBE research without direct funding by 
making it easier for researchers to use federal and state government 
data bases, after removing personal identifiers. Governments data 
collection includes administrative data on educational records, tax 
returns, injuries associated with different occupations, and earnings. 
Currently, it is difficult for researchers to use these data due to 
privacy considerations, even though such data are a treasure trove of 
information. If Congress were to modify some of the privacy regulations 
it would be easier for researchers to work with these large databases, 
saving time and cutting costs.
    Thank you for giving me the opportunity of testifying today. I 
would be glad to answer any questions you might have.

    Chairman Brooks. Thank you, Ms. Furchtgott-Roth.
    Dr. Gutmann, inasmuch as Ms. Furchtgott-Roth mentioned some 
of your prior remarks, would you like to make any response in a 
general sense to hers, or should we go into our normal question 
session?
    Dr. Gutmann. I think you could go into your general 
question session. Thank you.
    Chairman Brooks. All right. Thank you. Well, I thank the 
panel for their testimony.
    Reminding Members that Committee rules limit questioning to 
five minutes, the Chair will at this point open the round of 
questions. Normally the Chair recognizes himself for questions, 
but inasmuch as we have a birthday boy here, celebrating his 
85th birthday, the Chair at this point defers to my elder 
statesman, Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Our country faces some huge challenges in the economic 
sector, in the energy sector. They, of course, are related, and 
the--how we respond to those challenges is going to be 
enormously important, and obviously the social and behavioral 
sciences are going to be front and center here in how we 
respond to these challenges.
    I would like to ask Dr. Gutmann, do you think that our 
research, our understanding of the behavioral social sciences 
is ahead of or behind our knowledge in the hard sciences?
    Dr. Gutmann. Thank you very much for the question, Mr. 
Bartlett. It is very interesting. I think that we are on par 
with what is happening in other sciences. I am not sure I am 
always comfortable with the term hard science and soft science. 
That is a discussion we could have, but I think that our 
progress is interesting and commendable, and we are in the 
areas you are describing, for example, in making progress on 
energy, we are looking forward to making significant 
investments in research that will help understand how to best 
arrive at an appropriate future for energy use.
    Mr. Bartlett. Thank you. Dr. Elfenbein, 70 percent of all 
communication is non-verbal, and you referenced this 
phenomenon. Is this an international language, which means that 
if you can't speak the other guy's language at all, if you 
really understand body language and the non-verbal part of 
communications, you can understand 70 percent of what he is 
trying to tell you?
    Dr. Elfenbein. Thank you for the question. As far as 
scientists know, yes, communication being non-verbal cues is a 
largely universal language. It does have--and the work that I 
have done that has been funded by the NSF shows that although 
much of the signal goes--makes it through cultural boundaries, 
some of the signal does get lost along the way, but I think our 
intuitions are--do serve us well in this case that we can watch 
foreign films in a different language and maintain much of the 
original meaning or communicate across species boundaries, for 
example, with pets and maintain much of the meaning of non-
verbal communication, but something does get lost along the 
way.
    And for this reason misunderstandings are potentially more 
dangerous in the case of non-verbal behavior because if we were 
speaking a different verbal language, we would realize that and 
get a translator. But if we are--if we have different meanings 
involved and viewed into the cues that we use on a non-verbal 
basis, we may not realize that, and we may have a 
misunderstanding that doesn't get feedback, that doesn't get 
corrected.
    Mr. Bartlett. Dr. Wood, you mentioned foundations. I regret 
that a huge percentage of research is funded by the Federal 
Government. In some institutions, medical particularly, more 
than 90 percent of all research is funded by the Federal 
Government.
    The Federal Government can be very arbitrary and 
capricious, and I think we put at risk our research, our basic 
research if it is funded by the Federal Government. But 
lamentably we have forcively taken money from you, and we have 
not given you the option of you using your money to support 
basic research and then giving you a tax credit for doing that.
    And so here we are, and my question is in the behavioral 
sciences, which I think are going to become increasingly 
important in the future as we face these crises in our country, 
is there really enough support, non-governmental support, for 
these basic sciences that we could responsibly, drastically 
reduce our funding for NSF in this area?
    Dr. Wood. Well, I wouldn't favor drastically reducing 
funding for the NSF in this area, but I do think that 
significant cuts will be made. Will the private sector 
foundations be able to pick that up? I believe so, that the 
social science research that has real depth and real grip is 
appealing to a lot of people besides government agencies.
    Now, of course, the transition will be hard, and it will 
mean that there probably will be worthy projects that go 
unfunded. As my colleague Dr. Furchtgott-Roth has just pointed 
out, some of the most fundamental research in the social 
sciences going back in her field economics Adam Smith in mind 
to the American founder of anthropology, Louis Henry Morgan, 
took place without any government funding at all. It was 
pursued as a form of research by impassioned amateurs, and 
there is a lot of really important research that doesn't 
actually take a great deal of funding.
    Done strategically and carefully a lot can be done without 
really in-depth federal support or even with that much support 
from the foundations.
    So I am optimistic that, yes, the really important stuff 
will get done even if we have to take some lamentable cuts in 
Federal funding.
    Mr. Bartlett. If you will indulge me just a moment, Mr. 
Chairman, our fourth witness I am old enough to have known 
Herman Conn. Did your stay there overlap his?
    Ms. Furchtgott-Roth. Unfortunately, it did not. No, but we 
remember him very fondly and read his work.
    Mr. Bartlett. Thank you. Thank you, Mr. Chairman.
    Chairman Brooks. Thank you, Mr. Bartlett.
    The Chair next recognizes the Ranking Member, Mr. Lipinski, 
for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I will start out by asking Dr. Gutmann to sort of follow up 
on the--Dr. Bartlett's question there about if there were 
significant cuts, drastic cuts in SBE funding through NSF what 
would the--what do you see the impact as being? Do you think 
that this would be picked up by others?
    Dr. Gutmann. I think there are really two questions raised 
here, and I am happy to briefly answer both of them, Mr. 
Lipinski. One question is is it likely that a private sources 
could replace a substantial amount of funding that is currently 
devoted to the social and behavioral and economic sciences, and 
I think the answer to that is no.
    The great foundations that have been mentioned earlier are 
largely interested in solving relatively specific problems. The 
Gates Foundation is very rich. They largely are interested in 
certain areas of educational achievement and improving health, 
global health. Those are extremely important topics. But their 
approach to them is very applied. It is very directed towards 
solving the problem today and making investments today. They 
are much less interested in the basic science that 
organizations like NSF support, and so I don't think, in fact, 
that there is a reasonable chance that private foundations are 
going to invest more than they are investing today.
    The second question that you ask is a question about what 
would happen if government support for social and behavioral 
sciences through NSF or other agencies would be significantly 
reduced, and I think that would have a very serious affect. We 
all recognize the budgetary needs today, and we understand that 
in these times we may have to accept reductions in what we 
spend. That is the reality that we face, and we are not averse 
to understanding that reality.
    But significant reductions in SBE funding are going to 
deprive our society of the kind of basic research that Dr. 
Elfenbein talked about. Where we go into problems not knowing 
the outcome and where the long-term chain of research 
developments really transform our view of the world, and that 
is a significant risk. So I don't think that is a good idea, 
and I think it will have undue and severe consequences for the 
American people.
    Mr. Lipinski. Thank you, Dr. Gutmann. There are a lot of 
things that Dr. Wood has stated, and I think in general that we 
would find some agreement on those. This question of whether or 
not if funding would be picked up, I think I agree. A lot of 
good research is--does not need much or any funding, but a lot 
of--but there is a lot of research that does need the funding 
to be able to be done.
    I can't at all disagree that there is an oversupply of 
Ph.D.s having gone through that whole process myself and having 
been an assistant professor, but my experience is usually those 
who do have NSF funding are people who do wind up getting jobs, 
and NSF, the whole process seems to be a good almost weeding 
out of choosing those who are doing good research and those who 
are able to work with professors who are doing good research.
    One thing I wanted to get back to Dr. Gutmann on is I 
understand that the NSF has signed an MOU with the Department 
of Defense to do SBE research, and then after one year of 
funding both NSF and DOD putting in the funding level, DOD had 
then backed out of that and said NSF should just be funding 
this research.
    Can you give a little background on that?
    Dr. Gutmann. Most of those discussions occurred before I 
got to NSF, but I have been part of the process since, and my 
understanding is that the Department of Defense has felt that 
their resources could be better deployed elsewhere. And so we 
did have one cycle of making awards. Those awards were made 
about a year and a half ago, and those awards have been very 
successful. We have had a first PI meeting. There is a lot of 
interesting research that is being done in this joint program 
between NSF and the Department of Defense in the area of 
national security.
    But at this time the Department of Defense doesn't seem to 
have the resources to commit to it further.
    Mr. Lipinski. Thank you, and I just want to--my time is 
almost up. I just wanted to also say I agree, I think, with 
what Dr. Gutmann had just said, you know. We know these are 
difficult times for the budget, and there are certainly things 
that we can all find problems with maybe in some research that 
receives funding, but the bottom line is what is the overall 
contribution that this research makes, and is it worth the 
funding. And I think we generally, you know, that is the 
question we want to address, and I think that we have a lot of 
evidence that it is worth, the funding is worthwhile, but that 
doesn't mean that we shouldn't be looking at it.
    So I thank you again. I will yield back.
    Chairman Brooks. Thank you, Mr. Lipinski.
    The Chair next recognizes Dr. Harris.
    Mr. Harris. Thank you very much, Mr. Chairman, and thank 
you very much to everyone on the panel for sharing your morning 
with us.
    Dr. Gutmann, let me ask you a question. As we look through 
the fiscal year 2012 budget, SBE budget, there is the science, 
engineering, education, and education for sustainability 
portfolio, which got a 174 percent increase over last year, and 
now it is nearly a quarter of the SBE, entire SBE budget 
request.
    What falls under that portfolio? Science, engineering, and 
education for sustainability portfolio.
    Dr. Gutmann. I respectfully, Mr. Harris, thank you for 
asking the question. I respectfully think that that budget is 
not as large as that, but it is----
    Mr. Harris. The fiscal year 2012 request?
    Dr. Gutmann. The fiscal year 2012 request, but it is 
significant. I won't deny that. I think it is about, maybe 
about 15 or 18 percent of our budget, but in any event, it is a 
significant investment, and I recognize that.
    These are--in this broad area we have a portfolio of 
research that involves the geographic and spatial sciences, 
studies that link environmental, environment and society and 
studies that bring our--explore the relationship between 
consumers and producers of energy and energy technology. So in 
this, for example, is our proposed investment in an NSF-wide 
initiative to understand how to make the best use of energy in 
the future and what are the roles, the research that would be 
SBE related would be research that is part of a broad inter-
disciplinary teams that considers markets for energy, 
consumption of energy, and how people think about energy use in 
order to make the most effective use of our resources.
    Mr. Harris. That, you know, just looking at all the 
testimony about how basic research, you know, the SBE research 
is kind of basic research and not politically motivated, 
shouldn't be politically motivated, my first question, why 
wouldn't the Department of Energy be funding something that so 
fundamentally looks at energy? Why is it stuck in a basic 
science area of research funding? Why not the Department of 
Energy?
    Aren't you wondering into somebody else's bailey with 
perhaps a politically-motivated reason? I mean, who made the 
decision to increase it by 174 percent, the request by 174 
percent?
    Dr. Gutmann. Again----
    Mr. Harris. Well, you can get back to me.
    Dr. Gutmann. --with respect to by increasing it by whatever 
it is increased by----
    Mr. Harris. That is fine. You can get back to me on the 
exact number.
    Dr. Gutmann. We will get back to you on the exact number.
    Mr. Harris. If you can get that answer to me, I would 
appreciate that.
    Dr. Gutmann. Yeah, but may I continue with my response?
    Mr. Harris. Well, I am sorry. I only have two more minutes.
    Dr. Gutmann. Okay.
    Mr. Harris. I am going to go onto the next question for you 
here, and this is in a similar vein. In a brief review of the 
SBE Rapid Grants, and you are familiar with those, the ones 
that don't undergo peer review process, a great deal of funding 
seems to have been spent on evaluating the results and 
effectiveness of stimulus programs and funding.
    Now, I got to tell you, I mean, most people would look at 
the stimulus and said, you know, unemployment was lower than it 
is now, before we spent all that money I am not sure we need a 
big expensive grant to figure out what it is. We just have to 
watch the unemployment figures and the national economic 
indicators.
    But can you tell me how much the taxpayers invested in this 
and what the results of the--any of this information is? I 
mean, I assume since it was a Rapid Grant, you already have 
results because that is why you put it through a process that 
didn't require a peer review so you could get rapid results I 
would take it.
    Dr. Gutmann. I will have to respond later to you about the 
details of that. I don't have that directly in front of me.
    Mr. Harris. But is that true? I mean, were there Rapid 
Grants truly awarded to look on evaluating the results and 
effectiveness of stimulus programs and funding?
    Dr. Gutmann. Yes, there were.
    Mr. Harris. And you consider that basic science?
    Dr. Gutmann. Those research--that research was done under 
the Rapid mechanism because certain research had to be done----
    Mr. Harris. Is that basic science?
    Dr. Gutmann. Yes, I do believe so.
    Mr. Harris. You think that it is basic science that 
couldn't be done, couldn't be looked at in other, in more 
conventional means that would require bypassing peer review?
    Dr. Gutmann. There is a process of review that is 
undertaken for those, sir.
    Mr. Harris. Okay, and I have got the numbers here in front 
of me. The SES fiscal year 2012 request is $56.98 million, $57 
million, 174 percent increase over last year's request. Do you 
know where that increase originated?
    Dr. Gutmann. These decisions were made in the leadership of 
the National Science Foundation.
    Mr. Harris. Do you agree with those decisions?
    Dr. Gutmann. Yes, I do.
    Mr. Harris. So you think we need to spend, in an era where 
we have a $1.6 trillion deficit, we should be increasing the 
funding to that particular segment by 174 percent so that we 
can somehow engage in some study of education for 
sustainability.
    Dr. Gutmann. Well, the parts of that that are within our 
directorate are broadly conceived, and I believe that whatever 
the number is it is an appropriate investment.
    Mr. Harris. Well, it is $56.98 million. I mean----
    Dr. Gutmann. Yes.
    Mr. Harris. --do you disagree with that number? I mean----
    Dr. Gutmann. No.
    Mr. Harris. --I am assuming it is written in a budget. So 
let's not pretend that it is some made up--it is $56.98 
million, 174 percent increase. You think that is appropriate?
    Dr. Gutmann. It is the 174 percent that I am questioning.
    Mr. Harris. That is what?
    Dr. Gutmann. It is the 174 percent.
    Mr. Harris. Well, can you get a written response back to me 
about exactly what the percent is of the increase?
    Dr. Gutmann. I would be happy to do so.
    Mr. Harris. Thank you very much, Doctor.
    Dr. Gutmann. Thank you.
    Mr. Harris. Thank you very much, Mr. Chairman.
    Chairman Brooks. Thank you, Dr. Harris, and Dr. Gutmann, if 
you had any other questions that were submitted just then that 
you want to supplement your answers to, feel free to submit 
them to the Committee.
    Dr. Gutmann. We will be glad to do that, sir. Thank you.
    Chairman Brooks. Next we have Mr. Clarke.
    Mr. Clarke. Thank you, Mr. Chair. Appreciate you giving me 
the opportunity to address this panel. First of all, I want to 
thank Dr. Gutmann for your outstanding work at the University 
of Michigan. I am a lifelong Detroiter, and I appreciate your 
contributions.
    Ms. Furchtgott-Roth, I do hear your reservations about SBE 
research funding through NSF, but I do acknowledge your 
recognition of the value of longitudinal studies conducted at 
University of Michigan.
    Dr. Gutmann, I am on the Homeland Security Committee, and 
you know, we are concerned about, you know, the risks of 
terrorist attack, especially in the area that I represent, 
metro Detroit, and then also our country's ability to help 
prepare and respond to disasters.
    How does NSF ensure that its research that is related to 
national security and to disaster response is communicated to 
not only Federal officials but state and local government 
officials? And that is so important because the first line of 
defense in an emergency, whether it is a national--a natural 
disaster or a terroristic attack is our first responders that 
are hired by our state and local governments.
    Dr. Gutmann. So, Mr. Clarke, thank you very much for the 
interesting question. I appreciate your comments. Our first 
expectation, of course, in the area of basic research is that 
researchers are going to communicate through the standard 
channels of scholarly communication. That is most of what--that 
is our first understanding, but I know in terms of the work 
that I did in providing data in various times in my career to 
the state and local and federal policy community and that they 
read those, that literature assiduously and follow that.
    But NSF works hard to get the word out in other ways. We 
require our researchers to provide project outcome reports that 
are written in a way that a broad audience can understand them. 
We highlight in various ways our most important findings, and I 
work personally very hard to participate in multi-agency 
working groups, the Committee on Science, I co-chair the 
Committee of Science, Subcommittee on Social, Behavioral, and 
Economic Sciences. We work together in the area of hazards, 
very closely with NOAA on hazard communications so that they 
can get that out. We work with the National Institute of 
Justice in various ways on those topics.
    So I think what we try to do is a mix of things that 
encourage researchers to communicate directly through scholarly 
communications and other communications, and we encourage and 
we work ourselves to make sure that the most important findings 
that we learn about communicate to the policy area.
    Mr. Clarke. Thank you. This is just a follow up on a 
different issue to either you, Dr. Gutmann or Dr. Elfenbein, 
and this deals with the value of SBE research in terms of 
overturning many times our conventional thinking about certain 
types of behavior or decision making process.
    Can you outline some examples about the potential value of 
these findings as a result of this research?
    Dr. Gutmann. Okay. Thank you. That is a great question. We 
always get asked the question, isn't social and behavioral 
science research obvious when we see it? And the answer is, no, 
it is not. A lot of behavioral research really doesn't, as Dr. 
Elfenbein highlighted in her testimony, a lot of those things 
are really not known. I mean, the work that I cited that had to 
do with how auctions operate that led to this enormous 
production of income to the U.S. Treasury, much more than SBE 
has ever cost the U.S. Government, came about when researchers 
discovered that, theoretical researchers discovered that 
auctions and bargaining were very similar mathematically, and 
that if you did that and looked at them carefully, you could 
combine auctions and bargaining in ways that produced both 
better products for people to use and more income for the 
United States Government.
    I don't know if Dr. Elfenbein wants to add something to 
that.
    Dr. Elfenbein. Just that I think that the critique that 
researchers are often studying pieces that just satisfy their 
own curiosity on a related note, I think that when we find 
these applications, we don't, often the basic research has 
already been done, and it is difficult, I think, to start in 
the other direction so we can think about basic research that 
had transformative results, but we couldn't start with the 
question that needs transformation and then step backwards and 
say, let me go ahead and commission basic research that hasn't 
already been done.
    And just in my own experience the work that the Army took 
an interest in, if they had said, oh, well, we have this 
problem now with our soldiers serving overseas, let me go back 
and get some basic science to help solve this problem, the work 
that I had done that they were interested in had started ten 
years prior to that point.
    And so I want to just make a point around the 
unpredictability of this process so we can look at wonderful 
case studies of work that has had transformative impact, but we 
can--but as the Monday morning quarterback we can look back at 
that work, but in terms of funding that work from now forward, 
basic research is a very unpredictable process, and I think it 
is important for us to think about this portfolio of projects 
that we fund because we can't always predict when an insight 
will lead to some kind of application.
    Thank you.
    Chairman Brooks. Thank you, Mr. Clarke.
    The Chair next recognizes Dr. Benishek.
    Mr. Benishek. Thank you, Mr. Chairman, and thanks to the 
panel for your testimony. I just have a few questions.
    We have people coming before us all the time, you know, 
asking for money, and we are spending, for every dollar the 
government spends, we have to borrow 40 cents, and everybody 
thinks that their project is worthy. I don't really see how we 
can be increasing your budget 18 percent in a time of this 
fiscal crisis. I think we need to streamline the situation.
    I looked at some of the things that disturbed me as a 
physician is really the Rapid Grants where there is, you know, 
not peer reviewed, and I kind of feel for the minority when 
they were saying you can't judge the research projects by its 
title, but it concerns me. I am quoting, yes, Dr. Wood's 
testimony, he quotes a project with a title like, what is it 
here? Engineering and social justice; research and education of 
(in)commensurable fields of practice is a $300,000 grant to 
study the field of engineering and its, you know, the education 
of engineers and their relationship to social justice, and it 
has a title, and it has an abstract, and I just don't see how 
this is a project that is worthy of funding in a tight economy 
like we have.
    How do you justify an 18 percent increase in your funding 
when we have a situation like this, and I am looking at grant 
proposals and an abstract that seems to me like a waste of 
money.
    Dr. Gutmann. All of our projects are subject to 
considerable review. You asked the question about the Rapid 
Awards. We made roughly 1,100 awards in fiscal 2010. There were 
23 Rapid Awards. They were largely devoted to issues like the 
earthquakes in Haiti and elsewhere in response to immediate 
circumstances that required researchers to talk with people 
soon after the event.
    In the case of the Ethics Program Award that you describe, 
this is a program designed to increase knowledge about how 
ethical processes emerge across all areas of science. It was 
made in a competition we have in this area, and it was peer 
reviewed. I can't go beyond what you said about it in any 
specific way, but I think that it is very hard for--just as it 
is hard for you to understand how we make the award, it is hard 
for me to criticize the whole program based on a single 
project.
    Mr. Benishek. Well, I understand that. It is just that we 
end up talking about millions of dollars with the sum of all 
these projects and I think there has to be some sort of a 
prioritizing of spending, and I just don't see how an 18 
percent increase is justified when I see, you know, examples 
like this.
    Dr. Gutmann. But I could show you many more projects that I 
think we would agree have great value in terms of basic 
science.
    Mr. Benishek. Well, that may be true. It is just that there 
is no money, and everybody says, well, cut everything else but 
don't cut mine. And believe me, we need to fix the budget, so I 
think everybody is going to end up taking a cut, and I just 
think it is unrealistic to make this request.
    Dr. Elfenbein.
    Dr. Elfenbein. If I could be recognized, I think that to 
justify an increase in funds at a time of fiscal crisis, you 
have to believe that this is an investment, not an expense.
    Mr. Benishek. Everything is an investment. Okay. I mean, 
everybody comes to me with the same answer, and they all, every 
department wants everybody else cut but my department is an 
investment. So who should we cut to, you know, to make sure 
that you get your extra money? That is just unrealistic.
    So I think you have an unrealistic expectation as to what 
is happening here, and you have to streamline your research.
    I yield back.
    Chairman Brooks. Thank you, Dr. Benishek.
    Next the Chair recognizes Mr. Hultgren.
    Mr. Hultgren. Thank you, Mr. Chairman, and thank you all 
for being here.
    Following up, I mean, I think we all recognize clearly that 
these are challenging times that we are in, and so much of the 
challenge I think we face is there is a lot of good things out 
there, but what are the best things? What are the things that 
we have to do?
    And so I want to just talk a little bit about 
prioritization and I would ask each of you, I guess I would 
start with Dr. Wood, if I could, and then if each of you could 
make a comment, where do you draw the line between national 
need and priority research, transformational research, and 
research that is simply interesting and intriguing but probably 
not really game-changing research? How do we draw that line? 
Because I think that is really some of the decisions we need to 
make.
    Dr. Wood. Well, I would draw the line between basic 
research and applied research. That would be one line. I would 
also draw lines between basic research and research that has 
fairly self-evidently an appeal to the passions of the moment. 
In my written testimony I mentioned some other things like a 
study of--titled, ``Out of the Shadows,'' $148,000 spent on 
looking at the lives of illegal immigrants before, during, and 
after legalization. That is not basic research. That is 
appealing to something that is going on in the policy arena, 
and I think that one should look at the NSF funding with the 
question of whether that kind of thing really falls into the 
category that Dr. Elfenbein was talking about where we are 
likely to get insights that lead to applications down the road. 
Well, no, we are really just sort of flattering ourselves that 
we can use social science to fill in pictures for us that are a 
little bit vague or feed advocacy groups with data that looks 
scientific.
    That is the sort of thing that I think that the Congress 
should be aware of in this sort of funding, and it is not that 
the NSF does that all the time, but if you look through those 
1,100 awards, you can probably find a segment of them that seem 
to be more driven by identity politics by policy debates rather 
than basic science.
    Is there some sort of linguistic formulation where you 
could absolutely draw the line so that the NSF administrators 
knew we were going to do this and not that, I think that is 
very difficult, but it is certainly possible to push hard in 
the direction that what we want out of NSF is true basic 
science, not all kinds of politicized stuff dressed up as basic 
science.
    Ms. Furchtgott-Roth. I guess I would answer the question by 
saying is this the role of government to do, and Dr. Gutmann 
just mentioned a big project they had, how to make the best use 
of energy in the future. We have companies that are producing 
energy, we have consumers who are buying energy, we don't need 
the government to figure out how to make the best use of energy 
in the future. We just see what consumers are buying and what 
they are not buying.
    If we think there is a social cost of using certain kinds 
of energy such as, gee, we shouldn't be using so much oil. We 
can put a tax on oil to encourage consumers to purchase less of 
it. This isn't something that we need to devote government 
funds to doing.
    Now, there are other areas where perhaps we are falling 
behind, not in the social sciences, perhaps in the physical 
sciences. You see physics graduates of leading universities, 
they go off to investment banks on Wall Street rather than 
studying physics. There is probably a greater role for NSF 
grants in the physics, chemistry, those hard sciences where 
graduates don't get jobs.
    In my field, economics, corporations, banks, the Federal 
Reserve, other government agencies employ economists. There are 
no shortages of jobs for economists whether private and other 
government sectors pay for this research.
    Dr. Elfenbein. In prioritizing research I want to emphasize 
the importance of peer review over political review. I think 
that it is difficult to see sometimes the value of projects 
when looked at out of context, but the science--but scientific, 
the scientific method is such that scientists often take large 
problems that are difficult to solve and break them into 
smaller problems that can be solved, and when looked at out of 
context, those smaller problems might seem silly from the 
outside. They might seem like the--they might seem like ideas 
to ridicule publicly but when seen from the eyes of people who 
have expertise in that area, their value can be known.
    And so I want to distinguish the importance of having those 
with expertise involved in the process and rather than strictly 
political review of grants and their value.
    But in addition I want to emphasize the lack of 
predictability from the time of basic research being done to 
know just how valuable and how applicable it is going to be and 
the difficulty of taking a look and going through a portfolio 
of projects by saying what do you think now is going to be 
transformative later. Very often we just don't have that 
ability to look into the crystal ball and what we need to think 
about as portfolios of projects.
    Thank you.
    Dr. Gutmann. Is there still time for me to speak?
    Chairman Brooks. Go ahead.
    Mr. Hultgren. Mr. Brooks? Thank you.
    Dr. Gutmann. Thank you. I think these are very important 
questions, and the National Science Foundation I assure you 
recognizes the financial challenges, the fiscal challenges that 
the U.S. Government faces. It is--I think it is fundamental, 
though, to say that we feel very strongly, and I feel very 
strongly that basic science in the social and behavioral 
sciences meets the definition and economics of a public good. 
There aren't rivals for it. It is not excludable to use the 
formal definitions, and the basic science we support is really 
critical to develop over the long term.
    We recognize that we are going to have to make choices, and 
we believe that our combination of inter-agency discussions, 
leadership discussions with NSF, and the peer review process 
give us an opportunity where we are going to have to make some 
priority decisions, to make good priority decisions in the ways 
that Dr. Elfenbein and Dr. Wood discussed that drive us towards 
fundamental understandings.
    Mr. Hultgren. Thank you. I yield back.
    Chairman Brooks. Thank you. My opportunity now to ask 
questions.
    And I know I might be beating a dead horse to some degree, 
but I do want to emphasize the precarious situation that the 
Federal Government's finances are in. Our presenter, Ms. 
Furchtgott-Roth, being an economist probably has the best 
understanding of anyone in this room, but on the chance that it 
might be beneficial, 58 percent. That is how much we have 
revenue for out of every dollar that we spend. The other 42 
cents, give or take a penny or two, is borrowed money.
    We are looking at a debt ceiling issue short term. If that 
is not raised and if the Secretary of Treasurer's estimate if 
correct that we run out of credit on August the 2nd, then all 
of the sudden we are having to operate the Federal Government 
on 58 cents of every dollar, if that results in across-the-
board cuts, and I don't think that it will, but if it did, that 
would be--everyone is having to absorb 42 cents or 42 percent 
cuts like that.
    Long term we are risking a Federal Government bankruptcy or 
insolvency if we continue with this string of unsustainable 
budget deficits as Admiral Mullen, a former chairman of the 
Joint Chiefs of Staff, testified earlier this year to the Armed 
Services Committee, America's greatest threat is our national 
debt, not Al-Queda, not the Taliban, not any number of nations 
you want to name.
    In that context we as a Committee, we are going to have to 
prioritize. Now, within Congress you have got a lot of 
different attitudes and approaches on how to handle this 
financial situation. You have got some who want to say grow the 
economy. Well, everybody wants to do that. But then you have 
got a group that wants to focus primarily on spending cuts. You 
have got another group that wants to focus primarily on tax 
increases. You have got another group that wants to have a 
hodge podge of spending cuts or tax increases. You have got 
another group that just wishes it would go away and doesn't 
want to deal with the problem.
    And I think you have got a little bit of each in the United 
States Congress in different amounts, and so we are going to be 
charged with, worse case scenario, is trying to prioritize, and 
we understand how each of you have done a good job of 
justifying your own field, but this is for each of you to 
answer probably to a lesser degree than Dr. Wood because his 
remarks focused on prioritization.
    But if we are forced to prioritize and if we are forced to 
reduce spending 42 percent and assuming we are not going to do 
it across the board, that there is going to be some agencies 
that don't do as well as others do, but within the NSF 
framework, how would you all prioritize cutting 42 percent of 
what we are now spending?
    You know, if the debt ceiling is not raised and we don't 
have the credit, if our credit--if the debt ceiling is raised 
and our creditors just decide they don't want to loan us 
anymore money, we have to limit our spending to that 58 cents 
on the dollar because that is all the money we have to spend.
    So each of you if you would volunteer how you would 
prioritize within the NSF framework what ought to be cut, and 
if you recommend across the board, if you just want to do 
across the board, I understand that. Say everybody gets reduced 
42 percent if that is the framework you believe, or if you 
believe you want to prioritize, what are your criteria?
    Ms. Furchtgott-Roth, how would you guide us?
    Ms. Furchtgott-Roth. Well, in times like this when we have 
a fiscal crisis, the role of the government is to have a safety 
net for the most vulnerable and to protect our country in terms 
of national defense. We have researchers who are definitely not 
the most vulnerable among us. We are giving money to Ph.D.s, 
many foreign, many who cannot get visas and then go home 
afterwards, and I don't think that this should be a priority. 
Any SBE funding should be a priority for Congress.
    I would say if you have to prioritize you should only 
support projects that create new data that is made publicly 
available within five years and only pay for data entry by 
research assistants. Don't pay for faculty compensation, don't 
pay for computer hardware or software.
    Chairman Brooks. Thank you. Dr. Elfenbein.
    Dr. Elfenbein. I would yield my time to Dr. Gutmann.
    Chairman Brooks. Dr. Gutmann.
    Dr. Gutmann. I don't--I have a hard time dealing with 
hypotheticals, Mr. Brooks. I apologize, so I think I am going 
to defer on this one. I really don't----
    Chairman Brooks. Well, it is not a hypothetical, Dr. 
Gutmann. We are going to face spending cuts. Now, the 
question--it might not be 42 percent, it might be 10, 20, 30 
percent, but it is not a hypothetical. It will happen, and I 
think, Ms. Furchtgott-Roth, do you think it is going to happen 
that there will be spending cuts?
    Ms. Furchtgott-Roth. Well, I very much hope for the sake of 
the United States that we don't become like Greece. There will 
be spending cuts, and you should consider zeroing out the whole 
of the SBE NSF budget in favor of other kinds of----
    Chairman Brooks. Yes. I am really disappointed if you are 
going to claim that this is a hypothetical. The exact number 
may be hypothetical, it might be 45 percent or 40 percent or 35 
percent, but if you--and I also have a degree in economics. It 
is an absolute certainty that there will be spending cuts. It 
will either be voluntary, or it will be forced upon us by the 
economic circumstances that we face as a Nation.
    And maybe you are right, and maybe I am wrong, and I hope 
you are right, and there aren't spending cuts, that it is a 
hypothetical, but don't you think we need to plan for that 
possibility so that we can have some foresight, some thought 
given into it, and thereby make wiser decisions instead of it 
being forced upon us where we have to make snap judgments.
    Dr. Gutmann. So obviously I am in favor of planning, sir, 
and I understand your point. I think that NSF has a good record 
of using our merit review process to identify the most 
important basic science that needs to--that is available to us 
to be done that presents itself. And I suspect that I know that 
our first goals will be to protect those things that we do that 
are in the broad service of the government. For example, our 
statistical activities but also that will use the merit review 
process to ensure that the most meritorious, whatever our 
budget is, the most meritorious projects in basic science are 
supported.
    Chairman Brooks. Well, are you suggesting then that we 
should have across the board cuts and that if 42 percent 
happens to be the magical number, that we should do that for 
NSF and let NSF decide within its own hierarchy how to allocate 
that, or should we as policymakers be involved in that 
decision?
    Dr. Gutmann. I think you have as policymakers have a 
responsibility to help to make--to help us make wise decisions 
about government expenditure, and I think--obviously I am here 
to represent the strong need for the social and behavioral 
sciences to be supported in NSF. We are the smallest of the 
directorates, and we obviously have important research which I 
and others have described to you that needs to be done, that 
must be done, and it must be sustained over the long term, I 
mean, because if we don't do that, it is a form of eating our 
seed corn. There is some of this research that is really going 
to carry us forward.
    Chairman Brooks. Dr. Elfenbein or Dr. Wood, would you all 
like to add anything before I recognize Mr. Sarbanes?
    Dr. Wood. I would like to add something to that. I would 
not favor across-the-board cuts. I would favor zeroing out 
particular parts of the NSF budget if that is what it came to. 
Not that this would be eliminating just bad work. There is good 
work that would be cut, but I think sustainability is mainly an 
ideology in this country and not a scientific enterprise. It is 
questionable as a scientific enterprise, and that should be 
cut.
    Economics as my colleague has been saying is a field in 
which almost all basic research can be done with funding from 
alternate sources. The dissertation support is not a major part 
of the NSF budget, but it is almost endlessly deferrable. If 
you are a graduate student finishing a dissertation, you can 
get a job and work on your dissertation. That is how I did 
mine.
    There are parts of this program that selectively fund 
programs for women and minorities. That really has no 
justification in basic science. That is a politicization of the 
NSF.
    And finally, the use of NSF funds for these Rapid Grants is 
almost always a mistake. There is not basic science being done 
under that provision. That is rushing in to fill in political 
stop gaps, and that could probably be cut with no damage to the 
basic enterprise.
    Chairman Brooks. Dr. Elfenbein, did you want to----
    Dr. Elfenbein. I would look to the peer review system to 
help identify specific grants rather than have external review, 
and I would take issue with the idea that we could look at 
areas within the NSF based on whether there were outside 
funding agencies that would fund them.
    The NSF is the source for basic research funding. We cannot 
count on corporations to fund anything that doesn't have 
immediate clear commercialization as an impact, and what we 
care about in basic research is for everybody to have access, 
and for us to take whole areas and say that because other, 
commercial interests may find these areas of interest, that we 
should leave funding to those commercial interests, risks 
having our basic research be not available for other scientists 
to use as a basis.
    So I would not cut NSF funding on an area-by-area basis in 
terms of whether there are other sources, other commercial 
interests, whether they be companies or foundations.
    Thank you.
    Chairman Brooks. All right. Thank you. Next I am going to 
recognize Mr. Sarbanes, but before I do I am going to make this 
one note.
    If anyone wants to engage in a second round of questions, 
they will certainly have that opportunity.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. Thank you 
all for being here and for your testimony.
    Dr. Elfenbein, I am glad you made that last point because I 
was actually going to ask a question to that effect in terms of 
the NSF's role in conducting basic research and the notion that 
that cannot be replaced by other entities or funding sources 
out there, however much they might be interested in doing this 
kind of work.
    They may, you know, they may be focused on a different 
agenda or set of objectives, and you would leave by the side of 
the road some important research that needs to be done.
    I wanted to ask both you and Dr. Gutmann along those lines 
to speak to the role that these--this basic research can play 
in sort of leveraging broader attention to the subjects that 
are being researched.
    So speak to that kind of foundational role that is played, 
the leveraging dimension of it. I think you, Dr. Elfenbein, 
alluded to this notion that if you rely solely on outside 
groups, many of whom are going to be commercially driven and 
that is fair, that the horizons that they are looking at are 
shorter and that what the NSF funding can assure is that you 
are getting a broader perspective and a longer horizon, and 
sometimes that is the most critical thing you can have to think 
we stumble on the right kinds of discoveries going forward.
    So if you could speak a little bit more into that, I would 
appreciate it.
    Dr. Elfenbein. Thank you for the question, and I do believe 
that that sciences, all of the sciences including the life 
sciences and the physical sciences, leverage the basic research 
done across fields particularly in the social and behavioral 
areas, and one example I would use is medicine because 
ultimately any kind of medical treatment involves the 
compliance of the patient to be a part of that treatment, and 
so we see physicians looking to behavioral research.
    And in my case another example is the importance of 
understanding the fundamental science of emotions in order to 
understand emotional disorders, and this is an area of 
particular importance now that mental illness is being 
recognized for healthcare coverage at the same level as 
conventional medical illness. There is now a need more than 
ever to have cost effectiveness in the treatment of mental 
illness.
    Thank you.
    Dr. Gutmann. So I will only add a few words. Thank you very 
much for that question.
    One way to look at the investments that we make in science 
is to think about them in a very direct way about you get money 
back or jobs back, and very often the investment by businesses 
and research, which has been substantial in the history of the 
United States, is really directed mostly towards that, but a 
lot of what we support basic science research in the National 
Science Foundation for has a value that is non-monetary. Dr. 
Elfenbein's work on recognition of emotions has a non-monetary 
value even as it has been converted to practical use by the 
military.
    We have done a lot of--we supported a lot of work that has 
been very successful on detecting deception. A lot of that has 
to do with how interrogations, criminal interrogations and 
other interrogations are done, and those have value to society 
that are broader and longer term. The kidney matching examples 
that I talked about. Those are healthcare examples that come 
from basic science research.
    Work that we have been supporting recently and using a 
Rapid Award for it was a research project done last year that 
did experiments with trying to--using modern technology to see, 
to understand the transmission of the H1N1 virus when it was 
just happening. These are exactly things that we are using. 
What they were using was contact, understanding how ideas and 
physical presence converge to understand how something as 
important as an epidemic is transformed.
    So there is a lot of ways that it happens. It takes a long 
time, and even if there is financial value, it might be far in 
the future, but very often it has societal value that goes to 
health or security or justice.
    Mr. Sarbanes. I appreciate that answer, and I have just 
five seconds left here, but also Dr. Elfenbein, I appreciate 
your alluding to the issue of mental health, and it would be a 
shame if at a point in time I think when the society is finally 
turning and embracing, you know, how do we address issues of 
mental health, that we started to pull away from some of the 
basic research that can help us in that area as well.
    And I apologize for mispronouncing your name earlier, Dr. 
Elfenbein.
    I yield back my time. Thanks.
    Chairman Brooks. Thank you, Mr. Sarbanes.
    Does anyone wish to engage in a second round of questions?
    Mr. Lipinski. Mr. Chairman.
    Chairman Brooks. The Chairman recognizes Minority Leader, 
Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    Chairman Brooks. Excuse me. Ranking Member.
    Mr. Lipinski. I was just going to let that one go.
    A couple of quick questions for Dr. Gutmann just so that we 
understand a little better some of the things that NSF does. 
First of all, the grants are I presume awarded for, generally 
for new data to be compiled, and is this data, is there a 
requirement that it is made publicly available?
    Dr. Gutmann. NSF policy requires that all data be shared. 
There are limitations on that that have to do with questions of 
privacy, confidentiality, and security, but NSF policy requires 
that all data be shared. As of earlier this year NSF policy has 
shifted a little bit in order to require in addition to the 
data sharing that every proposal we receive includes a two-page 
data management plan that shows how the researcher is going to 
manage their data and how they are going to make them available 
to other researchers.
    Mr. Lipinski. I think that is a very good addition there 
having done research myself, and I think it is good to have a 
plan beforehand about how it is going to be made available.
    The other thing I just wanted you to clarify, you said 
there aren't that many of these grants done in the RAPID 
fashion, but why are they done, why are a few done that way?
    Dr. Gutmann. We make a few of those awards every year. 
Again, this is an area where we don't--it is not our strategy 
to make very many. There were, I think, 23 or 24 of them in the 
fiscal year that ended last September 30, but our goal is to 
understand that there are times when you have to gather data 
quickly, gather information quickly.
    Most of those tend to be when there is a physical 
emergency, for example, the Deep Water Horizon spill, and we 
needed--researchers wanted to get out and talk to people in 
communities while the memory was fresh about what was happening 
to them. And those are things that you can't do otherwise, and, 
again, I just want to remind you how few of these there are. 
They are not very big awards, and we don't make very many of 
them, and we are extremely careful about how we make them.
    There is a special set of documents that are required in 
the process when we submit our recommendation, when program 
officers submit a recommendation to management of NSF, both 
inside the directorate and outside within NSF, a special set of 
documents that are required that document the timeliness of the 
award. It is really about timeliness.
    So we are very careful, and we make them only when there is 
a very pressing need, and this arose out of requests from 
Congress and others that we have the capacity to respond to 
emergencies.
    Mr. Lipinski. Thank you. In my last two minutes I can do my 
Dr. Ehlers' impersonation of when I was Chair of this Committee 
last time, and Dr. Ehlers sat in this chair. I will not be 
nearly as wise as Dr. Ehlers, but he would like to sometimes 
end by imparting some wisdom from his experience. I think 
listening to all the witnesses, I think we can all agree, first 
of all, that these are very difficult budget situations that we 
are in, and that we not be funding specific agenda driven, 
whether it is political agenda, whatever, other agenda. That 
kind of research, that is not the role of the NSF.
    But what we do is we have the NSF so that we have what we 
hopefully believe is objective research being done. Now we 
could all debate on, you know, each individual grant on some of 
those things I am sure, but that is the idea there, and I know 
that in--I brought up before about some of my background, my 
Master's degree. I got an engineering economic systems at 
Stanford. It is now management sciences and engineering.
    And what I was looking at at the time and a lot of others 
in the program were looking at was to be business consultants. 
So we studied economics, and then some mathematical ways of 
helping make decisions, optimization. So it was sort of a 
highly-technical business degree in some ways.
    We also looked at this--how people make decisions, decision 
analysis to help businesses make decisions. And so one of the 
things that I did, many of us did was went to the psychology 
department, took a class with Amos Tversky, who is a famous 
psychologist, so that we could better understand how people 
make decisions and mistakes that people make in what they are 
thinking. I remember a paper that he did about the hot hand and 
basketball players don't really know if--although I don't know 
if I--still don't know if I agree with that, but that is all 
part of helping to make better decisions, and it should help us 
to better understand.
    We want to know the policies that we put in place also, how 
are people going to react to that, and that takes better 
understanding of human behavior, and it is best to have as much 
of an objective view of that as possible, and I think that is 
where the NSF comes in, and there is a lot of great research 
done by other organizations.
    But some of that is agenda driven. Much of that is agenda 
driven, and that is what we are trying to get away from with 
the NSF, and I think NSF has done a very good job with that, 
and it doesn't mean that there aren't issues that do come up, 
but I think NSF has done a good job of dealing with a lot of 
those.
    But as I said before, I think it is our role here and I 
know the Chairman agrees with this, to take a look at this, and 
so I thank the Chairman for this hearing.
    I yield back.
    Chairman Brooks. Thank you, Mr. Lipinski.
    Any other Member--well, I see there is only one now. Mr. 
Clarke, do you want a second round?
    Mr. Clarke. Yes.
    Chairman Brooks. All right. The Chair recognizes Mr. 
Clarke.
    Mr. Clarke. Thank you, Mr. Chair.
    I have a statement, and I welcome any comments on this. A 
couple days ago I happened to meet with the CEO of Ford Motor 
Company, and the reason why I mention this is because the auto 
industry is ruthlessly competitive, and Mr. Mulally shared with 
other freshmen members of Congress how he was able to--he and 
his management team was able to turn Ford Motor Company around.
    You know, the bottom line is very different in a corporate 
company. You know, here in this country as the other side likes 
to underscore, we can borrow money to spend money than we 
receive in revenues. However, Ford did a couple things. They 
dramatically reduced their costs by streamlining their 
operations, but also and to paraphrase Mr. Mulally, Ford could 
not succeed by cutting alone. At the same time they heavily 
invested in safety engineering, in fuel efficiency.
    When it comes to the federal budget, we know why we are 
spending too much money. We know what the main driver of our 
deficit it, and I will tell you one thing, it is not SBE 
research. It is healthcare costs because of demographics, 
because of the increase in rise of the rate of--the cost of 
medical technology, because we don't coordinate care, 
especially when we are treating those who are chronically ill.
    Essentially it is this. It is because our healthcare system 
really is a system of disease management, and it doesn't 
promote wellness. Your research into healthcare will help 
transform the incentives right now that we are using to 
compensate health providers. What you are doing is actually 
helping us bring down our debt and deficit, and I wanted to 
underscore that fact.
    And I welcome any of you who disagree with this, but, you 
know, the bottom line point is this. I know Subcommittee Chair 
and the Chair, they talked about their academic backgrounds. 
Let me tell you about mine. I am trained as a visual artist, as 
a painter. I have a Bachelor of Fine Arts degree in painting. 
It may not lend me to an obvious understanding and appreciation 
of your line of work, but I will tell you what does.
    I am a son of a man who risked everything to come to this 
country. He was an immigrant just like many of your ancestors. 
He came here willingly, though. My mother's people, they were 
brought here against their will from Africa, but needless to 
say, this country is extraordinary, and it is not because we do 
things on the cheap. It is because we recognize the value of 
contributions from diverse sources from around the world, and 
we give them in the preamble of our Declaration of Independence 
the God-given right to liberty, to be able to express our 
views.
    Now, we are not the unchallenged superpower of the world. 
China is right there. They understand the value of investing in 
research, and they are doing that heavily. But here is 
something what we do have different as a democracy. Because we 
value liberty and we value individual freedom, your work, our 
funding of your work is absolutely essential. We have got to 
promote the intellectual capacity and growth of this country. 
That is why we are great. We can't cut back right now. We have 
got to do more of that. We have got these countries all around 
the world who are competing, but we are the only one in my 
opinion that has a true vibrant democracy.
    I just don't want you to feel apologetic for asking for 
funding. You are helping to ensure the American dream.
    I welcome any comments.
    Ms. Furchtgott-Roth. Well, as an immigrant myself I would 
say this is my, well, adopted country. I am an immigrant 
myself. I received my citizenship in 1987, and I say this is a 
wonderful country. This is the land of promise, but it is not 
because of government spending. It is because of the 
opportunities individuals have.
    And I have been very fortunate to get grants for my 
research from the Kauffman Foundation, the Pew Foundation, the 
Bill and Melinda Gates Foundation, the Ford Foundation in my 
field, economics. It is not just corporations that fund 
research. There is federal reserve banks, there is foundations, 
and I would--there are, I think, better uses for government 
funds than the funding of SBE research, which isn't to say that 
it is not good research. It is great research, it is objective, 
but just because, for example, a Cadillac is a good product, it 
doesn't mean the Federal Government should be buying Cadillacs 
for everybody.
    It is a question of what is the role of the government and 
what is the role of the private sector.
    Chairman Brooks. The gentleman's time has expired, but if 
he would like an extra amount of time to respond, that would be 
fine. Otherwise, we will move to Mr. Tonko.
    Mr. Clarke. Well, you know, I just want to say, I mean, 
throughout our history we have supported private enterprise in 
terms of even though we were the first in flight when France 
looked like that they were going to really take over the 
airplane industry, we helped, you know, subsidize airmail 
routes. The semiconductor industry was because of the military 
support of that industry that we have been able to grow and 
innovate.
    No, I make no apologies. Look, we are great because we 
bring our tax dollars together to support our people, to 
support our intellectual capacity. We shouldn't shirk that 
responsibility, and we shouldn't be ashamed of that. That is 
what has made this country strong.
    Look, I understand we have the right to disagree on this 
issue. This is the taxpayers' money. When we leverage it right, 
when we are efficient, we can actually make a difference in the 
world, and that is what you are doing every day. I just don't 
want us to leave this Committee meeting with the role that the 
only way that America can make it is that we have to do it on 
the cheap. We have to cut, cut, cut.
    No. Government has a vital role in our society, and you 
know, Mr. Chair, I think I really said enough here. These 
people are doing outstanding research. Their research is not 
the cause of our debt and deficit. Actually, it is going to 
help bring down our overspending in healthcare and help better 
secure our people here in terms of our national security, 
goals, and interests.
    Chairman Brooks. Mr. Clarke, thank you for your passionate 
remarks.
    The Chair next recognizes Mr. Tonko. I don't know if you 
are familiar with where we are. We are on our second round, but 
it is all yours.
    Mr. Tonko. Thank you, Mr. Chair, and I apologize for 
joining you late in progress, but it is one of those days of 
many conflicts going.
    To our panelists, thank you for presenting this morning. 
Let me share with you a thought. I worry that political attacks 
on scientific research sends a chilling message to young, 
aspiring scientists. As an engineer there was a lot of 
encouragement in my day and age when I was in high school to 
look at engineering and science because of the global race on 
space.
    But lately there are some chilling messages that impact 
young, aspiring scientists, I believe, including some of the 
potentially best and brightest, for example, those who 
developed the Spectrum Auction Methodology or Geographic 
Information Systems.
    Just your thoughts on that. Do you share that type of 
concern, or do you think that is--we are moving along quite 
well? Dr. Gutmann.
    Dr. Gutmann. So I will just say a word or two and then 
perhaps see if Dr. Elfenbein wants to contribute something 
since she is at the moment closer to the community, in the 
research community than I am right now.
    I think that there is always in my--I have been getting 
grants, I came out, I am still a university faculty member, I 
am on leave and assigned to the University, the NSF. I have 
been getting grants for, you know, for 30 years now, and my 
experience as a researcher is that my colleagues take very 
seriously the message that they get from funding agencies and 
from the public officials more broadly, and that the pace of 
entry into scientific fields and the level at which people try 
to dream up new ideas is definitely responsive to the public 
messages that people get.
    And so I would be concerned about that. I think we see a 
flow when there is encouragement, we see a flow of more 
proposals, we see a flow of more ideas, people are dreaming up 
new things, and what we see is especially the notion in the 
support we have for our youngest scholars, which is where in my 
view as an older guy, the real future lies, we really want to--
it often isn't very expensive to make those small awards that 
we make to support dissertations, our famous career awards or 
graduate research fellowships as I think Mr. Lipinski was a 
recipient of in the beginning of his career.
    It doesn't take very much to do that, but we send a message 
by doing those things that encourages people to have the kind 
of big ideas that down the road lead to important contributions 
to our society.
    Mr. Tonko. Uh-huh. Dr. Elfenbein.
    Dr. Elfenbein. Thank you. I do feel our funding priorities 
send clear messages to young people who are considering careers 
in science. I finished my undergraduate degrees in physics and 
Sanskrit actually at the time that the super conductor, super 
collider project was cancelled and saw many classmates rip up 
their Ph.D. applications in physics.
    Now, clearly priorities change, and we can't help those 
changing priorities, but I think what is especially chilling is 
when we send a message to scientists that there can be 
political review of their work because I think that leads to 
censorship, and in my own case the idea that I was doing work 
that the military had taken an interest in and that it was 
singled out as potentially worthy of being de-funded because of 
some kind of view from the outside that didn't take into 
consideration the works potential relevance I think was 
chilling and is chilling to those who seek federal funding.
    And I think there is----
    Mr. Tonko. Was that--let me just interrupt you. Was that in 
the 2007 action----
    Dr. Elfenbein. It was.
    Mr. Tonko. --on the Floor with the amendment?
    Dr. Elfenbein. It was.
    Mr. Tonko. What was the lesson learned coming out of that 
experience?
    Dr. Elfenbein. Well, for me the lesson learned I think was 
to pay a lot more attention to the titles of grants. I think 
that the lesson learned I think for the member who made that 
proposal was maybe read the abstract as well. I would have to 
defer to him. I think, though, actually, for me the lesson 
along the lines of titles is that I think that scientists do 
need to learn how to communicate more clearly to the public and 
to the taxpayers who fund our work and to express not only our 
gratefulness but to help them to see the work, and we know our 
work, and we I think need to learn how to take a perspective of 
looking at it as if from the outside to understand how it is 
seem from the outside so that we can explain it from the inside 
out.
    But I think it is a particular, it is particularly chilling 
to me if we are sending messages about the value of science, 
the value of research because I see our university, our basic 
research based university system as one of the jewels of the 
United States. We enjoy a lot of prosperity that is hard to put 
into dollar terms because the best from all over the world want 
to come and be a part of our university system.
    You can look at how many world leaders have U.S. university 
degrees, how many world leaders send their children, how many 
people send their children, send the best people in their 
communities to the U.S. for degrees, and it is because of our 
university system, but it has not only financial impact, it has 
a huge diplomatic benefit to us as we think about the 
relationships we have with countries all over the world that 
have this cultural connection to the U.S. through our 
university system.
    Mr. Tonko. Uh-huh. Thank you.
    Ms. Furchtgott-Roth. And the subject of the hearing was 
funding in the social and behavioral sciences, and that is what 
my testimony is about. If it were the physical and life 
sciences, my testimony would be very different. I think we need 
such funding to keep it competitive.
    I would also say that this funding should go to either U.S. 
citizens or people who intend to stay here. We shouldn't be 
funding as we are now even physical degrees in the physics and 
life sciences for people who then go abroad and go back to 
their countries and compete against us. But we definitely do 
need more funding in the physical and life sciences.
    Mr. Tonko. Thank you, Mr. Chair.
    Chairman Brooks. Thank you, Mr. Tonko.
    I would like to thank Dr. Gutmann, Dr. Elfenbein, Dr. Wood, 
and Ms. Furchtgott-Roth for your testimony today and the 
Members for their questions.
    The Members of the Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. The record will remain open for two weeks for 
additional comments from the Members.
    The witnesses are excused, and this hearing is adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Myron Gutmann, Assistant Director, Directorate for 
        Social,

Behavioral, and Economics Sciences, National Science Foundation

Questions submitted by Chairman Mo Brooks

Q1.  The 2009 NSTC Report, Social, Behavioral, and Economic Research in 
the Federal Context, noted that not all social, behavioral, or economic 
sciences ``require or are even appropriate for government support.'' 
Please identify which of the sciences, in your opinion, do not require 
or are even appropriate for government support, and which of these 
sciences NSF does not provide funding for?

A1. The 2009 NSTC report addressed social, behavioral, and economic 
research in the Federal context, that is to say, SBE research that is 
conducted throughout all of the federal agencies, which differ in their 
mission and in the mechanisms they employ for sponsoring research or 
conducting it themselves, either internally or through contract 
vehicles. This phrase is part of the first sentence of the second 
paragraph of the introduction to Chapter II of this report, ``Federal 
Context.'' The passage reads, in full, as follows:

   It may be noted that not all the SBE sciences require or are even 
appropriate for government support. For example, consumer behavior and 
the successes and failure of commercial marketing campaign are major 
targets of SBE research but are well funded through industry support. 
What, then, is the role of the Federal Government in support of the 
human sciences? What does and should it support and what are the 
potential benefits of this support to citizens and institutions?

   ``There are human dimensions of every policy matter, and today's 
societal challenges demand that Federal agencies utilize the human 
sciences for insights to achieve their missions efficiently and 
effectively.''

 NSF's mission is to promote transformative fundamental science on 
behalf of the American people. NSF/SBE's goal at the directorate level 
is to examine fundamental aspects of human behavior at multiple levels, 
scales, and contexts. NSF/SBE supports a broad range of high-quality 
fundamental research, and the results can have practical implications. 
Unlike the market research supported by industry, targeted toward 
specific results for specific products or companies, the research 
funded by NSF/SBE and other Federal agencies leads to publicly 
available results that can be used by many sectors of society. In my 
response to Ranking Member Lipinski's question, I also provide examples 
of areas in which NSF supports fundamental research but does not 
support applied and translational research, because other Federal 
agencies support the applied and translational research to translate 
NSF-supported fundamental knowledge to agency-relevant mission 
capabilities.

A2. The FY 12 SBE budget for the Science, Engineering, and Education 
for Sustainability (SEES) portfolio is $57 million, a 174 percent 
increase over last year and nearly a quarter of the entire SBE budget 
request. What is the national urgency and transformational qualities of 
this additionally needed work, and who determined this research to be a 
priority? If this research is so critical to our nation, why isn't the 
Department of Energy Funding? You mention SBE research on functional 
magnetic resonance imaging research that may help with autism, matching 
markets and kidney transplants, and ``understanding regional conflicts 
and local cultural values'' in the context of national security, to 
name a few. What happens to this type of research if SBE is not funded 
at the FY 12 request? Will they suffer so that SEES can remain a 
priority?

 Science, Engineering, and Education for Sustainability (SEES) is a 
Foundation-wide effort to undertake fundamental research addressing our 
advancement toward reliable and sustainable energy resources that will 
not degrade essential ecosystems and environmental services, will not 
lead to unacceptable social or economic consequences, and will prepare 
society to adopt them responsibly. Thus, the SBE sciences are knit into 
understanding reliable and sustainable energy uses. Precisely because 
energy and environmental issues require an integrated understanding, 
NSF/SBE, which is unique in its portfolio covering basic research 
across all of the SBE sciences, plays an essential and coordinative 
role. We note further that DOE's basic research portfolio does not 
include the SBE sciences, making NSF/SBE's role an important one. 
Consequently, slightly less than $57 million has been requested in FY 
2012 to build new infrastructure in the directorate's research 
divisions and Office of Multidisciplinary Activities (SMA) and to 
support relevant research in SMA and through the standing programs in 
Social and Economic Sciences (SES) and Behavioral and Cognitive 
Sciences (BCS). It is important to note that the 2009 NSTC Report, 
Social, Behavioral, and Economic Research in the Federal Context that 
was referenced in the first question lists ``Energy, Environment and 
Human Dynamics'' as one of six priority areas for increased emphasis 
due to its importance in addressing society's fundamental challenges.

 The eventual balance between activities undertaken within the 
framework of SEES and the rest of SBE's portfolio will be achieved in 
accordance with funding levels in 2012 appropriations and priorities 
set by the Congress and the Administration. We expect that future 
decisions on funding allocations with NSF and SBE will also reflect the 
advice we obtain from the National Science Board and our own science 
advisory committees. Actual awards will be made through the merit 
review process.

Q3.  RAPID grants are not peer reviewed grants, but grant decisions NSF 
staff can make in order to get needed funding to the field more 
quickly, usually when time not allow for peer-review like in the case 
of a natural disaster. You mention several in your testimony related to 
Katrina, Chile and the oil spill in the Gulf. The ability to use these 
grants when urgency is of essence is useful and important. However, 
there are several other active grants that seem questionable on the 
surface as being of national importance and urgency. Could you please 
explain why the federal government should be spending $197,000 on 
``Bridging the Gap: Musical Training and Literacy in Underserved 
Adolescents,'' $215,000 on ``Affective and Deliberative Processes 
Motivating Charitable Decisions,'' $200,000 on ``Documenting the 
Mechanisms of Belief and Attitude Change on Controversial Issues: The 
case of Global Warming and Trust in Scientists,'' or $89,000 on ``What 
Makes Lay/Expert Scientific Collaborations Succeed'' on non-peer-
reviewed research? Why were those deemed timely and urgent, and who 
made the decision to approve and fund them without the merit-review 
process?

A3. RAPIDs are subject to rigorous internal scrutiny and review by the 
appropriate program officers and require approvals by the cognizant 
division directors as well as by other units within the Foundation 
(e.g., DGA). A statement of need, documenting the time-criticality of 
the request, is required to justify any award made. The research may be 
urgent because of the need for, availability of, or access to, data, 
facilities, and specialized equipment, including quick-response 
research to natural or human disasters and unanticipated events. These 
substantive and procedural requirements were met in each of cases 
mentioned in the request:
    (1)  Bridging the Gap: Musical Training and Literacy in Underserved 
Adolescents (Award No. 1015615)
   Prior research in neurocognitive functioning, speech, language, and 
literacy abilities in youth suggests that musical training and literacy 
might be an avenue for remediation for students of low as well as high 
income socio-economic background. Conducting research in schools can be 
challenging, given the requirements of the academic year. As stated in 
the proposal (Section II), where the request for RAPID funding is 
explicitly justified, the investigators need to test the participating 
students within their first year of high school, and the cooperation of 
two schools in Chicago, who serve families of low socioeconomic status 
and who volunteered to participate in the work, offered an ``uncommon 
opportunity'' not only in access to students but also in the potential 
to support a full four years of longitudinal study if the work were 
launched early in the students' high school careers. Thus, funding to 
proceed with the research was time critical.
    (2)  Documenting the Mechanisms of Belief and Attitude Change on 
Controversial Issues (Award No. 1042938)
   This is a public opinion research study. Prior work had indicated 
that public opinion on political issues changes slowly; sudden shifts 
are rare and typically in response to a dramatic event. Public opinion 
on climate change, however, seems to defy that model, seeming to shift 
quite rapidly in about two years. The project seeks to examine both the 
apparent shift and the underlying theory through two new surveys, one 
of which would take place in the summer in order to gauge the extent to 
which experience of weather affects attitudes toward climate change. 
Thus, the data are necessarily time sensitive and ephemeral because the 
investigator needs to capture the information as quickly as possible 
after the weather event(s). Hence the criteria for a RAPID award were 
met and the justification fully documented both in the request for 
funding and the review analysis.
    (3)  What Makes Lay/Expert Scientific Collaborations Succeed 
(Awards No. 1049782 and No. 1049807)
   This is a collaborative award to two institutions (Tulane University 
and Washington State University) to study collaborations between laymen 
and experts among environmental scientists, social scientists, and a 
community of Vietnamese-American fishermen in Louisiana in response to 
the Gulf of Mexico oil disaster. The urgency of the research is 
justified in the proposal and documented in the review analysis: As the 
contaminants disperse, either into more protected Gulf wetlands or 
further inland, community impacts would be differentially experienced 
and existing hardships intensified, compelling residents to leave the 
area. Key sources of experiential knowledge would thus be lost and a 
rare opportunity to collect evanescent social and environmental data 
would be lost. The urgency arises from both the fragile and changing 
nature of the environmental effects together with the social and 
demographic responses, potentially resulting in depopulation and loss 
of the community.

 A question has also been raised about a fourth award, $215,000 for 
``Affective and Deliberative Processes Motivating Charitable 
Decisions'' (Award No. 1024808). The research mentioned in the question 
has not been funded as a RAPID award. The amount is the first year of a 
larger award, which was evaluated through the full merit review 
process. The proposal received thorough, full panel review, with seven 
expert reviewers from outside NSF. The fully-documented award was 
approved by the Program Director and the Division Director.

Q4.  In your testimony you state that ``These partnerships [with other 
NSF directorates]'' are critical to understanding science in its human 
context and to developing effective new technologies that will be used 
by Americans and will contribute to jobs and economic development.'' 
What is the role of industry in understanding science in its human 
context and developing new technologies? Is industry doing some of this 
work? Can and should they be doing more?

A4. We see little interest in industry in conducting basic research in 
the SBE sciences. Understandably and appropriately, their focus is on 
social, economic, and cultural issues surrounding aspects of their 
product development, market research, and public relations and 
communication. Moreover, their findings are typically proprietary. 
Absent transparency and peer reviewed publication in accepted 
professional outlets, their activities do not contribute to advancing 
scientific research broadly nor are their objectives necessarily 
directed toward addressing shared challenges in areas such as public 
safety, disaster response and mitigation, and law enforcement and 
national security. Thus, it is essential for the Federal government to 
sustain its leading role in basic research in the SBE sciences.

Q5.  NSF is essentially the only federal agency that historically does 
not receive earmarks. It prides itself on the merit-review process 
which, while not perfect, is currently the best we have. Given its 
imperfections and the reality that some less than stellar grants are 
funded in ALL scientific disciplines, how would you recommend that it 
be improved?

A5. The NSF merit review process lies at the heart of the agency's 
strategy for accomplishing its overall mission and vision. As such, NSF 
is continuously striving to maintain and improve the quality and 
transparency of the process. As is noted in the most recent annual 
Report to the National Science Board on NSF's Merit Review Process 
(http://www.nsf.gov/nsb/publications/2011/nsb1141.pdf), during FY 2010, 
NSF received and reviewed over 55,000 proposals. The vast majority of 
the proposals received at NSF (96%) are subject to both external peer 
review by members of the scientific community and internal merit review 
by NSF program officers. To ensure that they have substantive reviews 
from a variety of perspectives, the program officers reach out to a 
broad range of people for input-in FY 2010, over 46,000 external 
reviewers provided expert advice to the Foundation. The program 
officers (who are subject matter experts in their own right) synthesize 
all of the external advice in the context of the overall program 
portfolio when developing their award recommendations.

 Currently, the National Science Board is reviewing the two Merit 
Review Criteria that are used to evaluate every proposal that is 
submitted to the Foundation. As part of this process, NSF and the Board 
have reached out to a wide range of stakeholder groups for their input 
on the strengths and weaknesses of the criteria, and how they might be 
improved. Informed by the external input as well as data derived from 
reports of Committees of Visitors (external bodies who review all of 
NSF's programs for the integrity of the process) and an analysis of 
submitted proposals, the Task Force on Merit Review developed a 
proposed revision of the criteria. The NSB and NSF have invited comment 
from the NSF community (both internal and external) on the proposed 
revisions. NSF has already begun internal discussions on how best to 
implement revised criteria, which will include a robust plan for 
providing guidance to PIs, reviewers, and program officers on how to 
use the criteria during the review and decision-making processes.

Q6.  In this testimony, Dr. Wood mentioned an oversupply of SBE Ph.D.s 
in the labor force. Do you agree with his statement, and if so, why 
does NSF currently continue to financially support and encourage SBE 
graduate students? Wouldn't this be a good opportunity for savings, 
particularly in our current economy?

A6. The health and composition of the educational pipeline for future 
scientists is of profound importance to the competiveness of the nation 
and is of particular interest to the Foundation and its leadership. In 
keeping with its mission as a statistical research unit that provides 
neutral and reliable data for use by others and in support of the 
Foundation's role in maintaining a robust scientific research 
enterprise, the National Center for Science and Engineering Statistics 
(NCSES), which is housed within the SBE directorate, conducts two 
relevant surveys: (1) Survey of Earned Doctorates that provides the 
production of doctorates by field annually (http://www.nsf.gov/
statistics/doctorates/); and (2) Survey of Doctoral Recipients (http://
www.nsf.gov/statistics/doctoratework/) that provides data on career 
patterns. Preliminary analysis of the most recent (2009) Survey of 
Earned Doctorates (SED) suggests that the proportion of 2009 doctorate 
recipients with employment prospects in the coming year was about the 
same as reported in 2007, the year before the advent of the recession; 
the proportion of SBE doctorate recipients with definite employment 
commitments increased from 72.9 percent in 2008 to 73.5 percent in 2009 
(http://www.nsf.gov/statistics/infbrief/nsf11305/, Table 3). In 
general, unemployment among scientists and engineers with doctoral 
degrees in the SBE sciences remained slightly below the national 
average for all Ph.D. scientists in 2008, the year of the most recent 
data. That year, the unemployment rate among those who hold U.S. 
doctorates in social sciences was 1.3 percent; the unemployment rate 
across all fields of science, engineering, and health was 1.7 percent 
(http://www.nsf.gov/statistics/infbrief/nsf11308/, Table 1).

 Many factors enter into analyses of employment and career decisions 
and paths. Some of the issues relating to definitions and patterns of 
employment in higher education and in other sectors are laid out in 
Science and Engineering Indicators: 2010 (see especially sections of 
Chapter 3, Science and Engineering Labor Force, Scope of the S&E 
Workforce, http://www.nsf.gov/statistics/seind10/c3/c3s1.htm, and 
Employment Patterns, http://www.nsf.gov/statistics/seind10/c3/
c3s2.htm). Research supported by our Science of Science and Innovation 
Policy program suggests that there are strategies during graduate 
training to encourage future scientists to identify careers in industry 
as well as in higher education and advanced research. The directorate, 
through NCSES and the research divisions will, therefore, continue to 
support continued analysis of this important topic.

Q7.  You have mentioned the report being drafted by the NSF's Advisory 
Committee on Social, Behavioral, and Economic Sciences on the future 
areas of scientific development in SBE sciences. Can you tell us more 
about this report? Why is it being drafted? How are the future areas of 
scientific development being identified? I understand that it will not 
be released until the fall but can you tell us anything about what we 
can expect from the report?

A7. In June 2010, the NSF/SBE directorate launched a series of planning 
activities that have included contributions from the Program Officers 
and consultation with SBE researchers. As part of this effort, members 
of the SBE Advisory Committee decided to write a report based on their 
perspectives as senior scholars. This report would set forth the key 
research issues facing the SBE sciences over the next 10-to-20 years. 
It is an advisory report and is one source for establishing 
programmatic priorities. The structure of this collaborative document 
has undergone several iterations and the document is now anticipated 
for release later this year.

Questions Submitted by Ranking Member Daniel Lipinski

Q1.  During the June 2 hearing, some expressed concern about potential 
duplication of efforts across agencies, as well as about NSF 
encroaching on the purview of other agencies. For example, one Member 
expressed concern that NSF should not be funding social, behavioral, 
and economics (SBE) research that is known to have relevance our 
nation's energy challenge, because that should be the role of the 
Department of Energy (DOE) alone; one witness suggested that SBE 
research relevant to national security should be the responsibility of 
the Department of Defense (DOD) alone; and so on. Currently, DOE does 
not support any SBE research, but DOD does support some through the 
Army Research Institute.

  The current budget challenge compels us all to seek opportunities to 
reduce waste in government, including through reduction of duplication. 
How is NSF's support for SBE sciences unique from that of all other 
federal agencies? Why can't, or why don't mission agencies such as DOE 
and DOD assume responsibility for funding all SBE research relevant to 
their respective missions, from basic to applied? If they do currently 
support SBE research (or were to establish new programs in the SBE 
sciences), how is the research they support different from the research 
that NSF supports? In addition to any general responses to these 
questions, please provide specific responses to the examples of energy 
and national security discussed above.

A1. NSF is unique in that it supports research across all of the 
social, behavioral, and economic sciences, which allows the directorate 
to identify research that may not fall easily into a single, well-
defined program or discipline and to foster cross-fertilization of 
ideas within the directorate and across the Foundation. The work that 
we have sponsored in detecting deception is a case in point. There is a 
core body of research in the neurological, cognitive, and behavioral 
dimensions of deception, deceptive speech, and its detection. However, 
deceptive speech and behaviors occur among many different combinations 
of individuals and in many settings. For example, the conversation 
between a teacher and a student who may be trying to explain his or her 
behavior is quite different from the interview between a foreign 
service officer at a consulate and an applicant for visa, and both 
differ from the exchange between a TSA agent and a possibly suspicious 
airline passenger. Each of these applications requires substantial 
translational research that might enable the teacher, foreign service 
officer, or TSA agent to make a good decision, but that research rests 
on a shared core of basic research about deception that can be explored 
through controlled laboratory studies and other kinds of systematic 
scientific research.

 Over the past decade, the SBE Directorate has funded a host of studies 
that tested and developed basic social and cognitive psychological 
theories of human (interpersonal) deception. Such studies have also 
advanced our understanding of factors that distinguish liars and 
truthtellers across various social contexts. Relevant awards have been 
sponsored by a variety of programs, including Law and Social Sciences, 
Social Psychology, Cognitive Neuroscience, Developmental and Learning 
Sciences, Physical Anthropology, and Cultural Anthropology. Studies 
sponsored by these programs have examined the complexity of verbal and 
nonverbal behavior in dynamic interpersonal communications that involve 
deception, the role of social motivation and cognitions in 
discriminating lies and truths, and the neural bases of deception. This 
basic, theoretical research has been used by other mission agencies for 
translational and applied purposes--including the Department of 
Justice, the Department of Defense, the Department of Homeland 
Security, and the Intelligence Community. Examples of translational and 
applied research from such agencies would include the Screening of 
Passengers by Observation Techniques (SPOT) and Future Attribute 
Screening Technology (FAST) programs within the Department of Homeland 
Security, and related research supported by the National Center for 
Credibility Assessment within the Department of Defense.

 Thus the NSF's basic research programs allow the mission agencies to 
focus on their missions. Burdening them with developing the basic 
research could result in duplication, redundancy and possible waste. 
Indeed, NSF cooperates with other agencies precisely to foster the flow 
of information across agency boundaries. This rich history of NSF's 
funding the basic research that mission agencies rely upon for 
translational and applied research is a powerful tool for the nation 
and one that we will continue to rely upon to fuel the nation's engine 
of innovation.

 In the following list, we lay out some specific examples of 
cooperative work where NSF sponsored the basic research and the mission 
agencies provided translational research and feedback. We note further 
that DOE's basic research portfolio does not currently include the SBE 
sciences. However, we have cooperated with DOE and the final bullet 
summarizes our work with this and other agencies.

    1.  Basic Research in Forensic Science

 The National Science Foundation has a rich history of funding basic 
research that is relevant to the practice of forensic science. Such 
awards span a variety of disciplines, including biology, chemistry, 
cyberinfrastructure, engineering, statistics, and the social, 
behavioral, and economic sciences. This research generally seeks to 
provide a theoretical foundation for the development of forensic 
science methods, including (for the SBE Directorate) the influence of 
human perception, judgment, and decision-making in this context. This 
basic research would not be funded by mission agencies, such as the 
National Institute of Justice or the National Institute of Standards 
and Technology, though these agencies have relied upon basic research 
findings supported by the NSF in translational and applied research.

 Dr. Mark Weiss is currently co-chair of the Research, Development, 
Testing, and Evaluation Inter-Agency Working Group for the Subcommittee 
on Forensic Science (National Science and Technology Council), and Dr. 
Christian Meissner also participates as a member of the IWG. The IWG is 
charged with identifying the foundational science that underlies 
forensic science applications, and NSF staff have assisted in the 
identification of basic research that underlies forensic science.

 A recent Workshop supported by the Division of Behavioral and 
Cognitive Sciences (see Award No. 1048484) examined the potential role 
of cognitive/perceptual biases in the forensic evaluation process. This 
issue received much attention in a report published by the National 
Academies of Science entitled, Strengthening Forensic Science in the 
United States: A Path Forward. The workshop brought together basic 
researchers in perception, judgment, and decision-making to discuss the 
various psychological factors that may influence forensic pattern 
recognition. The workshop led to suggestions for basic research in this 
area that would address concerns raised by the National Academies 
report. This research, given its basic, theoretical focus, is unlikely 
to be supported by mission agencies within the federal government, 
though findings from such research would likely lead to the development 
of interventions and modifications to training that would be further 
assessed in translational or applied research contexts.

    2.  Theories of Spatial Pattern Detection, Geospatial Technologies, 
and Crime Mapping

 The SBE Directorate has supported basic research on theories of 
spatial pattern detection, as well as human interaction with geospatial 
technologies in the criminological and epidemiological contexts. For 
example, funded research has extended theories and methods of spatial 
pattern detection from the detection of prior events to the monitoring 
and detection of on-going events (see Award No. 9905900), as well as 
developed geospatial theories of crime that account for a variety of 
sociological and criminological factors (see Awards No. 0528232, No. 
9601764, No. 0080091). This basic, theoretical research has been used 
for translational and applied purposes by the National Institute of 
Justice's Geospatial Technology program, a program that seeks to 
translate geospatial technologies and research to aid various criminal 
justice agencies.

    3.  Social and Behavioral Dimensions of National Security, 
Conflict, and Cooperation (NSCC)

 This competition was the NSF side of the Minerva initiative in the 
Department of Defense. DoD provided NSF with funds ($8,000,000) and 
NSF/SBE ran a competition on topics that were of mutual interest. We 
understand that DoD was very pleased with our review process and our 
selection of proposals to support. There are two important differences 
between DoD funded research and that funded by NSF. First, NSF funds 
basic research while DoD funds research that tends to be tailored 
specifically to their mission. Our funded research, at times, provides 
the basis for their funded research. Second, the results of NSF-funded 
research is in the public domain. This is not always the case for the 
DoD. As such, researchers funded by NSF provide information that can be 
used to advance science. Work done for DoD, even in the social and 
behavioral sciences, is frequently classified. This means that other 
scientists are unable to use that work to advance our understanding of 
social and behavioral processes. While many of the NSCC projects are in 
their early stages and no results have been reported, there have been 
significant results in the areas of conflict over fresh water, the 
processes by which terrorist organizations develop, the fundamental 
nature of conflict, and the characteristics of authoritarian regimes. 
This basic research, supported in partnership with the Department of 
Defense, promises to produce promising outcomes for U.S. security 
interests.

    4.  Applications to energy usage and examples of cooperation with 
DOE.

 NSF/SBE funds research on basic behaviors and motivations, which can 
be applied to numerous areas of decision-making, including adopting new 
technologies (sustainable or otherwise), building human capital and 
subsequent labor market decisions, financial decision-making, and 
reactions to natural disasters, among others. In addition, NSF/SBE has 
established a cooperative relationship with DOE through DOE's work in 
integrated assessment modeling (IAM). The DOE program has inserted 
language in its IAM solicitation to encourage applicants to work with 
NSF's Decision Making Under Uncertainty (DMUU) centers and the urban 
Long-term Ecological Research (LTER) sites. In addition and in 
cooperation with NOAA, DOE and NSF have supported a National Academy 
workshop (Award No. 1003678, Support for a Workshop on Socioeconomic 
Scenarios for Climate Change Impact and Response Assessments).
Responses by Dr. Hillary Anger Elfenbein, Ph.D., Associate Professor,

Olin School of Business, Washington University in St. Louis

Questions submitted by Chairman Mo Brooks

Q1.  NSF is essentially the only federal agency that historically does 
not receive earmarks. It prides itself on the merit-review process 
which, while not perfect, is currently the best we have. Given its 
imperfections and the reality that some less than stellar grants are 
funded in ALL scientific disciplines, how would you recommend that it 
be improved?

A1. In responding to this question, I would like to highlight four 
guiding principles:

        1.  Peer review, not political review

        2.  Maintain cross-disciplinary reviews

        3.  Take a portfolio approach

        4.  Limit misunderstandings through researcher communication

1. Peer review, not political review

    Let me start by echoing strongly the sentiment in the question that 
the NSF's current merit-based review process, ``while not perfect, is 
currently the best we have.'' As I mentioned in my earlier written 
testimony, when thinking about peer review one is reminded of Winston 
Churchill's famous quote, ``Democracy is the worst form of government, 
except all the others that have been tried.''
    Like members of Congress, scientists are committed to democracy. 
The NSF's process is already deeply participatory-with literally tens 
of thousands of scientists providing reviews of grant proposals for the 
agency. Like any democracy, the output of the voting process doesn't 
always please everyone, but there is no viable option to democracy.
    The alternative-that is, the political review of science-is 
chilling, whether we consider it as a replacement or as a supplement to 
peer review.

    Political review is big government

    Moving from peer review to political review is chilling first 
because it represents the worst kind of big government intervention to 
have politicians and bureaucrats attempt to dictate from the top what 
constitutes good science. Specific research projects should be judged 
on their merits only by people qualified to understand them thoroughly.
    Otherwise, we run the risk of a politicized process fueled by 
ignorance of the underlying science. This is not merely speculation-as 
I discussed during my earlier testimony, in 2007 a member of Congress 
proposed rescinding my NSF grant at the same time that the Army took 
the initiative to declare this research valuable for the warfighter. We 
do not want a political review process that runs the risk of judging 
books by their cover-however well-intentioned the process.

    Political review makes us lose the very most talented and early-
stage scientists

    A second chilling aspect is that the political review of research 
would cause us to lose the most talented and creative scientific minds. 
The very most brilliant scientists choose to be paid literally a 
fraction of what they could earn in the private sector--and they make 
this unusual choice for their love of intellectual freedom. Robbing 
them of this freedom through a politicized scientific process would 
hurt the U.S. economy. The most creative and curious scientific minds 
are particularly chilled by big government constraints on their work, 
and they are the most likely to respond to the loss of freedom by 
`voting with their feet'--that is, taking higher--paying jobs on Wall 
Street and elsewhere. Losing these scientists is a loss for society. It 
is the best people who typically have the best options outside of 
academic employment. Political review also sends a particularly 
chilling message to early-stage scientists, who are young enough to 
have their career alternatives salient and open to them. However, these 
early-career scientists are often the sources of the most innovative 
ideas, which are needed to move science forward.
    It is worth noting, in case anyone believes that rescinding one or 
two grants will affect only one or two research teams, that the people 
who leave sciences may not be the ones directly affected by political 
review. Instead, those departing may `see the writing on the wall' and 
merely speculate that the same treatment could happen to them.

    Political review would unravel the cost-effective volunteer review 
system

    A third source of chill would be for the peer review process 
itself. It is worth noting-although participants of in-person panels at 
the NSF are paid an honorarium for their time-that tens of thousands of 
scientists around the world contribute review reports without being 
paid. To emphasize, it is strictly on a volunteer basis that scientists 
each offer several hours of their time nearly whenever asked. At least 
in my own case, out of appreciation for the NSF, upon receiving an 
invitation I typically drop whatever else I am working on to spend 
about half a day volunteering as a reviewer. Even with conservative 
assumptions about hourly rates, one can estimate that getting these 
peer reviews at no cost currently saves millions of dollars for the 
U.S. taxpayer.
    This volunteer system works because scientists believe that they 
are serving the democratic process. Their time feels well spent for 
having a voice in the future of the field. But this volunteer system 
would be jeopardized if scientists believed that their voices could be 
just as easily overturned by politicians and bureaucrats. As a 
metaphor, I used to spend Thanksgiving and Christmas mornings as a 
volunteer to cook and serve food at a homeless shelter-and imagine what 
it would have been like if someone showed up every now and then to toss 
out some of the food. Presumably, people would have stopped 
volunteering.
    No one minds being given guidelines for their reviews, and ideas 
about these guidelines are discussed below in the response to Question 
2. In the metaphor of the homeless shelter, no one would have minded 
being told that we needed more side dishes or less salt. However, once 
the criteria are described clearly and these criteria are followed in 
good faith, after that it is not possible to discard volunteers' hard 
work without undermining the volunteer system.

2. Maintain cross-disciplinary reviews

    In limiting the amount of ``less than stellar'' grants being 
funded, it is important to maintain the NSF's current commitment to 
including reviewers across multiple scientific disciplines.
    As a democracy, peer review is best when it includes perspectives 
from different walks-of-life. If research is proposed that is seen as 
important only by small groups of people, then such work will 
presumably be reviewed less favorably by scientists outside of those 
cliques.
    This diversity of perspectives could be further enhanced by making 
additional peer review invitations to academically qualified 
individuals outside of university settings. This includes people 
holding Ph.D.s in the relevant field who are now employed in industry, 
non-profit, educational, and government settings. This could be 
accomplished readily with two caveats. First, when including 
professionals from applied settings, an emphasis must be made that they 
are still reviewing basic research-not applied research. Second, even 
while seeking diverse representation, it is crucial to ensure that each 
reviewer has the proper research-based academic qualifications. To 
allow anyone with less than a doctoral degree to provide peer reviews 
would be like allowing Canadians to vote in the U.S. elections.

3. Take a portfolio approach

    I want to take a stand and say that we need to take seriously the 
metaphor that the NSF holds a `portfolio' of research investments. It 
is simply not possible to avoid entirely ``the reality that some less 
than stellar grants are funded in ALL scientific disciplines''. 
Successful investors in the stock market know that you need to take 
some risks in order to earn a good return.
    As I discussed during my earlier testimony, we do not have the 
ability to look into a crystal ball and predict with certainty where 
each project will lead. This information becomes revealed over many 
years. It is tempting to play `Monday morning quarterback,' and to 
imagine that we could have known in advance the return on investments. 
However, we all know that this does not work for the stock market, and 
neither could it work for the NSF.
    How do equity investors account for the reality that some stocks 
are less than stellar? They fine-tune their selection process with a 
sense of acceptance that there is some unpredictability. Investing is 
inherently speculative. If you do not want to speculate-and prefer, 
instead, safe investments-then you need to stick with bonds or other 
instruments that have far lower rates of return. But successful 
investors do not look back at their portfolios while ruminating and 
punishing themselves for not anticipating the demise of some stocks and 
the promise of others. The efficiency of the markets is such that-if 
all of this were predictable-then the returns to investors would be 
low. The returns are high precisely because we do not know in advance 
exactly which investments will succeed.
    So what do successful equity investors do to account for this 
inherent risk? They hedge the risk by diversifying their portfolios. 
The flip side of having some ``less than stellar'' grants is having 
some grants that succeed beyond all imagination. Perhaps there are some 
people who had the foresight to know that NSF grants for teaching 
machines how to recognize the thickness of lines would lead to the 
invention of barcodes, or others who knew that NSF grants for digital 
libraries would lead to the founding of Google. But, more often, 
science proceeds with the likes of Pasteur studying spoiled milk and 
Mendel studying garden peas. As with the stock market or a hedge fund, 
one expects the portfolio as a whole to yield good returns because 
these runaway successes more than make up for the flops.
    Taking seriously the notion that the NSF's investments are like a 
portfolio, we will not dwell as much on the lack of a crystal ball to 
predict the success of individual grants. Imperfect predictability is 
woven into the process. We need to follow the same good practices that 
stockbrokers use in managing long-term portfolios by casting a wide 
net, diversifying our investments, and encouraging risk rather than 
punishing it.

4. Limit misunderstandings through researcher communication

    Surely it must be true-as implied by the question-that there are at 
least some ``less than stellar grants'' funded in all of the sciences. 
However, we also know that many examples of the public trivialization 
of government-funded research are instead a matter of misunderstanding.
    Again, to speak again from my own experience, my NSF-funded 
research was singled out for ridicule by a member of Congress at the 
same time that the Army declared this research valuable for the 
warfighter. Likewise, and as I also mentioned in the earlier testimony, 
the Coburn Report provided many examples of misjudging books by their 
covers. Scientists typically break down large problems into lots of 
smaller problems and, viewed out of context, these smaller problems may 
seem like poor uses of our nation's scarce resources. This appears to 
be what happened with the two entries in the Coburn Report that 
received the most press coverage: shrimp running on a treadmill and 
robots folding laundry.
    Further, the Coburn Report relied on many news articles written 
about NSF-funded research projects, rather than information directly 
from the researchers.
    If my hypothesis is true-namely, that much of the concern about 
``less than stellar'' grants comes from miscommunication rather than 
poor science-then one way to increase the apparent value of scientific 
research is by communicating effectively about the work and its 
importance to the U.S. taxpayer.
    Along these lines, the NSF might experiment with enhancing the 
mechanisms by which researchers communicate directly with the public. 
The question could be posed to each federally-funded investigator: 
Given the scarcity of taxpayer dollars, why is your work an important 
use of this money?
    Currently, after grants are approved, each researcher revises a 
one-page abstract that is published on the NSF's website. Other 
features could be added. Perhaps one could be a brief video made 
cooperatively with the investigator, something like 5-10 minutes 
responding to the key question, ``Why should the U.S. taxpayer fund 
this research?'' A second feature could be a set of links updated over 
time pointing to relevant sources of information that highlight what is 
valuable about the work. These could include blogs, journal articles, 
and other resources accessible via the Internet, using language that 
the interested public could readily understand.
    Providing researchers systematically with the opportunity to make 
their best case to the public should prevent other people from making 
this case-and trivializing it-without them. We could have a good faith 
request that any politician who questions the value of a grant at least 
to watch the brief video before making a public critique. This would 
allow the scientist proactively to provide input into the debate. 
Certainly, reasonable people can still disagree about the value of a 
research project, but at least the disagreement would be informed and 
could proceed on the merits.
    If we created resources like this, I firmly believe that well-
intentioned politicians would change dramatically their estimates of 
the amount of government-funded research that can be called ``waste.''

Q2.  In your testimony, you state that ``Agencies like the NSF are in 
the best position to prioritize federal funding for SBE research . . . 
'' Besides highlighting ``transformative'' research, how else can NSF 
prioritize research? Are there other elements that you would suggest 
focusing on to guide prioritization?

A2. In responding to this question, I would like to highlight one 
guiding principle: Set universal criteria for impact and value, but do 
not weaken science by setting specifics.
    Let me start by emphasizing what we should not be doing: as 
discussed above, we should not attempt to dictate from the top what 
constitutes good science. The history of science suggests that one 
cannot predict in advance exactly what agenda scientists should follow-
any more than the planned economies of the former Communist block could 
have resulted in flourishing business sectors.
    In the sciences, curious minds make connections that can seem 
ridiculous to everyone else-until these ideas are proven brilliant, 
often much later. After all, outside of the scientific community, who 
would have told Pasteur to study spoiled milk? Further, much of 
innovation results from mistakes, such as the mold growing on a 
laboratory dish that led to the discovery of penicillin.
    Accordingly, we need funding for the basic sciences that allows 
researchers to develop fundamental principles to understand the world 
around us. Any attempt to use a big government approach to impose 
specific fields, topics, or other narrow criteria is bound to be the 
subject of intense political debate-and to become outdated as the 
issues pressing to our nation change over time. Perhaps more 
importantly, external constraints can ruin the innovation process, 
because the best minds value their intellectual freedom the most, and 
they use it to travel in the most creative directions.
    Of course, there is also a place for topic-driven research, but to 
be clear that is the definition of applied rather than basic science. 
NSF is the government source for basic science. As such, any move 
towards specifying topics would represent a change to the fundamental 
mandate of this agency and its distinct role within the federal 
government. However, for applied research-which focuses on specific 
topics and specific problems facing the US-researchers can readily 
approach the private sector, foundations, and other government 
agencies.

    So what kinds of elements are appropriate in guiding priorities at 
the NSF?

    As discussed in my earlier testimony, I strongly support the recent 
attempts by the NSF to focus on research that is transformative. Along 
these lines, there are a number of criteria that often indicate when 
work is particularly likely to be transformative-and examples of these 
are detailed below. Focusing on research that has at least some of 
these criteria is likely to improve innovation in basic science and to 
increase the return-on-investment to the American taxpayer:
    <bullet>  Encourage interdisciplinary research
       Creativity often happens when path-breakers cross over the 
boundaries of traditional academic fields. They bring existing 
solutions from one area to solve the problems faced by another area. 
(For example, Edison's early light bulbs kept falling out of their 
sockets until a lab assistant `borrowed' the solution of screw-top caps 
from the makers of kerosene.)
    <bullet>  Encourage early-stage researchers
       Creativity is enhanced with fresh perspectives from people with 
new ideas and new energy. They are less influenced by habits about how 
things have always been done.
    <bullet>  `Spread the wealth'
       Take seriously the idea that NSF investments are like a 
portfolio-a winning strategy for high returns is to hedge one's bets by 
investing in many different ideas. You never know for certain where the 
next big discovery will begin. One strategy for casting a wider net is 
to increase the number of smaller grants, and to reduce the turnaround 
time to review small grants.
    <bullet>  Encourage risk-taking
       Again, portfolio managers seek out risky ideas, with the logic 
of `high-risk-high-return'. One way to take calculated risks is to 
provide riskier ventures with smaller grants, or with grants that are 
administered in stages pending milestones.
    <bullet>  Look for cross-disciplinary impact
       The pattern of scholarly citations can indicate when 
researcher's ideas are influential across fields and subfields-
regardless of whether the research team itself draws from multiple 
disciplines. This criterion could be applied most easily to senior 
researchers.
    <bullet>  Encourage adversarial collaboration
       When researchers disagree with each other, an innovative 
solution that has emerged is for them to conduct a study together. 
Typically a mutually respected third-party acts as an arbitrator. 
Resolving key scientific debates can help to direct future efforts in 
the most productive directions.
    Note that what distinguishes these kinds of helpful criteria from 
the dangerous specifics is that they are universally applicable across 
topics of study.
    Even while emphasizing transformative science, the NSF still needs 
room to fund normal science that fills the gaps in our understanding of 
important research questions. Again, using the metaphor that grants 
funded by the NSF are an investment portfolio, every well-balanced 
portfolio needs to have some secure investments, such as bonds or money 
market accounts.
Responses by Dr. Peter Wood, President, National Association of 
        Scholars

Questions submitted by Chairman Mo Brooks

Q1.  NSF is essentially the only federal agency that historically does 
not receive earmarks. It prides itself on the merit-review process 
which, while not perfect, is currently the best we have. Given its 
imperfections and the reality that some less than stellar grants are 
funded in ALL scientific disciplines, how would you recommend that it 
be improved?

A8. The NSF's commitment to merit review is commendable, but it leaves 
room for improvement. Merit review in general is subject to a variety 
of pressures that can thwart good intentions. Among these are ``group 
think''-the tendency of people to adjust their opinions to those around 
them-; faddish enthusiasm-the tendency of people to overvalue an idea 
that has recently received acclaim or an unusual degree of positive 
attention-; and intellectual timidity-the tendency of people to stick 
with the familiar and to prefer safe, incremental approaches to what 
look like long shots.
 Reviewers are not immune to group think, fads, and timidity. And since 
there is no way to repeal human nature, we have to look for checks and 
balances that will keep these ordinary human tendencies from 
compromises merit review. The best safeguard against group think is to 
make sure that ``peer review'' isn't drawn too narrowly. Proposals 
should indeed be reviewed by some experts who understand the 
researcher's specialization, but also by people in other fields, 
including some who possess authority as ``generalists,'' and who are 
specifically tasked to give reviews from perspectives outside the 
field. And these outsider perspectives should be given significant 
weight.
 The best safeguard against faddish enthusiasm is due deliberation. The 
NAS should be wary of funding topics that have burst on the scene or 
ones that come pre-labeled as having ``scientific consensus'' behind 
them. The rush to fund ``sustainability'' research is a good example of 
a ``consensus'' being proclaimed where there really is none. Of course, 
faced with ardent enthusiasm, deliberation all by itself might not be 
enough to prevent expensive over-allocation of funds. Perhaps another 
safeguard would be to insist that, when it comes to ideas that are 
being pressed as ``urgent,'' the NSF should be restricted to a set and 
relatively small amount of funding. ``Urgent'' ideas seldom prove to be 
really so. And if they are truly urgent, the research will be funded by 
the private sector.
 The best safeguard against intellectual timidity is to weed out the 
reviewers who habitually play it too safe. The NSF ought to score its 
reviewers by matching the results of funding research projects with the 
recommendations that initially favored them. Patterns will inevitably 
emerge. Reviewers who prove themselves able to spot genuinely promising 
research should be encouraged--and perhaps rewarded. Those who, on the 
contrary, have a record of recommending h0-hum research should be 
excused from further service. The same goes for NSF administrators. We 
don't an NSF that takes wild gambles with public money, but NSF's 
mission is to advance basic science and that requires some degree of 
boldness.

Questions submitted by Ranking Member Daniel Lipinski

Q2.  Dr. Wood: In your testimony, you proposed that NSF eliminate its 
grant-making mechanism for rapid response research, also known as 
RAPID. According to NSF, ``the RAPID funding mechanism is used for 
proposals having a severe urgency with regard to availability of, or 
access to data, facilities or specialized equipment, including quick-
response research on natural or anthropogenic disasters and similar 
unanticipated events.'' The typical review and processing time for a 
standard grant is six-seven months; in the case of RAPID grants, it may 
be as little as 30 days. RAPID grants are made across all of NSF's 
research directorates, and account for less than one percent of total 
research grant support at the Foundation. In recent years, NSF has made 
RAPID grant awards in response to the recent tornadoes, the Japan 
earthquake, tsunami and nuclear disaster; the Deepwater Horizon Gulf 
Oil Spill; the 2010 earthquake in Haiti; Hurricane Katrina; and the 
September 11, 2001 terrorist attacks in New York and Washington DC, to 
name a few. Some SBE and other examples of the research funded in 
response to these particular events include:

<bullet>   Analysis of risk perception and communication in multiple 
socioeconomic groups where severe damage occurred during the April 27, 
2011 EF-4 tornado events in Tuscaloosa, Alabama in order to understand 
the way people think about, and understand, the risk they face during 
well-forecasted severe weather events (SBE)
<bullet>   Documentation of the variability in acute responses to a 
community trauma (in this case, the Columbine High School shooting and 
the 9/11 terrorist attack) among both adolescents and adults, in an 
effort to identify early predictors of long-term adjustment to trauma 
(SBE)
<bullet>   Collection and analysis of perishable data from the New 
Orleans levees immediately following Hurricane Katrina in order to make 
a final determination of what caused the levees to fail and how such 
failures could be avoided in the future (ENG)
<bullet>   Collection and analysis of data on the impact of the massive 
release of oil and methane on deep sea microbes in order to understand 
the effect the spill with have on the ecology of the Gulf (GEO).

<bullet>   Do you believe that any of these research proposals should 
have waited the standard 6-7 months instead of 30 days? Do you believe 
it is in the nation's interest to address scientific questions of 
human, environmental, and other impacts in the immediate aftermath of 
disasters such as those listed here? If not, why not? If so, do you 
believe that NSF should have the ability to respond with urgency to 
these disasters? If not, why not?

A2. I believe that the first two examples you cite of RAPID grant 
awards represent inappropriate expenditures of National Science 
Foundation funds. The projects may have served some humanitarian 
purpose, but that is not the purpose for which NSF exists. They sound 
like social work interventions and are far removed from the work of 
basic science. the third and fourth examples you cite could have a 
valid scientific purpose, though surely not one germane to the social, 
behavioral and economic section of the NSF. In any case, they do not 
appear to be basic research in any meaningful sense. As applied 
research, they could easily have been funded and executed by agencies 
of the federal government, such as the Army Corps of Engineers in the 
case of the New Orleans levees, or the Departmentof Energy in the case 
of the Gulf oil spill, that are tasked with work in those areas.
 Do I believe that it is ``in the nation's interests to address 
scientific questions of human, environmental, and other impacts in the 
immediate aftermath of disasters such as those listed here?'' 
Sometimes. It depends. Calling an intervention a matter of addressing 
``scientific questions''doesn't necessarily make it so. Often that's 
just a matter of political rhetoric serving the need of public 
authorities to be able to say they are doing something useful, when the 
scientific merits of the project are tenuous. Ont he whole, I believe 
the NSF should stick to basic science and let other agencies deal with 
the humanitarian needs that follow a disaster. Chasing disasters makes 
for very doubtful science and ends up compromising the quality of 
scientific programs and undermining public trust in the NSF.
Responses by Ms. Diana Furchtgott-Roth, Senior Fellow, Hudson Institute

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
